<html>
<title> - FOREST MANAGEMENT</title>
<body><pre>[Senate Hearing 113-341]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-341
 
                           FOREST MANAGEMENT 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

  THE CHALLENGES AND OPPORTUNITIES FOR IMPROVING FOREST MANAGEMENT ON 
                             FEDERAL LANDS

                               __________

                             JUNE 25, 2013


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

88-885 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Farquhar, Ned, Deputy Assistant Secretary, Land and Minerals 
  Management, Department of the Interior.........................    12
Imbergamo, Bill, Executive Director, Federal Forest Resource 
  Coalition......................................................    35
Johnson, K. Norman, Department of Forest Ecosystems and Society, 
  Oregon State University........................................    17
Maisch, John ``Chris'', State Forester and Division Director, 
  Alaska Department of Natural Resources, Division of Forestry...    29
Miles, Aaron, Member, Clearwater Basin Collaborative.............    45
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     4
Tidwell, Thomas, Chief, Forest Service, Department of Agriculture     6
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    75

                              Appendix II

Additional material submitted for the record.....................    87


                           FOREST MANAGEMENT

                              ----------                              


                         TUESDAY, JUNE 25, 2013

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden, 
chairman, presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    The Chairman. The Committee on Energy and Natural Resources 
will come to order.
    Today the committee meets to give long overdue attention to 
the issue of managing our Federal forests. In my view too many 
of our forestry programs are not working for forest-dependent 
communities, for taxpayers or for the cause of protecting 
America's natural treasures. The fact is current forestry 
programs do not provide a stable source of funding of jobs or 
funding for local communities. Instead of generating revenue, 
too often Federal forest lands have become a burden to our 
taxpayers.
    Too often valuable timber lands are neglected to the point 
they become tinder boxes for catastrophic fire. The status quo 
is unacceptable. So today the committee begins to look 
specifically at the cause of forestry reform.
    One of our Nation's most creative thinkers on the issue, 
Norm Johnson of Oregon State University, is here from my home 
State. He's going to be presenting testimony on behalf of 
himself and Dr. Jerry Franklin. I think it would be fair to say 
wherever there is a challenging forestry issue, that is where 
we are lucky enough to have Dr. Johnson and Dr. Franklin. We're 
very pleased that he could come.
    At town hall meetings that I hold across our State, I am 
told continually of the frustrations of reduced harvest rates, 
reduction in hazardous fuel programs, and other active 
management programs on lands held by the Federal Government in 
the Bureau of Land Management. I know that a number of Senators 
are here to describe the same experience that they have had.
    Over the past two and a half decades the amount of timber 
produced off Federal forest lands has declined at an 
extraordinary rate from a high of 12 billion board feet per 
year in the 1980s to two to 3 billion board feet per year in 
the last decade. You only need to look at the massive wildfires 
that are burning in Colorado, New Mexico, and elsewhere through 
beetle-infested stands and threatened homes to see the 
consequences of failed management. Meanwhile our resource-
dependent communities are losing jobs and they're losing mills 
that are critical to restoring forest health.
    As expected this steep drop in timber production over the 
last few decades corresponds with a dramatic drop in the number 
of the Nation's timber mills with a loss of about half of our 
mills in the last two decades. When those mills go away too 
often communities lose jobs. Federal forest managers lose 
customers who buy lumber and wood products that help pay for 
badly needed restoration.
    It has been said more than once here in this committee that 
the cut needs to go up. We need to get people back to work in 
the woods. It's an absolute prerequisite to make sure that we 
have healthy forests and healthy communities. It's our view 
that this can be done in line with common sense, practical 
application of the environmental laws.
    Now there are 3 recurring themes that have hindered forest 
management operations around the country.
    The first is lack of funding to prepare sales.
    The second is environmental analysis and review time 
associated with the management activities.
    The third is litigation that stalls much of the work that 
is important to actually get done.
    In this hearing we're going to explore ways to address each 
of these 3 challenges and free up resources to get more 
restoration work done.
    The first item is Federal agencies have to do the best 
possible job of budgeting and planning for forest management. 
The status quo is spending more and more money fighting 
wildfires instead of working to prevent those fires is just 
unacceptable. In a hearing a few weeks ago we made it clear 
that the Office of Management and Budget ought to drop its 
obstruction of hazardous fuels reduction funding which is a key 
element of healthy forest planning.
    Just yesterday I had a spirited discussion with the folks 
of OMB, the Director specifically, so that we can create a plan 
to fix the problems with our current approach to fire budgeting 
and stop the pilfering of funding for restoration work and 
hazardous fuels reductions.
    In the same area I have concerns about the amount of money 
that is spent on overhead in administration. When the Forest 
Service refers to as its cost pool charges pays for just about 
everything except the actual work on the ground that makes a 
difference. The Forest Service has also identified this as a 
problem, but according to the agency's last budget documents 
last year, the Forest Service spent 18.2 percent of their 
forest products and restoration funding on overhead.
    In contrast, it's our understanding that other agencies in 
the Department of the Interior and USDA spent about 10 percent 
on overhead for these programs. If the Forest Service cuts its 
overhead to just those levels an additional 24,000 acres could 
receive commercial thinning just from the forest products and 
restoration account savings. If the agency devoted all the 
savings generated across the agency's programs to commercial 
thinning, and of course, I wouldn't say that is a realistic 
target any time soon, the Forest Service could thin an 
additional 485,000 acres per year.
    The second area we're going to look at is how agencies can 
reduce the upfront cost of planning forestry management 
projects. The last time it was measured apparently the Forest 
Service spent $356 million on the needed environmental review 
of the projects--some 70 percent of Federal forest management 
project costs are environmental analysis and document 
preparation.
    So the question on this point is, is there a way to improve 
the NEPA process to reduce the, frankly, staggering costs in 
the planning time without short-changing the important 
environmental protections in the law?
    Finally, once timber sales or management decisions are 
complete there ought to be a way to address the prospect that 
there may be protests or litigation. In my part of the world 
folks, have seen that collaboration is one way to bring the cut 
up just as we've seen in Eastern Oregon while reducing the 
number of lawsuits.
    I particularly want to commend Chief Tidwell's point for 
stressing at every opportunity, as the Chief has, the value of 
collaboration because what we've seen in Eastern Oregon is we 
had a historic agreement between the environmental community, 
between industry and environmental folks. It's yielded 
significant progress on the ground with more collaboration and 
agreement leading to more landscape scale efforts.
    We're pleased that the agency announced a 10-year 
stewardship contract for the Malheur where a collaborative has 
been working very hard to address forest restoration needs. 
We're going to keep working with the parties and the Chief on 
the East side to advance those efforts and look at the rest of 
our State and country.
    Let me wrap up also by way of saying that we want to hear 
about creative approaches to reduce the number of protests to 
the projects and to get the thoughts of our witnesses with 
respect to the other challenges in Oregon starting with the O 
and C lands.
    The Oregon and California lands are truly unique both in 
their legal history and their status going back to the 1937 O 
and C Act. The idea was to provide stable revenues and jobs for 
communities affected by what is a unique and, for all practical 
purposes, crazy checkerboard of public and private ownership. 
But since the Northern Spotted Owl listing in 1990, timber 
harvests have plummeted and the Bureau of Land Management has 
not been able to significantly get the volume of harvest up.
    So we are very anxious to hear, particularly from Dr. 
Johnson, about some of the innovative work that they're doing 
there to look at riparian areas, the work done for the Fish and 
Wildlife Service, and particularly the effort to get more 
inter-agency coordination.
    Despite that, the sales are still tied up with protests and 
litigation and a number of obstacles ahead: Endangered Species 
Act listings, Federal survey and management requirements, that 
are a much larger burden than certainly were anticipated, and 
as mentioned, the checkerboard pattern of ownership.
    So I will shortly be jumping in with legislation that 
builds on the work that's been done by the Oregon delegation 
and Governor Kitzhaber and look forward to hearing from Dr. 
Johnson and the BLM on this as well.
    We've had a number of witnesses make the long trek from the 
West. We appreciate that.
    Let me recognize Senator Murkowski for her opening remarks. 
I appreciate the Senators being in attendance and please 
proceed, Senator Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    Before I begin my comments I want to acknowledge our newest 
member on the committee, who came in while you were speaking. 
But Senator Baldwin has joined the committee. We're going to 
miss Senator Coons and his contributions, but know that we will 
enjoy working with you as well.
    I think Senator Heinrich appreciates the fact that he's 
moved up a chair.
    [Laughter.]
    Senator Murkowski. He's not sitting at the tail end. But 
that doesn't mean that participation from that end of the dais 
is quiet. We appreciate your participation and look forward to 
it as well.
    Mr. Chairman, I appreciate that you have stated that this 
hearing, as we look at forest management practices is long 
overdue in your State, in my State. In fact as I look at those 
who are here today on the committee, we all have a keen 
interest in ensuring that when it comes to our U.S. forests 
that we have active management, that we actually do see some 
harvesting of timber to provide for jobs, economic opportunity. 
I think far too often we see policies that really do restrict 
or limit that.
    So an opportunity to be discussing this today is greatly 
appreciated. I think that your opening statement was really 
quite all inclusive in terms of the issues and the challenges 
that we have in front of us.
    I agree wholeheartedly with you on the importance of 
increasing the timber harvest on our Federal lands. You've 
heard me describe the situation in Southeast Alaska before on 
the Tongass. But I think it bears repeating.
    95 percent of the land base in Southeast Alaska is Federal, 
95 percent. The Tongass is 80 percent of that Federal land. 
It's about 17 million acres.
    It's larger than West Virginia. Senator Manchin was here 
just a little bit ago. But the area of the Tongass that we're 
talking about is larger than his State.
    Southeast Alaska is now and has historically been a 
resource dependent economy directly tied to the Federal land 
that dominates it. Over the past 20 years the forest industry 
which was once the second largest industry in the State has 
been in decline. Both political and economic pressures, 
increased Federal land withdrawals and more stringent 
regulatory climate and environmental lawsuits forced the 
closure of Southeast Alaska's two pulp mills.
    The Tongass Land Use Management plan movement toward 
ecosystem management and the reinstatement of the roadless rule 
have also sharply reduced our allowable harvest levels leading 
to a closure of most of the sawmills. We have one, single large 
sawmill left. That's down in Wrangell. We've got a handful of 
Mom and Pop operations that are left.
    The Chief and I have discussed the situation on the ground 
there in the Tongass. I look forward to the opportunity in 
August when you will have a chance to visit some of these.
    Mr. Chairman, you noted the declining levels of harvest 
around the country. In the Tongass, on average right now, we 
are harvesting just 35 million board feet which is really 
unacceptable in my view. What's left of the timber industry 
I've described folks are just kind of hanging on by their 
fingernails. It impacts jobs, schools, the future of many of my 
constituents.
    So I look forward to a rigorous discussion about the 
Federal policies and management practices on our Federal lands 
that are affecting the timber harvest and how we might be 
working together to remove these obstacles that exist to 
providing sufficient timber supply, long term, to sustain a 
vibrant forest industry well into the future.
    I'd also like to welcome Mr. Chris Maisch, the State 
Forester from Alaska. I look forward to your testimony and 
acknowledge the Chairman's comments that you've come a long way 
here. We appreciate it. I look forward to not only your 
comments, but that of the entire panel.
    The Chairman. Thank you, Senator Murkowski. As we have on 
so many issues, I know we're going to work in a bipartisan way 
on this as well.
    Senator Baldwin was just waiting until Senator Murkowski 
made her remarks until I was going to give you the boisterous 
welcome that you really deserve here.
    Senator Murkowski. I didn't mean to steal your thunder.
    The Chairman. No, you launched it well. The fact is Senator 
Baldwin has a long track record of fresh, creative thinking on 
issues like the environment and health care. You're sitting 
with Senator Heinrich down at your end of the rostrum. We're 
going to be running with the right crowd by having these new 
members with fresh approaches.
    The fact is and Senator Murkowski and have touched on it. 
That's what it's going to take to really address the issue 
we're talking about here today. When we think about trying to 
strike the balance between getting the harvest up without 
compromising our environmental values, I think about places 
like Wisconsin that have had fresh ideas on these natural 
resources issues for quite some time.
    So I want you to know, Senator Baldwin, we're very pleased 
that you've joined us. As you know, there's a long link between 
Oregon and Wisconsin because my predecessor, Wayne Morse, was 
from Madison, your hometown. We're very proud of Senator Morse, 
one of two in the Senate, who voted against the Gulf of Tonkin 
resolution.
    So there's a long, long connection between Wisconsin and 
Oregon. We are very lucky to have somebody who consistently 
comes up with fresh, creative kinds of ideas to the big issues 
of our time. We welcome you and your end of the rostrum, with 
Senator Heinrich. This is going to be the place to be on a lot 
of these debates. We're glad you're with us.
    Let's go.
    Chief, you start it off. Let's hear from all of our 
witnesses. I know there's almost a compulsion to read every 
word in your prepared statement. If you can just summarize your 
key views, we'll make your prepared comments a part of the 
record in their entirety. Then we can get into questions. I 
think we'll have a fair amount of Senators coming in.
    So Chief, welcome.

   STATEMENT OF HON. THOMAS TIDWELL, CHIEF, FOREST SERVICE, 
                   DEPARTMENT OF AGRICULTURE

    Mr. Tidwell. Mr. Chairman, Ranking Member Murkowski and 
members of the committee, thank you for the opportunity to be 
here today to discuss the challenges and opportunities for 
forest management on our national forests.
    I think we've been very clear about the need to restore the 
resiliency of forest health on our national forests. That's why 
we came out last year with our accelerated restoration strategy 
that laid out the need to treat somewhere between 65 and 82 
million acres of our national forest to be able to restore the 
forest health, the resiliency.
    Part of that strategy was also to move forward and increase 
the amount of work we were doing by 20 percent between then and 
what we put out in 2014. We were on target. Had a great year in 
2012 and slowed down a little bit in 2013, but we plan to get 
back on pace in 2014 to be able to continue to increase the 
amount of work we're getting done, along with the key outputs 
such as the board feet that's produced, the miles of stream 
that are restored, the overall watershed health conditions that 
are improved.
    It is essential that we manage and maintain these forests, 
not only for the products that they produce, but simply for the 
health and the water that they produce.
    Sixty million Americans rely on the water that comes off of 
these national forests, and 166 million people visit these 
forests every year for their recreational activities.
    It's a big, key part of their lives.
    It's essential that we manage these forests so that it 
provides for the full mix of multiple use benefits that all of 
our communities rely on. it's what contributes and supports 
over 450,000 jobs. So there are challenges.
    We've laid out the conditions of our forests. The thing 
that's adding to that is the changing climate both from a 
gradual shift in temperatures but also a more abrupt impact 
from the disturbances that we're seeing whether it's the longer 
fire seasons we're seeing today, the increase in insect and 
disease, the extensive droughts that we're dealing with in 
different parts of this country. These conditions are going to 
continue, but there are things that we can do to make sure that 
our forests are more resilient and that so we can actually 
reduce the impact from these disturbance events.
    The other key thing is with the infrastructure. I've said 
numerous times we have to maintain an integrated wood products 
infrastructure so that we have people to do the work, to be 
able to harvest the trees, remove the biomass that needs to be 
removed from these forests. The infrastructure in a lot of 
places in this country we've, like, we've lost it. Senator 
Murkowski, you mentioned the conditions we have up in Southeast 
Alaska.
    The other key thing we need to focus on is markets. As 
markets shift and change there's a need for us to be able to 
not only expand existing markets, but we also need to develop 
new markets, especially to be able to find economical use of 
the smaller diameter material that also needs to be removed in 
conjunction with our timber harvest.
    Then the other challenge that we have is agency capacity. 
Since 1998 our national forest system staff has been reduced by 
35 percent. Our forest management staff has been reduced by 49 
percent; these are our foresters, our biologists, our 
engineers.
    In 1998 we sold 2.95 billion board feet. We were on target 
for next year to be at the same level with half the staff. So 
the opportunity that we have is to be able to continue--we know 
what we need to do on the forests.
    We have the science today. We have the support especially 
through our collaborative efforts where people understand the 
work that needs to be done on our forests. That's what's 
enabled us to be able to move forward, to get more work done, 
and reduce some of the appeals and lawsuits that have plagued 
us in the past.
    Today our science is so clear that for us to be able to 
maintain forest dependent species like the Northern Spotted 
Owl, we need active forest management or we are going to lose 
critical owl habitat to fires or insect and disease. This is a 
significant change from where we were a decade ago, we 
recognize the importance of forest health when it comes to 
maintaining the viability of these key species.
    When we come to the capacity issue, that's where we 
continue to focus on our NEPA efficiencies. We have several 
projects across the country where we've been able to 
demonstrate that by taking a look at larger pieces of landscape 
like with the forest initiative in Arizona, with the Black 
Hills project where we did one analysis for 248,000 acres. 
We're finding that not only is this a better way, but it's much 
more efficient.
    We have a series of pilots that we want to move forward 
with across the country this year to be able to use those types 
of models throughout all of our national forests.
    The other thing we're continuing to work on is just doing a 
better job to focus NEPA on the issues that need to be 
addressed.
    The other thing we want to move forward with is improving 
our objection process to replace our appeals process that in 
the past has definitely added to the time that it's taken us 
for to be able to get our projects completed.
    Mr. Chairman, I appreciate your having this hearing today. 
I look forward to working with the committee to find ways that 
we can increase our efficiencies to be more effective to get 
more done. I look forward to your questions.
    [The prepared statement of Mr. Tidwell follows:]

Prepared Statement of Thomas Tidwell, Chief, Forest Service, Department 
                             of Agriculture
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to present the views of the U.S. Department of Agriculture 
(USDA) regarding national forest management.
    The national forests and grasslands were established to protect the 
land, secure favorable conditions of water flows, and provide a 
sustainable supply of goods and services. National Forest System (NFS) 
lands are managed using a multiple-use approach with the goal of 
sustaining healthy terrestrial and aquatic ecosystems while addressing 
the need for resources, commodities, and services for the American 
people. Rural and urban communities depend on the forests for a variety 
of resources, commodities, and services. For rural communities in 
particular, national forest management can impact local economic and 
social conditions. With our many partners, the USDA Forest Service (FS) 
is working to maintain the functions and processes characteristic of 
healthy, resilient forests and watersheds. Through delivery of our 
programs, we continue to maintain and enrich the social and economic 
environment of our local communities.
    Secretary Vilsack and the US Forest Service recognize the 
importance of increasing the pace and scale of forest restoration in 
our National Forests. We must manage and restore more acres to reduce 
the threat of catastrophic wildfire, to address insects and disease and 
to restore the ecological health of forests for the benefit of all 
Americans. Today, I will talk about a number of the approaches we are 
taking to restore and maintain the health of our National Forests.
                         vegetation management
    Our forests are important to all of us, and people understand that 
forests provide a broad range of values and benefits, including 
biodiversity, recreation, clean air and water, forest products, erosion 
control, soil renewal and more. Forests, which cover a third of the 
country's landmass, store and filter more than half of the nation's 
water supply and absorb 20 percent of the country's carbon emissions. 
Our mission of sustaining the health, resilience and productivity of 
our Nation's forests is critically important to maintaining these 
values and benefits. Restoring the health and resilience of our forests 
generates important amenity values. A study by Cassandra Mosely and Max 
Nielson Pincus, University of Oregon, has shown that every million 
dollars spent on activities like stream restoration, hazardous fuels 
reduction, forestry or road decommissioning generates from 12 to 28 
jobs. Through implementation of the Collaborative Forest Landscape 
Restoration Program--which relies heavily on stewardship contracting--
the proponents of projects on NFS lands maintained 4,174 jobs and 
generated $147,485,912 in labor income in FY2012.
    I've stated in prior hearings the need for increasing the scope and 
scale of our restoration efforts in the face of the threats we're 
facing today from wildfire, insects, disease and invasive species and 
the compounding implications of a changing climate. More than 40 
percent of the contiguous United States is in a moderate or more severe 
stage of drought--with over 4 percent of those areas experiencing 
exceptional drought conditions. In addition, insects and disease have 
weakened the resilience of America's forests. Nationally, approximately 
80 million acres of trees are projected to be at risk of severe 
mortality due to insect and disease. Over the past 10 years in the 
west, approximately 45 million acres across all land ownerships have 
been affected by 20 different species of bark beetles.
    Facing these threats, we've recognized for some time the importance 
of increasing our restoration efforts. We continue to explore new and 
existing tools to become more efficient. In February 2012 the FS 
outlined a strategy for increasing restoration activities across large 
landscapes through more efficient implementation of existing programs 
and policies, as well as pursuing new initiatives. This increase will 
allow the FS to increase the number of acres and watersheds restored 
across the system, while supporting existing infrastructure and jobs. 
Through these efforts, in FY 2012, the FS attained 2.6 billion board 
feet (BBF) volume sold and exceeded a number of restoration targets 
such as moving nine watersheds to an improved condition class (the 
target was five watersheds); decommissioning 2,103 miles of road (the 
target was 2,028 miles); and restoring/enhancing 3,704 miles of stream 
habitat (the target was 2,670 miles).
1. National Environmental Policy Act (NEPA) and Landscape Scale 
        Projects
    The FS recognizes the need for science-based accelerated 
restoration and has made significant recent improvements in the pace 
and scale of its projects on NFS lands. The FS plans to highlight some 
projects that demonstrate accomplishment of high priority restoration 
work across a broad scale and/or reflect innovative approaches and 
efficiencies in collaboration, project planning, data collection, and 
NEPA analysis. These projects will serve as demonstration areas and 
learning centers as individual units develop approaches to accelerate 
the pace and scale of restoration.
    The agency is also saving costs by gaining efficiencies in our 
environmental review process under NEPA. We are identifying NEPA 
efficiencies by focusing on improving agency policy, learning, and 
technology. These NEPA process improvements will increase decision-
making efficiencies, resulting in on-the-ground restoration work 
getting done more quickly and across a larger landscape. The agency has 
initiated a NEPA learning networks project to learn from and share the 
lessons of successful implementation of efficient NEPA analyses. The 
goal of this effort is to ensure that the agency's NEPA compliance is 
as efficient, cost-effective, and up-to-date as possible. Specifically 
we are looking at expanding the use of focused Environmental 
Assessments (EAs), expanding categories of actions that may be excluded 
from documentation in an EA or an EIS, and applying an adaptive 
management framework to NEPA.
    Our landscape-scale NEPA projects will also increase efficiencies. 
For example, our Mountain Pine Beetle Response Project on the Black 
Hills National Forest is implementing a landscape-scale adaptive 
approach for treating current and future pine beetle outbreaks within a 
200,000 acre area. Since signing the decision last December, the forest 
has sold one timber sale and has two others planned for this fiscal 
year. Sales for next fiscal year are identified, along with plans to 
treat existing and newly infested areas in subsequent years. This 
decision has given the forest greater flexibility in treating existing 
and new infestations in a timely and strategic manner. All of these 
efforts are aimed at becoming more proactive and efficient in 
protecting the Nation's natural resources, while providing jobs to the 
American people.
    On the Tongass, in Fiscal Years 2009 and 2010, the forest received 
an allocation of funds to be used to plan larger scale projects 
designed to provide an even flow of timber volume over a 10-year period 
in order to provide a stable supply. This is part of our effort to 
successfully transition the Tongass timber sale program from one based 
on old growth to young growth. The first project in the planning phase 
is the Big Thorne 10-Year Contract; the NEPA contract was awarded in FY 
2011. This project will be offered under the stewardship contracting 
authority, and is expected to be 100 million board feet (MMBF). The 
project is expected to combine timber harvest and other restoration and 
service treatments and the NEPA decision is expected in late 2013.
2. Collaborative Forest Landscape Restoration (CFLR)
    The 23 CFLR projects emphasize restoration across large scale 
landscapes. In addition to finding efficiencies in planning and 
treating larger landscapes, CFLR emphasizes collaboration. 
Collaboration with our partners and stakeholders from all interest 
areas is one of the tools to becoming more efficient through shared 
development and understanding of the desired condition, objectives, and 
issues at the outset of projects. In 2012, these projects exceeded the 
targets for the majority of performance measures.
    In Arizona, the Four Forest Restoration Initiative project is 
contributing to healthier ecosystems, safer communities and supporting 
rural communities. In addition to a range of other restoration 
activities, this project has treated hazardous fuels on more than 
171,900 acres, produced more than 168 MMBF of timber and more than 
878,817 green tons of bioenergy since 2010.
    Colorado has two CFLR projects which are having a measurable impact 
on rural economies. The Uncompahgre Plateau as well as the rest of the 
lands administered by the Grand Mesa, Uncompahgre and Gunnison National 
Forests will play a key role in support of the newly opened lumber mill 
in Montrose. To date, the Uncompahgre project has generated 12 MMBF of 
timber, and reduced hazardous fuels on more than 11,500 acres. As part 
of the Colorado Front Range project, Denver Water contributed more than 
$1,000,000 in 2012 for restoration efforts. Since FY2010, the Front 
Range project has reduced hazardous fuels on more than 17,000 acres, 
and generated more than 17 MMBF of timber.
    The two CLFR projects in New Mexico--the Southwest Jemez, initiated 
in 2010, and the Zuni Mountain, initiated in 2012--together have 
treated fuels on more than 9,900 acres, and generated more than 5 MMBF 
of timber and more than 3,000 green tons of bioenergy.
    The three CFLR projects active in Oregon are building strong 
relationships between the U.S. Forest Service and forest stakeholders, 
supporting local industry, and protecting communities from the risks of 
uncharacteristic wildland fires. The Deschutes project has generated 
more than 19 MMBF of timber and 56,700 green tons of bioenergy as 
products of restoration activities that include more than 31,900 acres 
of fuels reduction in the wildland-urban interface. The Lakeview 
Stewardship Project and the Southern Blues Restoration Project, in one 
year of implementation, produced a combined total of more than 24 MMBF 
of timber, generated more than 13,000 green tons of biomass, and 
treated more than 31,000 acres of hazardous fuels.
    Three CFLR projects are underway in Idaho, creating measurable 
shifts in ecosystem resilience and supporting local economies. The 
Selway-Middle Fork project has sold more than 13 MMBF of timber and 
harvested more than 2,000 green tons of biomass. The Weiser-Little 
Salmon Headwaters project, selected for funding in FY2012, has already 
maintained or generated 136 direct full or part-time jobs. The project 
plans to generate 50,000 green tons of biomass annually and 
approximately 25 MMBF of saw timber annually. In FY2012 the Forest 
completed a major NEPA analysis that approved vegetative treatments on 
more than 25,000 acres. The Kootenai Valley Resource Initiative, also 
selected for funding in FY2012, will treat 39,430 acres mechanically 
over 10 years. The project generated more than 10 MMBF of timber and 
produced more than 2,700 green tons of bioenergy.
    In Washington, the Tapash CFLR has generated more than 23 MMBF of 
timber and treated hazardous fuels on more than 10,000 acres, and the 
Northeast Washington Forest Vision 2020 project, selected in 2012, 
treated 8,012 acres of hazardous fuels.
3. Improved Business Practices
    We are reviewing our business practices around timber sale 
preparation, specifically regarding designation of timber for harvest 
and accounting for merchantable volume, to determine how to reduce the 
cost to the government for selling timber.
4. Stewardship Contracting
    Although timber sales remain the mainstay of our restoration 
efforts, stewardship contracting is another critical tool that allows 
the Forest Service to more efficiently complete restoration activities. 
Permanently reauthorizing stewardship contracting and expanding the use 
of this tool is crucial to our ability to collaboratively restore 
landscapes at a reduced cost to the government by offsetting the value 
of the services received with the value of forest products removed. In 
FY 2012, 25 percent of all timber volume sold was under a stewardship 
contract. Stewardship contracting authorities allow the Agency to fund 
watershed and wildlife habitat improvement projects, invasive species 
removal, road decommissioning, and hazardous fuels reduction 
activities.
    All of these efforts help us be more proactive and efficient in 
protecting the nation's natural resources, while providing jobs to the 
American people.
                          support of industry
    We know we cannot achieve all of this without a strong integrated 
forest products industry that can use all parts and sizes of trees to 
help us accomplish our restoration work. Our best opportunity for 
reducing the cost of these restoration treatments is through timber 
harvest and stewardship contracting. The benefits of maintaining a 
robust forest industry flow not only to local communities but also to 
the Forest Service itself. We rely on local forest contractors and 
mills to provide the workforce to undertake a variety of restoration 
activities.
    Wood energy projects make forest harvests more economically viable 
by providing a productive use for woody biomass which previously was a 
cost to remove. The USDA Wood to Energy Initiative combines programs 
from the Forest Service and USDA Rural Development to expand renewable 
wood energy use, from rural community schools, hospitals and National 
Guard facilities across the country. Wood to Energy projects are 
underway in Alaska, Oregon, Montana, Minnesota to Maine as well as 
industrial applications such as the 11.5 megawatt power plant under 
construction in Gypsum, Colorado. This plant will receive a substantial 
portion of its wood from a 10-year stewardship contract with the 
Stoltze Land and Lumber sawmill in Columbia Falls, Montana. This 
project will replace 100 year old boilers for their wood driers and 
sell 2.5 megawatts of electricity to the local electrical cooperative.
    The FS continues to be a leading agency in the federal government 
to preferentially select domestically harvested wood products in 
building construction projects while increasing its commitment to green 
building standards. All FS building projects incorporate green building 
principles such as energy efficiency, locally produced wood products, 
and recycling and reuse of building materials. New building 
construction and major renovation projects for administration 
facilities or research laboratories over 10,000 square feet must be 
registered and certified using an accredited third-party certification 
systems.
    The FS and USDA, as well as the forest products industry and 
resource management organizations, support a science-based approach to 
evaluate the benefits of using wood and wood-based products in green 
building in the U.S. The inherent benefits of using wood go beyond 
economic gains. Conservation components such as increased forest 
productivity, cleaner air and water, and enhanced wildlife habitat will 
be realized as we actively manage our nation's forests. The process of 
harvest, transport, manufacturing and use of wood in structures creates 
less greenhouse gas emissions than other building products such as 
concrete or steel. (``Life-cycle inventory and assessment research at 
the Forest Products Laboratory: Wood products used in building 
construction, U.S.D.A. Forest Service'').
    The forest products industry workforce is larger than either the 
automotive or chemical industries, currently employing nearly 900,000 
workers. Encouragingly, there have been recent upturns in the housing 
market and lumber prices, resulting in higher demand and prices for 
sawtimber. The capacity exists within the current industry 
infrastructure to meet this increased demand for lumber through adding 
extra shifts, reopening mills, and efficiency gains. The higher demand 
and prices for timber will enable the FS to complete more restoration 
treatments. In spite of flat budgets in the past few years the FS 
increased the volume sold, from 2.38 billion board feet (BBF) in 2008 
to 2.64 BBF in 2012. However, even though we will continue to search 
for efficiencies, due to increased budget cuts in 2013 and projected 
cuts in 2014, we project a slight decline in restoration treatments in 
both years.
    Through the recession and downturn in the housing market, the FS 
has continued to find ways to support local infrastructure. We have 
increased our funding of the timber sale program over the last 17 years 
from a low of $180 million in 1995 to $335 million in 2012. The Agency 
provided timber sale contract relief through price adjustments and 
contract extensions. We also provided Substantial Overriding Public 
Interest (SOPI) to grant additional relief for certain qualifying high 
priced, older contracts; and through SOPIs, we mutually agreed to 
cancel some contracts. We continued to sell timber at a lower price 
reflecting market values. Purchasers continued to purchase FS timber at 
these lower prices, providing more flexibility through combining these 
lower priced sales with earlier, higher priced sales.
                               challenges
    At the completion of fiscal year 2012, we were on a trajectory to 
increase treatment acres, along with timber harvest. In 2013, at a time 
when lumber prices are increasing and the additional value can help pay 
for other restoration work, we received a reduced budget with the same 
reduction projected for 2014. We have had to decrease the amount of 
acres we could treat, along with timber volume to reflect these budget 
reductions. This leads me to my final topic, the challenges impacting 
our Restoration Strategy. In addition to declining budgets, we are 
facing another active fire year. Costs of fire suppression have 
increased to consume nearly half of the entire FS budget. In FY 1991, 
fire activities accounted for about 13 percent of the total agency 
budget; in FY 2012, it was over 40 percent. In the 1980s and 1990s the 
10-year average of suppression costs remained relatively stable, as did 
the number of acres burned nationwide. This was a wetter period in the 
United States and fire activity was relatively low. However, beginning 
in the extreme fire season of 2000, which cost $1 billion, this trend 
started to change. The cost of the FY 2000 fires alone caused the 10-
year average to rise by over $80 million--a 16 percent increase. Since 
FY 2000, the 10-year average has risen almost every year--from a little 
over $540 million to over $900 million in 2012.
    Post-wildfire rehabilitation costs exceed the costs of suppression 
by 2 to 30 times as shown in the ``The True Cost of Wildfire in the 
Western U.S. (Western Forestry Leadership Coalition 2010). Over the 
last two fiscal years the FS Burned Area Emergency Response (BAER) 
program spent almost $94 million in emergency stabilization efforts on 
NFS lands immediately after fires to help with erosion, flooding, and 
other threats to human health and safety, and threats to resources. 
Treatments were as diverse as hillside stabilization, road protection, 
hazardous material stabilization, and hazard tree removal, as well as 
myriad other treatments. And this does not include the long-term costs 
of reforestation and monitoring.
    Staffing within the Agency has also shifted to reflect an increased 
focus on fire. Since 1998 fire staffing within the FS has increased 110 
percent from over 5,700 in 1998 to over 12,000 in 2012. Over the same 
time period, staffing levels for those dedicated to managing NFS lands 
have decreased by 35 percent from over 17,000 in 1998 to over 11,000 in 
2012. In particular, Forest Management staffing has decreased by 49 
percent from over 6,000 in 1998 to just over 3,200 in 2012.
    Litigation is another challenge we face in striving to increase our 
restoration efforts. The Agency fully supports collaboration with our 
partners and stakeholders from all interest areas as one way to be more 
efficient, through a shared understanding of the desired condition, 
across the landscape. The threat of litigation, however, slows down the 
collaborative process, discourages some parties from participating, and 
adds to the Agency's overall costs, as our teams try to improve our 
environmental documentation and decision making to reduce the risk of 
litigation.
    Despite these challenges, we remain optimistic that through 
collaboration with our many interest groups and officials the FS can 
improve accomplishment of our restoration objectives. I want to thank 
the committee for its interest, leadership, and commitment to our 
national forests and their surrounding communities. I would be pleased 
to answer any questions you may have.

    The Chairman. Chief, thank you. That's very helpful. I 
especially appreciate your mentioning the climate issue.
    With a concentration of carbon dioxide in the atmosphere 
having recently passed over 400 parts per million, according to 
the NOAA analysis. I think that's a point well taken. I 
appreciate your bringing it up.
    Let's go now to Mr. Farquhar, Deputy Assistant Secretary 
for Land and Minerals Management, Department of the Interior.

STATEMENT OF NED FARQUHAR, DEPUTY ASSISTANT SECRETARY, LAND AND 
        MINERALS MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Farquhar. Thank you, Mr. Chairman and Ranking Member 
Murkowski. I worked in the DNR where Chris is from in the mid 
80s. I also spent a number of years in New Mexico. So it's 
great to see the members in the committee today.
    I'm Ned Farquhar, Deputy Assistant Secretary for Land and 
Minerals Management at Interior. In my position I oversee work 
done by the Bureau of Land Management and 3 other bureaus. The 
BLM manages a total of about 60 million acres of forest and 
woodlands of which about two million acres are the O and C or 
Oregon and California lands in Western Oregon and about 58 
million scattered among the other 11 Western states.
    Of these 50 million acres of public domain lands the BLM 
manages forests to restore and maintain forest ecosystems, 
reduce the risk of catastrophic wildfire and generate a 
sustainable flow of forest products to support rural 
communities.
    These forests imported $129 million in economic activity in 
2011 through timber sales. They also support local businesses 
that depend on tourism and outdoor recreation.
    In addition to these economic effects, the BLM managed 
forests help to provide clean water, recreational opportunities 
for our communities and they also, as the Chairman just said, 
help store carbon as well.
    As the impacts of drought, wildfire, pests and invasive 
species have grown the BLM has increasingly adopted 
collaborative and landscape style, scaled approaches to forest 
management. Working with our partners on strategies such as the 
Cohesive Wild Land Fire Strategy and the White Bark Pine 
Restoration Strategy and these, obviously, include the State 
agencies represented by Chris, but also the Forest Service with 
whom we work very closely.
    In 2012 the BLM conducted nearly 200,000 acres of hazardous 
fuels treatments, HFR, in forests. In addition to treating 
20,000 acres in forests using timber sales as our technique. 
The BLM uses a variety of tools to manage its public domain 
forests including stewardship contracts, timber sales, service 
contracts and in Colorado, Good Neighbor agreements.
    On the topic of the O and C lands, which I know is of great 
importance to the committee, on the 2.2 million acres of BLM 
managed Oregon and California grant lands the Department 
manages the lands under the O and C Act of 1937 to provide a 
permanent source of timber to protect watersheds, regulate 
stream flow, to contribute to economic stability and to provide 
recreational opportunities consonant with the act.
    The capacity to offer timber sales on these lands involves 
a number of complex and sometimes competing goals for resource 
management. Over the past 3 years the BLM has offered about 650 
million board feet for sale generating about $54 million in 
timber receipts.
    In recent years over 5.5 million visitors per year have 
also come to Western Oregon to enjoy these lands.
    Declining timber harvest levels since the early 1990s have 
affected jobs in Western Oregon and resulted in decreased 
timber revenues paid to the O and C counties of which there are 
18. The Secure Rural Schools Act expiring in last year, in 
fiscal year 2012 provided supplemental payments to these 
counties. The BLM has made the payments to the counties for 
2012 and the President's budget proposes reauthorization of the 
Secure Rural Schools Act for the next 5 years.
    The complexity of the forest management issues in Western 
Oregon makes it necessary to address these problems in a 
collaborative manner to meet the needs of industry and rural 
communities while protecting habitat for threatened and 
endangered species and providing recreation opportunities. We 
appreciate the leadership that Senator Wyden and others have 
shown toward the development of this collaboration on these 
issues in a very complex situation.
    The BLM is currently implementing 3 secretarial pilot 
projects with the help of my co-panelist here, Dr. Norm Johnson 
and his colleague, Dr. Franklin. These pilot projects provide a 
demonstration of the use of the active forest management 
techniques in Western Oregon within the BLM's Roseburg, Coos 
Bay and Medford districts. These ecological forestry pilot 
projects will help inform BLM's management of the O and C lands 
to develop future timber sale proposals. As we revise the 6 
resource management plans governing management of BLM lands in 
Western Oregon.
    As the BLM moves forward with these revisions we will 
continue to work with our 25 cooperating agencies and to obtain 
public input through a series of public meetings.
    The BLM is committed to managing both public domain forests 
and the O and C lands in a manner consistent with applicable 
authorities. We look forward to continuing to work with the 
members of the committee and our partners to manage forests and 
their many resources and values. We thank you again for the 
opportunity to discuss these programs.
    I'll be glad to answer your questions.
    [The prepared statement of Mr. Farquhar follows:]

 Prepared Statement of Ned Farquhar, Deputy Assistant Secretary, Land 
          and Minerals Management, Department of the Interior
    Thank you for the opportunity to discuss the management of forests 
and woodlands on lands administered by the Bureau of Land Management 
(BLM), including both public domain lands and the Revested Oregon and 
California Railroad and Reconveyed Coos Bay Wagon Road Grant Lands (the 
O&C lands). A total of roughly 60 million acres of BLM-managed lands 
are forests or woodlands, including 2.2 million acres of O&C forest 
lands.
                   public domain forests & woodlands
    The BLM manages forests on public domain lands to restore and 
maintain forest ecosystems, reduce the risk of catastrophic wildfire, 
and generate a sustainable flow of forest products that can be sold 
through commercial and salvage timber sales and personal use permits 
that support rural communities. Resilient forests store and filter 
water for aquifers and reservoirs, offer opportunities for recreation, 
provide habitat for thousands of species, store carbon, provide clean 
air, support timber and other jobs, and provide millions of board feet 
of lumber and thousands of tons of biomass for alternative energy. 
According to the Department of the Interior's 2011 Economic Impact 
Report, timber harvested from public domain forests supported $129 
million in economic activity in 2011, and biomass from BLM forests has 
become part of the feedstock that meets various State and Federal 
renewable energy portfolio standards. BLM forests also support local 
businesses dependent on tourism and outdoor recreation. Additionally, 
the value of forests for biological carbon storage is being 
increasingly studied and understood and can help the United States 
toward a better carbon balance.
    Extreme drought, wildfires, pests, and invasive species 
infestations have plagued much of the West over the past decade, 
causing significant impacts to both forest health and local economies. 
The BLM has worked collaboratively with Federal, State, and other 
partners to develop strategies for addressing forestry issues such as 
the mountain pine beetle outbreak and whitebark pine tree decline. In 
2012 fire affected over 287,000 acres of BLM forests and a cumulative 
1.7 million acres of BLM forest mortality have been attributed to bark 
beetles, other insect attacks, and pathogens. Overall, the BLM 
estimates that about 14 million acres of BLM-managed forests outside of 
western Oregon are at elevated risk of insect and disease attacks or 
catastrophic wildfire. In 2012, as part of the Bureau's hazardous fuels 
reduction program, the BLM conducted restoration and hazardous fuels 
reduction treatments, including thinning, salvage, and prescribed 
burns, on more than 465,000 acres of BLM-managed forests, woodlands and 
rangelands.
    Because potential threats to forest health often cross 
jurisdictional boundaries, the BLM has increasingly adopted a landscape 
approach to resource conservation and treatments to reduce the buildup 
of hazardous fuels. The BLM has begun developing vegetation management 
policies that consider entire landscapes, through integrating a number 
of programs--including forestry, rangeland management, riparian 
management, plant conservation, invasive weeds, and fire 
rehabilitation. This integration should result in more coordinated 
policies. On BLM managed lands outside of western Oregon, the BLM also 
offered over 35 million board feet of timber and other forest products 
for sale and used timber sales to treat over 20,000 acres of vegetation 
in fiscal year 2012. In addition, the BLM routinely works with partner 
agencies, organizations, and landowners to engage in land and watershed 
restoration and hazardous fuels reduction activities on Federal, state, 
and private lands, and the BLM has used the pilot Good Neighbor 
Authority in Colorado on projects where small parcels of federal lands 
were interspersed with state and private lands.
    Stewardship contracts, timber sales, and service contracts are 
tools that the BLM uses to manage our forested lands. Stewardship 
contracting authority allows the BLM to award contracts for forest 
health and restoration treatments, including hazardous fuels 
reductions, for a period of up to ten years and to use the value of 
timber or other forest products removed as an offset against the cost 
of services received. The BLM has enjoyed many successes in using 
stewardship contracting authority, thereby achieving goals for forest 
and woodland restoration, and conducting both hazardous fuels reduction 
and habitat restoration treatments. In addition, stewardship contracts 
create jobs and revenue growth for local communities, and protect local 
communities from wildland fire. From 2003 through 2012, the BLM entered 
into over 400 stewardship contracts on approximately 108,000 acres of 
BLM-managed lands. This important authority expires in September, 2013, 
and the President's Budget for FY 2014 proposes to make the authority 
permanent.
                             the o&c lands
    The 1937 O&C Lands Act placed the 2.2 million checkerboard acres of 
Oregon and California Railroad and Coos Bay Wagon Road grant lands 
under the jurisdiction of the Department of the Interior. Under the O&C 
Lands Act, the Department of the Interior manages the O&C lands for 
``the purpose of providing a permanent source of timber supply, 
protecting watersheds, regulating stream flow, and contributing to the 
economic stability of local communities and industries, and providing 
recreational facilities.'' The Act also provides that the 18 O&C 
counties receive yearly payments equal to 50 percent of receipts from 
timber harvests on public lands in these counties.
    After the historic highs in the late 1980s, timber harvests and the 
associated payments to counties decreased significantly in the mid-
1990s due to many factors, including business cycles, industrial 
logging practices such as outdated clear-cut techniques and herbicide 
spraying that are not employed today, and a better understanding of 
conservation requirements for threatened and endangered species such as 
the Northern Spotted Owl, coho salmon, and marbled murrelet. The 1994 
Northwest Forest Plan was developed by Federal agencies in consultation 
with the public and industry to be a balanced, long-term management 
plan providing a stable supply of timber along with protection of fish 
and wildlife habitat for 24.5 million acres of Federal forest, most of 
which is managed by the U.S. Forest Service, in western Oregon, western 
Washington, and northern California.
    The Department of the Interior continues to manage the O&C lands 
under the Northwest Forest Plan, along with management recommendations 
derived from the 2011 Northern Spotted Owl recovery plan, and the 2012 
Final Critical Habitat Rule, and a number of court decisions. The BLM's 
capacity to offer timber sales involves a number of complex and 
sometimes competing resource management goals, including providing a 
predictable and sustainable yield of timber and other forest products, 
maintaining endangered species habitat, providing clean water, 
protecting older forests, restoring fire-adapted ecosystems, and 
providing recreational opportunities. Over the last three years, the 
BLM in western Oregon has offered approximately 650 million board feet 
of timber and generated over $54 million dollars in timber receipts. 
During this same period, 32 thousand acres have been harvested on the 
O&C lands. Over 5.5 million visitors per year come to the BLM-managed 
lands in western Oregon to enjoy hiking, camping, hunting, fishing, and 
boating. The BLM's total land management budget in FY 2013 was reduced 
in total by $69 million from the 2012 enacted level, including a $5.8 
million sequestration reduction for the management of O&C lands. Since 
implementing timber sales requires a 2-3 year planning process, the 
reduced funding in FY 2013 will impact BLM's capacity to maintain and 
increase timber harvest levels in 2014, 2015, and 2016.
    Declining timber harvest levels, a result of the increasingly 
complex issues in the area and increasing litigation, have impacted 
jobs in western Oregon and have resulted in decreased timber revenues 
paid to the O&C counties. Congress has developed a number of 
legislative solutions over the years to supplement revenues to 
counties, including the Secure Rural Schools Act, which was originally 
enacted in 2000, but expired at the end of FY 2012. If the Secure Rural 
Schools Act is not reauthorized, payments to the 18 counties in western 
Oregon will revert to receipt sharing as provided under the O&C Lands 
Act. The President's 2014 Budget proposes to reauthorize the program 
for five years beginning in 2013 and continuing through 2017.
Collaborative Approaches
    The BLM is aware that in western Oregon, the need for a predictable 
and sustainable timber supply, local jobs, and revenues for public 
services provided by the O&C counties must be balanced with the goals 
of maintaining recreational opportunities, conserving older forests, 
and aiding the recovery of the Northern Spotted Owl and other 
threatened and endangered species. Despite decades of controversy 
surrounding these issues, many in Oregon continue to work hard to 
develop feasible solutions that meet the needs of industry, rural 
communities, local governments, and the conservation of habitat, 
species, and water resources. For example, as provided under Title II 
of the Secure Rural Schools Act, the BLM has collaborated with Resource 
Advisory Committees to prioritize and allocate funding for restoration 
projects. As part of the Administration's ongoing commitment to improve 
forest health, aid in the recovery of the Northern Spotted Owl, and 
support economic opportunities for local communities in the Pacific 
Northwest, leaders from the U.S. Fish and Wildlife Service, BLM, and 
U.S. Forest Service met in April with employees from all three agencies 
to articulate a common vision and intent in approaching these goals. In 
the past year, Governor Kitzhaber; Senator Wyden; and Representatives 
DeFazio, Walden, and Schrader have initiated collaborative efforts to 
better understand and address these multifaceted concerns. Because the 
issues surrounding forestry in western Oregon are both complex and 
contentious, the various collaborative approaches undertaken by the BLM 
and others have all met with challenges in reaching consensus among the 
wide range of stakeholders.
Secretarial Pilot Projects
    To promote the maintenance of healthy forest systems in western 
Oregon, the Department of the Interior has initiated three 
collaborative pilot projects applying the principles of ecological 
forestry in the Bureau's Roseburg, Coos Bay, and Medford districts. 
Ecological restoration--an array of principles and techniques developed 
in partnership with Dr. Norm Johnson, Professor of Forestry Resources 
at Oregon State University, my fellow panelist, and Dr. Jerry Franklin, 
Professor of Ecosystem Science at the University of Washington--applies 
variable retention harvest techniques that create early successional 
ecosystems while conserving high-value habitat across large watersheds.
    These pilot projects have been underway since December 2010, and 
have involved collaboration with resource professionals from the BLM, 
U.S. Fish and Wildlife Service, National Marine Fisheries Service, and 
the Coquille Indian Tribe, as well as industry and the conservation 
community. The objective of the pilots is to demonstrate the ecological 
and economic merits of the restoration strategy outlined by Professors 
Johnson and Franklin in moist and dry forests. The pilots serve as 
examples of how active management may be applied in critical habitat 
for the Northern Spotted Owl, and lessons learned through these pilot 
efforts will help inform the BLM's approach to future management of 
these lands.
Resource Management Plans
    The BLM is revising the six Resource Management Plans that govern 
management of the O&C lands. The BLM will continue to have significant 
engagement with the public in this effort, striving for a cooperative 
approach to the complex issues associated with managing these lands. 
The BLM in western Oregon is employing a series of collaborative 
approaches and meetings to engage over 25 formal cooperators in 
addition to interested public stakeholders during the current efforts 
to revise the Resource Management Plans. The revised plans will provide 
a management framework for O&C lands that furthers the recovery of 
threatened and endangered species, produces a sustained yield of timber 
products, provides for clean water, restores fire-adapted ecosystems, 
and ensures diverse recreational opportunities. In 2012, scoping for 
the plan revisions was completed, and the BLM has used input derived 
during the scoping period to determine the Purpose and Need for the 
planning effort. The BLM has also begun hosting a series of meetings to 
conduct outreach on issues important to the public as we move forward 
toward developing a draft. The revised plans will consider lessons 
learned from the ecological forestry pilot projects, the revised 
recovery plan and final critical habitat designation for the Northern 
Spotted Owl, and the 2008 planning effort. As the BLM moves forward 
with the planning effort, it will also continue to work with Senator 
Wyden, Governor Kitzhaber, and other leaders in Oregon in their efforts 
to develop a collaborative resolution to forest management issues in 
western Oregon.
                               conclusion
    The BLM is committed to managing both public domain forests and the 
O&C lands in a manner consistent with applicable authorities, including 
the O&C Lands Act in western Oregon. The BLM will continue to offer 
timber sales consistent with our Resource Management Plans and the 
Northwest Forest Plan for the benefit of rural economies and forest 
health. We look forward to continuing to work with the Committee and 
with our partners to manage forests and their many associated resources 
and values on the public lands. Thank you again for the opportunity to 
discuss the BLM's forest management programs.

    The Chairman. Thank you and also thank you to all the 
people at the agency helping us with the technical assistance 
to get that O and C bill ready.
    Mr. Farquhar. We'll be very happy to help with that, 
Senator.
    The Chairman. Very good.
    Dr. Johnson, welcome.

STATEMENT OF K. NORMAN JOHNSON, DEPARTMENT OF FOREST ECOSYSTEMS 
              AND SOCIETY, OREGON STATE UNIVERSITY

    Mr. Johnson. Good morning. Thank you for the invitation, 
Senator Wyden, to speak before your committee.
    I'm speaking today for myself and Dr. Jerry Franklin. I 
must say that the comments represent our own views and not 
necessarily of our respective institutions. Jerry is at the 
University of Washington and I'm at Oregon State University.
    My testimony today focuses on how we might improve 
attainment of a key goal of the 1937 O and C Act that set the 
initial management direction for the BLM O and C lands. That 
specific legislative direction for a sustained yielded timber 
harvest that contributes to the economic stability of local 
communities makes these lands unique, with different 
responsibilities from our national forests.
    In addition the lands are confined within a single State, 
Oregon, also making them different from other Federal lands.
    The Northwest Forest Plan which BLM now operates under 
designated matrix as a land base for sustained yield management 
including regeneration harvest. In the face of public protest 
and litigation though, the agency has retreated to a short term 
strategy of young stand thinning and fuel reduction while 
waiting for a political and Administrative decision which will 
allow it to set a sustained yield level. The current strategy 
has a limited timeframe, perhaps 15 years, until it will 
exhaust harvest opportunities. Also, it produces only very 
modest payments to the counties in which the forests lie.
    Our experience suggests that timber harvest will be 
difficult to sustain unless there are evident, ecological and 
social benefits. The broad support gained for both plantation 
thinning and fuel reduction illustrates this concept and 
explains why BLM has limited its recent harvest activities to 
those treatments.
    With these observations in mind we suggest an ecological 
forestry approach to the management of the O and C lands, an 
approach that incorporates principles and natural forest 
development including the role of natural disturbances. As part 
of this we first divide the forest into two categories, moist 
forests and dry forests because of their contrasting 
disturbance regimes and responses to management and the 
fundamental need for differing policies with regard to the 
protection of old growth forests.
    Within the last 2 years we've worked with the Department of 
the Interior and Oregon BLM to design and implement ecological 
forestry projects on the BLM O and C lands, as Ned just said. 
We'll discuss below the potential of both types of forests to 
contribute to our permanent timber supply. Much of our 
discussion centers on moist forests, the classic rain forest of 
the Northwest, as they hold most of the timber volume growth 
and economic value of these lands.
    Under the Northwest Forest Plan the matrix is a long term 
timber supply. Over the last 20 years the affected moist forest 
matrix on BLM has been significantly reduced for a variety of 
biodiversity concerns. We estimate that currently at most 10 
percent of the moist forest acreage could be included with some 
certainty in the land base for sustained yield management.
    We also have concluded that reversing these trends and 
providing a robust, long term timber supply from the O and C 
lands will require two things.
    Utilizing management strategies that provide both 
ecological and social benefits.
    Expanding the land base for long term timber production in 
ways that sustain environmental values.
    As we mentioned our experience suggests that the moist 
forest regeneration harvest and essential component will be 
difficult to implement unless there are evident ecological 
benefits. To restart generation harvest we recommend a 
silvicultural strategy that utilizes variable retention harvest 
followed by the nurturing of diverse early seral ecosystems and 
the growing of stands and rotations long enough for a 
biocomplexity to occur.
    While this strategy will not provide the per acre harvest 
equivalent to those obtained under intensive management such an 
approach would provide a permanent timber supply. There are 
pictures in our report demonstrating these ideas from the 
pilots. This does not involve the harvest of old growth trees 
and does not utilize clear cutting.
    Given the goals of the Northwest Forest plan and recovery 
plans for threatened and endangered species the younger forest, 
outside of Northern Spotted Owl critical habitat is a likely 
current source of acres for sustained yield management.
    We do suggest 3 potential changes that would increase the 
moist forest land base.
    Adoption of a new stream buffering strategy that we helped 
develop with Dr. Reeves, who took part in the development of 
the Northwest Forest plan.
    Re-evaluate the need for younger stands in the late 
successional reserves and limiting survey and manage 
requirements to species known to be in decline.
    In addition we recommend that the BLM accelerate its 
collaborative effort with the Fish and Wildlife to understand 
the potential role of moist forests variable retention harvest 
in critical habitat for the Northern Spotted Owl and identify 
the potential level of activity over the next 5 to 10 years.
    In total all of these changes could double or triple the 
land base for sustained yield management in moist forests.
    In dry forests which are around Medford and Grant's Pass 
are immensely important to the people of Southwest Oregon in 
many ways. Numerous ecological and social tensions surround 
their conservation and use. Increasing stand density threaten 
neighboring homes and communities on the forests themselves. 
Yet harvests under the restoration strategies often do not 
yield substantial revenue, making it difficult to pay for 
actions that are address public concerns and increase forest 
sustainability.
    For these dry forests we need a strategy tailored just to 
them with retaining and nurturing old trees and other 
significant structural elements of the dry forest, as a 
starting point, and the application of ecological forestry. In 
addition retaining some denser forests and patches scattered to 
the landscape in an untreated or a lightly treated condition is 
an important element.
    We think that this strategy should be applied across ages, 
land allocations and locations across the entire matrix and 
LSRs, inside and outside of critical habitat. In so doing we 
expect that about one third of the dry forest we retain in 
denser patches and half to two-thirds would be treated.
    In sum these approaches should help address the issues 
surrounding how to increase timber harvests on the O and C 
lands while still retaining environmental values.
    Thank you.
    [The prepared statement of Mr. Johnson follows:]

     Prepared Statement of K. Norman Johnson, Department of Forest 
Ecosystems and Society, Oregon State University, and Jerry F. Franklin, 
 School of Environmental and Forest Science, University of Washington, 
  with the technical assistance of Debora Johnson, Applegate Forestry
    I speak today for myself and Dr. Jerry Franklin. These comments 
represent our own views and not those of our respective institutions.
    The BLM in western Oregon administers a collection of land 
ownerships resulting from various Congressional actions. They include 
the Oregon and California Railroad Lands, Coos Bay Wagon Roads and 
Special Act lands, totaling over 2.1 million acres. Collectively, we 
will call them by their popular name of ``BLM O&C lands'' (Figure 1)*. 
In addition, some O&C lands are within the national forests and are 
administered by the Forest Service, the ``Controverted Lands'' 
(approximately 450,00 acres outside of Wilderness) (Figure 1). We will 
discuss the Controverted Lands later in this report.
---------------------------------------------------------------------------
    * All figures have been retained in committee files.
---------------------------------------------------------------------------
    Our testimony today focuses on how we might improve attainment of a 
key goal of the 1937 O&C Act that set the initial management direction 
for the BLM O&C lands--attainment of sustained yield of timber harvest 
that enables a permanent source of timber supply and contribution to 
the economic stability of local communities.\1\ By sustained yield, we 
mean organization of a property for continuous timber production, under 
the silvicultural prescriptions, rotation ages, and cutting cycles 
reflective of the goals for the forest (Helms, 1996).
---------------------------------------------------------------------------
    \1\ Congress directed that the O&C forests be managed for `` . . 
.permanent forest production. . .in conformity with the principle of 
sustained yield for the purpose of providing a permanent source of 
timber supply. . . ., protecting watersheds, regulating stream flow, 
and contributing to the economic stability of local communities and 
industries, and providing recreational facilities.''
---------------------------------------------------------------------------
    This specific legislative direction for sustained yield of timber 
harvest that contributes to the economic stability of local communities 
makes these federal lands unique, with different responsibilities than 
our national forests. In addition, the lands are confined within a 
single state--Oregon--also making them different from other federal 
lands.
    As other acts have been passed, such as the Endangered Species Act 
and the Clean Water Act, managers of O&C forests have gained added 
responsibilities that have significantly impacted the sustained yield 
level of timber harvest (Tuchman and Davis 2013). They are currently 
managed under the Northwest Forest Plan (USFS and USBLM 1994).
    Perhaps the most elusive and frustrating part of managing the BLM 
O&C lands has been failure to establish a sustained yield of timber 
harvest that enables a permanent source of timber supply as mandated in 
the 1937 O&C Act. The Northwest Forest Plan, under which BLM now 
operates, designated ``Matrix'' as the land base for sustained yield 
management, including regeneration harvest. In the face of public 
protest and litigation, though, the agency has retreated to a short-
term strategy of young stand thinning and fuel reduction, while waiting 
for a political or administrative decision that will allow it to 
establish a sustained yield level and proceed with the harvests to 
achieve it (Johnson and Franklin 2012, 2013). The current strategy has 
a limited time-frame (perhaps 15 years) until it will exhaust harvest 
opportunities; also, it produces only very modest payments to the 
counties in which these forests lie.
    We base on our recommendations on the experience of the last three 
years in which we assisted the BLM in setting up a number of 
demonstration projects to help them move beyond the current strategy to 
one that will be more long lasting. Our experience suggests that timber 
harvests will be difficult to implement unless there are evident 
ecological and social benefits--the broad support gained for both 
plantation thinning and fuel reduction illustrate this concept and why 
BLM has limited its recent harvest activities to those treatments.
    Also, a recent survey of Oregonians showed that they favor 
ecological forestry approaches to the BLM O&C lands over more 
traditional intensive management approaches even though they would 
produce lower harvest and revenue. These results also hold in the 
downstate counties most impacted by the reduction in O&C harvest 
(Taylor 2013).
    With these observations in mind, we suggest an ``Ecological 
Forestry'' approach to management of the BLM O&C lands--one that will 
provide both ecological and economic benefits now and into the future.
    ``Ecological Forestry'' incorporates principles of natural forest 
development, including the role of natural disturbances, in the 
initiation, development, and maintenance of stands and landscape 
mosaics (Seymour and Hunter 1999, Franklin et al. 2007, Franklin and 
Johnson 2012). Ecological Forestry is based, therefore, on application 
of our best current ecological understanding of forest ecosystems in 
managing these ecosystems to achieve integrated environmental, 
economic, and cultural outcomes.
    We wish today to describe Ecological Forestry concepts and how they 
can assist in providing a sustained yield of timber harvest from the 
BLM O&C lands.
              recognition of moist forests and dry forests
    For management and discussion, we divide the BLM O&C forests into 
Moist Forests and Dry Forests, because of their contrasting disturbance 
regimes and responses to management, and the fundamental need for 
differing policies with regard to protection of old-growth forests and 
trees (Franklin and Johnson 2012) (Figure 2).
    Over the last two years, we have worked with the Department of 
Interior and Oregon BLM to design and implement Ecological Forestry 
projects in Moist Forests and Dry Forests on the BLM O&C lands--
projects that have both ecological and economic benefits (Johnson and 
Franklin 2012, 2013) (Figure 2).
    We will discuss below the potential of both types of forest (Moist 
and Dry) to contribute to a permanent timber supply. Much of our 
discussion centers on Moist Forests as they hold most of the timber 
volume, growth, and economic value of these lands.
                  ecological forestry in moist forests
    Moist Forest ecosystems undergo many centuries of stand development 
and change following major disturbances, such as severe wildfire or 
windstorm, before achieving the massiveness and structural complexity 
of old-growth forests (Franklin et al. 2002). Composition, structure, 
and function of existing unmanaged old-growth Moist Forests generally 
are relatively unaffected by human activities, except at stand edges 
(Forest Ecosystem Management Assessment Team 1993). Management 
activities in these existing old-growth Moist Forests, such as 
thinning, are not needed to sustain desired conditions in these forests 
and can actually cause old-growth Moist Forests to diverge widely from 
natural forests in structure and function or become destabilized 
(Franklin et al. 2002). Wildfire suppression is typically consistent 
with efforts to retain such forests--i.e., it is not known to result in 
significant changes in Moist Forest ecosystems (Agee 1993).
    Restoration may be needed in Moist Forest landscapes in which old-
growth stands are embedded, however. Many Moist Forest landscapes are 
currently dominated by dense young plantations, which are low in 
biodiversity and deficient in the early (pre-forest) and late (mature 
and old-growth) successional stages, which are richest in biodiversity 
(Wimberly 2002, Spies et al. 2007). Late-successional Moist Forests 
provide habitat for thousands of species including the Northern Spotted 
Owl (NSO) (Strix occidentalis caurina) and other habitat specialists 
(Forest Ecosystem Management Assessment Team 1993); past timber 
harvests have greatly reduced their extent and continuity (Forest 
Ecosystem Management Assessment Team 1993, Wimberly 2002, Spies et al. 
2007). Continued decline in NSO populations across much of its range 
have heightened the importance of retaining late successional forests 
(Forsman et al. 2011).
    Early successional or seral Moist Forest sites are highly diverse, 
trophic-and function-rich ecosystems that develop after a severe 
disturbance but before the re-establishment of a closed forest canopy 
(Swanson et al. 2011). Conceptually, disturbances of either natural 
(e.g. wildfire) or human (e.g. timber harvest) origin are capable of 
generating this stage.
    Large natural disturbances often produce high-quality early seral 
ecosystems provided they are not intensively salvaged and replanted 
(Swanson et al. 2011). However, such disturbances are unevenly 
distributed in time and space.
    Areas devoted to traditional intensive timber production (clearcut, 
site preparation, dense planting and control of competing vegetation to 
ensure rapid dominance of the next forest crop on the site) provide 
little high quality early seral habitat for several reasons. First, few 
or no structures from pre-harvest stands (e.g., live trees, snags, and 
logs) are retained on intensively managed sites, although they are 
abundant following severe natural disturbances (Swanson et al. 2011). 
Additionally, intensive site preparation and reforestation efforts 
limit both the diversity and duration of early seral organisms, which 
are often actively eliminated by use of herbicides or other treatments 
(Swanson et al. 2011). Consequently, many Moist Forest landscapes 
currently lack sufficient representation of high-quality early seral 
ecosystems due to harvest, reforestation, and fire suppression policies 
on both private and public lands (Swanson et al. 2011, Spies et al. 
2007).
    Functional early seral habitat potentially can be created using 
regeneration harvest prescriptions that retain biological legacies and 
use less intensive approaches to re-establishment of closed forest 
canopies (Franklin and Johnson 2012). Such approaches would produce 
more modest timber yields than the intensive management described above 
but could provide significant ecological benefits.
    Given all these considerations, and others, we utilize the 
following Ecological Forestry strategy for Moist Forests on BLM O&C 
lands (Franklin and Johnson 2012):

  <bullet> Retain existing older stands and individual older trees 
        found within younger stands proposed for management, using a 
        selected threshold age;
  <bullet> Accelerate development of structural complexity in younger 
        stands, using diverse silvicultural approaches;
  <bullet> Implement variable retention regeneration harvests in 
        younger stands (stands generally less than 80 years of age), 
        retaining such structures as individual trees, snags, and down 
        logs and intact forest patches;
  <bullet> Accommodate development of diverse early seral ecosystems 
        following harvest, by using less intense approaches to site 
        preparation and tree regeneration;
  <bullet> Embed the preceding objectives in a silvicultural system 
        that includes creation and management of multi-aged, mixed-
        species stands on long rotations (e.g., 100-160 years); and,
  <bullet> Develop landscape-level plans for distributing variable 
        retention regeneration harvests to assure desired placement and 
        appropriate scale of implementation.

Sources of a Permanent Timber Supply from BLM Moist Forests
    Under the Northwest Forest Plan, the ``Matrix'' is the source of 
long-term timber supply--the part of the BLM O&C lands that has long-
term timber production as a goal. Over the last 20 years, the effective 
Moist Forest Matrix acreage available for sustained yield management 
has been significantly reduced from that originally identified in the 
Northwest Forest Plan (Figure 3). Four major reasons for this shrinkage 
are: 1) Critical Habitat for the NSO covering Matrix (USFWS 2012), 2) 
Recommended Actions in the NSO Revised Recovery Plan that result in 
protection of older stands in the Matrix (USFWS 2011), 3) Habitat for 
the Marbled Murrelet discovered over time in Matrix, and 4) Buffer 
requirements for Survey and Manage Species. It must be added that 
public protest of harvest of mature and old forest in the Matrix often 
predated these administrative actions and effects, contributing in many 
ways to the shrinkage in this land base. We estimate that, at most, 10% 
of Moist Forest acreage--the ``available'' Matrix--can currently be 
included, with some certainty, in the land base for sustained yield 
management.
    We have concluded that reversing these trends, and providing a 
robust long-term timber supply from the O&C Moist Forests will require: 
1) utilizing management strategies that provide both ecological and 
economic benefits and 2) expanding the land base for long-term timber 
production in ways that sustain environmental values. We will discuss 
each in turn.
Moist Forest Management Strategies That Provide both Ecological and 
        Economic Benefits
    As mentioned above, our experience indicates that Moist Forest 
regeneration harvests---an essential component of sustained yield 
management---will be difficult to implement unless there are evident 
ecological benefits. BLM has limited its recent activities in Moist 
Forests to plantation thinning where such benefits can be demonstrated.
    To restart regeneration harvests, we recommend a silvicultural 
strategy that utilizes variable retention harvest followed by the 
nurturing of diverse early seral ecosystems and the growing of forests 
stands on rotations long enough for bio-complexity to appear--an 
approach that sustains important elements of biodiversity and creates 
desired ecosystem structures and processes while providing timber 
harvest and revenue. While this strategy would not provide per acre 
harvest levels equivalent to those attained under intensive management, 
such an approach would provide a permanent timber supply.
    We are currently working with four BLM Districts to demonstrate 
this approach on the O&C lands (Figures 4 and 5).
    These Moist Forest Ecological Forestry Projects have been 
misrepresented in some quarters: 1) they do not involve the harvest of 
old growth trees and 2) they do not utilize clearcutting. Rather they 
use variable retention harvest, which has different ecological effects 
than clearcutting (Lindenmayer et al. 2012, Gustafsson et al. 2012). We 
find it difficult to understand how such harvests can be described as 
clearcutting when 30% or more of the pre-harvest forest on the harvest 
units is retained for the next rotation!
Expanding the Moist Forest Land Base for Sustained Yield Management 
        While Maintaining Environmental Values
    To help in the discussion of land base for sustained yield 
management, we organized the BLM O&C forests by their major land 
allocations under the NWFP, their age class, and whether they lie 
within recently designated Critical Habitat for the Northern Spotted 
Owl (Johnson and Franklin (2013).
    Given the goals of the Northwest Forest Plan and recovery plans for 
threatened and endangered species, the younger forest outside of NSO 
Critical Habitat (less than 80 years of age) is the likely current 
source of acres for sustained yield management (see Johnson and 
Franklin 2013 for more discussion). The acres are shown in the far left 
bar of Figure 6. Also, some of the more simplified stands in the 80-120 
class might be available.
    We suggest three potential changes that would increase the Moist 
Forest land base for sustained yield on the BLM O&C lands while still 
meeting the goals of the Northwest Forest Plan and recovery plan goals:

          1) Apply one of the alternative stream buffering strategies 
        of Reeves et al. (2013) to modify Riparian Reserves within the 
        Matrix;
          2) Re-evaluate the need for younger stands, outside of the 
        Critical Habitat designation for the NSO, to remain in Late 
        Successional Reserves;
          3) Limit Survey and Manage Requirements to species known to 
        be in decline or some difficulty;

    Each of these changes is described below. It should be noted that 
these changes may come with special provisions to address remaining 
concerns about effects on species and ecosystems.
    In addition, we recommend that the BLM accelerate its collaborative 
effort with the US Fish and Wildlife Service to understand the 
potential role of Moist Forest variable retention harvest in Critical 
Habitat for the Northern Spotted Owl and identify the potential level 
of activity over the next five to ten years.
    Finally, we recommend considering these ideas for the Controverted 
Lands now managed by the USDA Forest Service along with the application 
of Ecological Forestry to those lands.
Reshape Riparian Buffers
    Use scientifically credible methodologies to modify the Riparian 
Reserves of the Northwest Forest Plan, while still achieving the 
aquatic ecosystem goals of the Aquatic Conservation Strategy (ACS) 
(Reeves et al. 2013) and other ecological goals provided by those 
forests.
    Interim buffers (aka Riparian Reserves) of two-site potential tree 
heights on fish-bearing streams and one-site potential tree height on 
non-fish bearing streams occupy at least 40% percent of Moist Forest 
Matrix under the (Northwest Forest Plan (NWFP). These interim buffers 
were identified as part of the NWFP in 1994, with the expectation that 
subsequently they would be revised as the NWFP was implemented. With 
rare exception, the interim buffers have not been revised (Thomas et 
al. 2007, Reeves et al. 2006, Reeves et al. 2013).
    Recently developed science and analysis tools (Benda et al. 2007) 
have opened the way to possible refinement of those buffer sizes. 
Applying these tools and science to streams in BLM Matrix, Reeves et 
al. (2013) concluded that alternatives exist to the current 
implementation of the ACS that reshape and reduce the buffer area 
needed to meet the goals of the ACS. One alternative has fixed widths 
and one has variable widths based on stream segment features. Both 
alternatives utilize ``tree tipping'' to ensure that thinning within 
buffers does not negatively affect wood delivery to the stream.\2\ 
Also, both alternatives limit harvest to younger stands (stands 
generally less than 80 years of age).
---------------------------------------------------------------------------
    \2\ See Reeves, et al. (2013) for detail on the analysis and 
alternatives beyond that covered here.
---------------------------------------------------------------------------
    Alternative A applies fixed-width buffers of one site-potential 
tree height for both fish-bearing and non-fish bearing streams.

  <bullet> The buffer on fish-bearing streams and the inner half of 
        non-fish-bearing streams would continue to be devoted solely to 
        ecological goals as defined in the Aquatic Conservation 
        Strategy.
  <bullet> Ecological Forestry (with tree tipping) could be applied in 
        younger stands in the outer half of the non-fish bearing 
        streams to achieve ecological goals and sustained yield goals.

    The second tree height on fish-bearing streams would no longer be 
included in the riparian buffer. Thus, that area would be available for 
the application of Ecological Forestry to younger stands. Use of 
Ecological Forestry would enable that portion of the forest to continue 
providing a variety of functions for the many terrestrial species that 
use areas near streams while also providing sustained timber harvest.
    Under Alternative A, Riparian Reserve acreage in Matrix under 
current implementation of the ACS in the Northwest Forest Plan, would 
be allocated as follows: half would continue to be solely devoted to 
ecological goals and half would be devoted to both ecological and 
sustained yield goals, with harvest limited to younger stands.
    Alternative B also applies fixed-width buffers of one site-
potential tree height for both fish-bearing and non-fish bearing 
streams, but divides the area within the site-potential tree height 
between different goals for each stream segment based on its 
contribution to aquatic ecosystem values and then places each segment 
into one of two categories: 1) more ecologically sensitive and 
productive and 2) less ecologically sensitive and productive.

  <bullet> The buffer on the more ecologically sensitive and productive 
        stream segments would continue to be devoted solely to 
        ecological goals as defined in the Aquatic Conservation 
        Strategy, as would the buffer on the first 100' on less 
        ecologically sensitive and productive fish-bearing stream 
        segments and the first 50' of less ecologically sensitive and 
        productive non-fish bearing stream segments.
  <bullet> Ecological Forestry (with tree tipping) could be applied to 
        younger stands in the outer portions of the less ecologically 
        sensitive and productive stream segments to achieve ecological 
        goals and sustained yield goals.

    As with Alternative A, the second tree height on fish-bearing 
streams would no longer be included in the riparian buffer. Thus, that 
area would be available for the application of Ecological Forestry to 
younger stands. Use of Ecological Forestry there would enable that 
portion of the forest to continue providing a variety of functions for 
the many terrestrial species that use areas near streams while also 
providing sustained timber harvest.
    Under Alternative B, Riparian Reserve acreage in Matrix under 
current implementation of the ACS in the Northwest Forest Plan would be 
allocated as follows: approximately two-fifths would continue to be 
solely devoted to ecological goals and approximately three-fifths would 
be devoted to both ecological and sustained yield goals, with harvest 
limited to younger stands. The exact distribution between the two 
categories varies by watershed.
    The modeling in Alternative B takes a landscape approach that makes 
it possible to understand the location of the most ecologically 
important stream segments across multi-owner watersheds. The Reeves, et 
al. work (2013) showed that many of the most important segments are on 
private lands that have much less extensive stream buffer requirements 
than federal lands, especially on small non-fish streams. This 
capability should enable the targeting of aquatic conservation and 
recovery across ownerships--a truly ``all lands'' approach.
    Implementation of this revised buffer strategy should also include 
an examination of road systems near streams and removal/decommissioning 
of problem roads. Without such an effort, it will be difficult to 
achieve the goals of the ACS.
Shift Portions of Late Successional Reserves to Sustained Yield 
        Management
    Shift younger stands in LSRs outside Critical Habitat to Matrix--
i.e., aligning LSRs and NSO Critical Habitat. A major purpose of LSRs 
was to provide reserves of sufficient size to maintain self-sustaining 
populations of NSOs. They were drawn using the best available 
information 20 years ago, but new knowledge and more advanced 
techniques have made an improved placement possible. While there were 
other justifications for LSRs, especially within the range of the 
Marbled Murrelet (near the Coast), conservation of the NSO was the 
major justification for the size and placement of the LSRs.
    Thus, Critical Habitat is somewhat ``out of sync'' with the 
original landscape allocations of the Northwest Forest Plan; redesign 
of the LSRs to better align them with NSO Critical Habitat would 
increase the area available for sustained yield management using 
Ecological Forestry.
    This reallocation should focus on shifting younger stands and 
stands in the LSRs. Provisions of the Revised Recovery Plan (Recovery 
Action 10 and Recovery Action 32) call for protection of historical owl 
activity areas and protection of older, more complex portions of 
forests in Matrix outside of Critical Habitat.
Substitute a Sensitive Species Policy for the Survey and Manage Policy
    Focus species-specific management on species of concern. The 
Survey-and-Manage (S&M) element of the Northwest Forest Plan (NWFP) 
represented an unparalleled attempt to protect rare, little-known 
species associated with late-successional and old-growth forests on 
more than 25 million acres of federal lands (Molina et al. 2006). The 
FEMAT mission included ``...maintenance or restoration of habitat 
conditions to support viable populations, well distributed across their 
current ranges, of species known (or reasonably suspected) to be 
associated with old-growth forest conditions.'' Therefore, the 
persistence of 1,120 individual species and species groups associated 
with late successional and old-growth (LSOG) forest were evaluated 
relative to achieving the viability objective in FEMAT and the 
subsequent environmental impact statement (Molina, et al. 2006).
    The FEMAT analysis concluded that insufficient knowledge was 
available to determine whether the NWFP's system of reserves would be 
adequate for 427 species--some LSOG forest was still available for 
harvest in the Matrix. The S&M list included amphibians, bryophytes, 
fungi, lichens, mollusks, vascular plants, functional groups of 
arthropods, and one mammal--the Red Tree Vole (Molina et al. 2006). To 
remedy this deficiency S&M provisions were added for these species, 
which typically required surveys to determine whether they were present 
on sites proposed for activities, such as timber sales, and mitigation 
measures, such as protective buffers, when they were found.
    We suggest substitution of a ``Sensitive Species Policy'' for 
``Survey and Manage'' as a way to focus analysis on those LSOG species 
that are of concern. We suggest this approach for two reasons: 1) 
Continued harvest of LSOG forest in the Northwest Forest Plan caused 
the need for S&M. Yet, that harvest, by and large, did not happen and 
will not happen under the NSO Revised Recovery Plan and NSO Critical 
Habitat. Therefore the need for such an approach has greatly 
diminished. 2) The species-specific approach taken in the NWFP, in 
attempting to maintain or restore habitat conditions for viable 
populations for all species associated with LSOG forests, followed the 
``viability rule'' in the regulations implementing the National Forest 
Management Act. That regulation has been revised to focus on species 
about which there is ``conservation concern.'' We will discuss this 
second point below.
    The viability objective quoted above and utilized in the NWFP 
originated from regulations associated with implementing the National 
Forest Management Act (USDA 1982) and was specifically limited to 
vertebrates in that regulation. However, in FEMAT, it was applied to 
invertebrates as well as vertebrates and to BLM lands as well as 
National Forest lands, an interpretation ruled by courts to be within 
the discretion of the Secretaries of Agriculture and Interior to adopt 
and implement (Seattle Audubon Soc'y v. Lyons 1994).
    Species were put in the S&M category because there was insufficient 
knowledge about how the NWFP might influence their habitat and 
population dynamics. Thus, the burden of proof was on the land manager 
to show that these species would not be harmed by a proposed activity. 
Given an ecosystem management plan in place, like the Northwest Forest 
Plan complemented by the NSO Revised Recovery Plan and Critical 
Habitat, an alternative approach would be to require evidence that 
population levels and trends for the species indicated concerns and, if 
concerns were established, to apply special protocols. This approach 
would be similar to that taken in the recently revised regulation 
regarding implementation of the National Forest Management Act (USDA 
2012) in which consideration of individual species is limited to those 
for which the responsible official has determined that a proposed 
ecosystem management plan would not be sufficient.\3\ A comparable 
approach here would use the ecosystem plan in place (like the NWFP 
supplemented by Critical Habitat) to conserve species, except where 
evidence exists that additional measures are required.
---------------------------------------------------------------------------
    \3\ ``The responsible official shall determine whether or not the 
plan components required by paragraph (a) of this section provide the 
ecological conditions necessary to: contribute to the recovery of 
federally listed threatened and endangered species, conserve proposed 
and candidate species, and maintain a viable population of each species 
of conservation concern within the plan area. If the responsible 
official determines that the plan components required in paragraph (a) 
are insufficient to provide such ecological conditions, then 
additional, species-specific plan components, including standards or 
guidelines, must be included in the plan to provide such ecological 
conditions in the plan area USDA 2012, 219.9 (b)''. Paragraph (a) 
states: ``the plan must include plan components, including standards or 
guidelines, to maintain or restore the ecological integrity of 
terrestrial and aquatic ecosystems and watersheds in the plan area, 
including plan components to maintain or restore their structure, 
function, composition, and connectivity (USDA 2012 219.9(a).)''
---------------------------------------------------------------------------
    In Moist Forests, this change could increase the availability of 
younger stands. Mature and old growth stands would not be affected 
since they are already committed to recovery of Threatened and 
Endangered Species, as discussed earlier, and other goals.
    The recent analysis of the status of the Red Tree Vole by USFWS 
(USDI 2011) may offer an opportunity as described above. The Department 
of Interior decided that ``After review of the best available 
scientific and commercial information, we have determined that listing 
the North Oregon Coast population of the Red Tree Vole as a DPS 
(distinct population segment) is warranted. However, the development of 
a proposed listing rule is precluded by higher priority actions. . .  
Upon publication of this 12-month petition finding, we will add this 
DPS of the Red Tree Vole to our candidate species list (USDI 2011, p. 
63720).'' This DPS covers the Oregon Coast Range north of the Siuslaw 
River. Thus, Survey and Manage considerations relative to the Red Tree 
Vole might be limited to the stands north of the Siuslaw River. Such a 
change could reduce the need for special Red Tree Vole buffers in a 
stand like the one in the Coos Bay Pilot (a ``younger stand'' as 
described above)--requirements that helped push retention amounts in a 
variable retention regeneration harvest to higher levels than would 
otherwise have been needed. In addition, this change could 
significantly reduce the cost of timber sales by eliminating expensive 
surveys of proposed projects.
assess potential harvest activities on moist forest within nso critical 
                                habitat
    Both the NSO Revised Recovery Plan (USFWS 2011) and Critical 
Habitat rule (USFWS 2012) emphasize the potential application of 
Ecological Forestry within Critical Habitat (USFWS 2012 p. 30):

          ``In sum, vegetation and fuels management in dry and mixed-
        dry forests may be appropriate both within and outside 
        designated critical habitat where the goal of such treatment is 
        to conserve natural ecological processes or restore them 
        (including fire) where they have been modified or suppressed. . 
        .  Likewise, in some moist and mixed forests, management of 
        northern spotted owl critical habitat should be compatible with 
        broader ecological goals, such as the retention of high-quality 
        older forest, the continued treatment of young or homogenous 
        forest plantations to enhance structural diversity, 
        heterogeneity and late-successional forest conditions, and the 
        conservation or restoration of complex early-seral forest 
        habitat, where appropriate. . .  (italics added)

          In general, actions that promote ecological restoration and 
        those that apply ecological forestry principles at appropriate 
        scales as described above and in the Revised Recovery Plan for 
        the Northern Spotted Owl (USFWS 2011, pp. III-11 to III-41) may 
        be, in the right circumstances, consistent with the 
        conservation of the northern spotted owl and the management of 
        its critical habitat.''

    Currently, the form and extent of such active management is too 
problematic for forests within NSO Critical Habitat to be part of the 
Most Forest land base for sustained yield management. Discussion and 
demonstration will be necessary to clarify the type, amount, and 
landscape pattern of timber harvest that is acceptable in Critical 
Habitat. That activity has already begun in the Roseburg and Eugene 
Districts and elsewhere, where variable retention harvest projects have 
been developed, and are being developed, within Critical Habitat. 
Shifting from individual project development to landscape assessment of 
the magnitude and pattern of variable retention harvest over time will 
be a key to determining the contribution Critical Habitat to sustained 
yield. This will require a major collaborative effort by BLM and USFWS. 
Perhaps, a five or ten year commitment of project acreage for harvest 
activities could be the outcome of such an effort.
 apply these ideas to the o&c controverted lands managed by the forest 
                                service
    Some Oregon & California Railroad lands are administered by the 
Forest Service, referred to as the Controverted Lands (Figure 1). These 
Controverted Lands reside within the boundaries of the national forests 
and cover lands equal to approximately 20 percent of BLM O&C lands. 
Some are in Wilderness or other Congressional and Administrative 
withdrawals, but many could be considered for sustained yield 
management. We classify approximately two-thirds of these lands as 
Moist Forest and one-third as Dry Forest. The younger Moist Forests on 
Controverted Lands, especially in the Cascades, provide useful 
locations to demonstrate Ecological Forestry on the national forests 
and also to apply the ideas mentioned above for expanding the land base 
for sustained yield management.
                   ecological forestry in dry forests
    Composition and structure of existing Dry Forests landscapes have 
been dramatically altered by decades of fire suppression, grazing by 
domestic livestock, timber harvesting, and plantation establishment 
(Noss et al. 2006) resulting in: (1) fewer old trees of fire-resistant 
species, (2) denser forests with multiple canopy layers, (3) more 
densely forested landscapes with continuous high fuel levels, and, 
consequently, (4) more stands and landscapes highly susceptible to 
stand-replacement wildfire and insect epidemics (e.g., Hessburg et al. 
2005, Noss et al. 2006, Johnson and Franklin 2012).
    In southwest Oregon, Dry Forest sites that have not been previously 
harvested are largely occupied by dense maturing Douglas-fir stands, 
which often appear to be the first generation of closed-conifer forests 
on these sites. Scattered old pines and hardwoods are being crowded out 
by these younger Douglas-fir trees. Historically, many of these Dry 
Forest landscapes were occupied by more diverse communities including 
open grasslands, shrub fields, oak savannas, and mixed hardwood and 
conifer woodlands (McKinley and Frank 1996).
    Given these considerations, we suggest the following Ecological 
Forestry strategy for Dry Forests on the BLM O&C lands (Franklin and 
Johnson 2012):

  <bullet> Retain and improve survivability of older conifers by 
        reducing adjacent fuels and competing vegetation;
  <bullet> Retain and protect other important structures such as large 
        hardwoods, snags, and logs; some protective cover may be needed 
        for cavity-bearing structures that are currently being used;
  <bullet> Reduce overall stand densities by thinning so as to (1) 
        reduce basal areas to desired levels, (2) increase mean stand 
        diameter, (3) shift composition toward fire-and drought-
        tolerant species, and (4) provide candidates for replacement of 
        old trees;
  <bullet> Restore spatial heterogeneity by varying the treatment of 
        the stand, such as by leaving untreated patches, creating 
        openings, and providing for widely spaced single trees and tree 
        clumps;
  <bullet> Establish new tree cohorts of shade-intolerant species in 
        openings;
  <bullet> Treat activity fuels and begin restoring historic levels of 
        ground fuels and understory vegetation using prescribed fire; 
        and,
  <bullet> Plan and implement activities at landscape levels, 
        incorporating spatial heterogeneity (e.g., provision for denser 
        forest patches, such as those needed by the NSO and its prey 
        species) and restoration needs in non-forest ecosystems (e.g., 
        meadows and riparian habitats).

    The Dry Forests on BLM western Oregon Forests are immensely 
important to the people of southwest Oregon in many ways and numerous 
ecological and social tensions surround their conservation and use. 
Increasing stand densities threaten both neighboring homes and 
communities and the forests themselves (Johnson and Franklin 2012). 
Yet, harvests under restoration strategies often do not yield 
substantial revenue, making it difficult to pay for actions that 
address public concerns and increase forest sustainability. Also, some 
challenge the need for action. Thus, application of Ecological Forestry 
to the federal Dry Forests of southwest Oregon remains extremely 
challenging.
    Retaining and nurturing older trees and other significant 
structural elements of the Dry Forest stand is the starting point in 
the application of Ecological Forestry to Dry Forests. That will 
require active management. Although many Dry Forests include older 
trees, almost all such forests are highly modified structurally and 
compositionally by past management, which has greatly reduced older 
tree populations and resulted in increased stand densities. Both 
remaining old trees and the forest in which they are embedded are 
currently at risk from intense wildfires, epidemics of defoliating 
insects, and competition, the latter resulting in accelerated mortality 
due to bark beetles. Selection of a threshold age for older trees is 
particularly important for Dry Forests, since it is applied to all Dry 
Forest stands. In our work we usually use 150 years as the threshold 
age for older trees because: (1) trees in Dry Forests generally begin 
exhibiting some old-growth characteristics by this age, and (2) 
significant Euro-American influences that disrupted historical 
disturbance regimes were underway by 1860, e.g., introduction of large 
domestic livestock herds and mining.
    Retaining some denser forest areas in an untreated or lightly 
treated condition is an important landscape-level planning component of 
our Dry Forest restoration strategy. Most Dry Forest landscapes include 
species and processes that require denser forest as habitat, such as 
preferred nesting, roosting, and foraging habitat for the NSO and its 
prey species (USFWS 2011). Maintaining approximately one-third of a Dry 
Forest landscape in denser patches of multi-layered forest has been 
proposed for the NSO (Courtney et al. 2008) and the need for a mosaic 
of denser patches and treated areas is acknowledged in the NSO recovery 
plan (USFWS 2011). In general, landscape amounts and distributions will 
be a function of topographic and vegetative factors along with wildlife 
goals. Untreated patches in the hundreds of acres could be 
preferentially located in less fire-prone areas, such as steep north-
facing slopes, riparian habitats, and sites protected by natural 
barriers, like lakes and lava flows. The longevity of the dense forest 
patches should be increased by reducing stand densities in the 
surrounding landscape matrix (Ager et al. 2007, Gains et al. 2010). 
Losses of denser forest patches are inevitable, but--since the 
surrounding restored matrix would still be populated with older, larger 
trees under this Ecological Forestry approach-suitable dense 
replacement habitat can be regrown. The Pilot Joe and Pilot Thompson 
projects in the Applegate Watershed illustrate these Dry Forest 
principles (Figures 7 and 8). Dense patches that will be retained in 
this project, called Late Successional Emphasis Areas (LSEAs). 
Commercial and non-commercial treatments were then planned around them 
to increase the sustainability of the treated areas and reduce the 
potential for the dense patches to be caught by a running crown fire 
from the valley below.
    Some key points about our Dry Forest landscape strategy are:

          1) LSEAs are not reserves. Rather they are part of a dynamic 
        landscape; over time some of these dense forest patches are 
        expected to be lost to wildfires and new ones will have to be 
        created by allowing restored forest areas to grow into a denser 
        forest state.
          2) Management is not prohibited. While we did not suggest 
        entry into LSEAs in Pilot Joe, limited activities can be 
        considered to reduce fuels and to achieve other goals as long 
        as a forest structure is retained that will meet the needs for 
        the species of interest. Cooperative efforts by BLM and USFWS 
        to determine needs and actions would be desirable.
          3) This strategy is intended for the entire landscape--Matrix 
        and LSRs and both inside NSO Critical Habitat and outside NSO 
        Critical Habitat.

    Given this strategy for Dry Forests, distinguishing stands by age, 
land allocation, and location relative to Critical Habitat for the NSO 
(Figure 9) is much less useful than in Moist Forests in determining 
where and how Ecological Forestry might be applied. As described above, 
this strategy is intended to be applied across land allocations, 
Critical Habitat determinations, and age classes.
    In summary, we suggest a number of principles to guide application 
of Ecological Forestry in Dry Forests:

  <bullet> Don't put ``old'' stands off limits to active management, 
        including removal of trees--they will need action to save the 
        old trees within them. These stands often require harvest of 
        younger trees around old trees to reduce ladder fuels and 
        competition and improve their longevity. Stand age thresholds 
        to limit actions, such as those suggested previously for Moist 
        Forests, are not appropriate in Dry Forests if the intent is to 
        sustain these forests and the older trees that they contain.
  <bullet> Don't allow Survey and Manage restrictions to prevent 
        actions that will reduce stresses on old trees--consider a 
        Sensitive Species policy as described above or prevent 
        treatments to reduce stand densities and increase heterogeneity 
        outside of the denser patches. A strategy for Survey and Manage 
        species in Dry Forests, similar to that which we discussed for 
        Moist Forests above, might be considered--focus on individual 
        species where a concern has been demonstrated.
  <bullet> Don't create large reserves in which harvest is prohibited, 
        since that will increase the probability that the forests 
        within them will not survive. The LSR network of the NWFP 
        originated as part of a Moist Forest conservation strategy that 
        called for large, contiguous areas of reserves where late-
        successional forests would develop and where natural processes 
        would be allowed to function. This approach was carried over to 
        Dry Forests where it was not appropriate, which is why the NWFP 
        actually allowed for active restoration treatments in LSRs in 
        Dry Forest landscapes. It is important that the reserve 
        strategy of the NWFP be allowed to evolve into a network of 
        modest-sized dense forest patches across the Dry Forest 
        landscape.
  <bullet> Do develop a landscape plan across the Dry Forests, 
        including stands within NSO Critical Habitat, which identifies 
        the portions of the landscape that will be treated to provide 
        greater resilience and the portions that will be left in a 
        denser condition. As a starting point we recommend that 
        approximately 1/3 of the forest might be left in this denser 
        condition.

    It is difficult to identify a static land base for sustained yield 
management in this dynamic system, as it will shift over time. We 
recommend that the unique properties of Dry Forests drive the 
management strategy for them utilizing the principles we describe above 
and that a landscape plan be developed that implements these 
principles. Even that landscape plan, it is possible to make an first 
estimate of both short-run harvest and long-term yields.
                                summary
    To increase timber harvest on the O&C lands while maintaining 
environmental values, we recommend:

          1) Application of Ecological Forestry across O&C lands to 
        provide both ecological benefits and economic benefits;
          2) Recognition of Moist Forests and Dry Forests with their 
        own unique Ecological Forestry strategies;
          3) On Moist Forests:

                  a) Continue a thinning program that emphasizes 
                variable retention thinning in younger stands;
                  b) Reinitiate regeneration harvest in younger forests 
                in Matrix using a variable retention approach followed 
                by nurturing early successional ecosystems;
                  c) Reclassify younger forests in Riparian Reserves 
                and Late Successsional Reserves to sustained yield 
                management through a cooperative effort of BLM, USFWS 
                and NOAA Fisheries;
                  d) Shift from a Survey and Manage Strategy to a 
                Sensitive Species Strategy;
                  e) Undertake a major cooperative effort by BLM and 
                USFWS to identify the pattern and magnitude of 
                Ecological Forestry within Northern Spotted Owl 
                Critical Habitat;
                  f) Also apply these recommendations to the O&C 
                Controverted Lands in the Cascades managed by the 
                Forest Service.

    In total, these changes could double or triple the Moist Forest 
land base for sustained yield management.

          4) On Dry Forests:

                  a) Apply a partial cutting strategy across all age 
                classes in both Matrix and Late Successional Reserves, 
                and inside and outside NSO Critical Habitat, to reduce 
                threats and increase sustainability
                  b) Reclassify some forest in Riparian Reserves to the 
                upland restoration strategy
                  c) Develop a landscape plan for the O&C Dry Forests 
                identifying the portions of the landscape that will be 
                treated and the portions that will be left in a denser 
                condition through a collaborative effort by the BLM, 
                FS, USFWS, and NOAA Fisheries.

    We would expect that half to two-thirds of the O&C Dry Forests will 
need treatment through commercial and non-commercial activities.
Estimating Likely Sustained Yield Harvest Levels
    The changes suggested here should enable a higher harvest level on 
the O&C lands both in the short-run and in the long-run. Estimating the 
likely harvest level from these changes with detailed accuracy, though, 
takes thought and analysis. It is important that land management 
agencies and regulatory agencies be involved in such an analysis.

    The Chairman. Thank you very much, Dr. Johnson. 
Particularly those ideas for increasing the land base for 
forest management and doing it consistent with the 
environmental laws. That's what this committee wants to hear 
and we thank you for coming.
    Mr. Maisch, welcome, from Alaska.

STATEMENT OF JOHN ``CHRIS'' MAISCH, STATE FORESTER AND DIVISION 
 DIRECTOR, ALASKA DEPARTMENT OF NATURAL RESOURCES, DIVISION OF 
                            FORESTRY

    Mr. Maisch. Thank you. Good morning, Mr. Chair, Ranking 
Member Murkowski and members. My name is Chris Maisch, Alaska 
State Forester and Director of the Division of Forestry.
    I'm here today to speak on behalf of our Governor Sean 
Parnell.
    The purpose of today's hearing is to discuss how important 
forest management on Federal lands is and to examine different 
ideas and options including State management. But before I get 
into the specifics about the Alaska situation, I'd like to talk 
about the working forest concept.
    The importance of community, economy and environment and 
the balance between these elements which is often described as 
a measure of sustainability or the triple bottom line.
    Senator Baldwin, I'd like to say if you've ever had the 
chance to visit the Menominee tribe in Wisconsin you will know 
that that's one of the best examples in the country of long 
term forest management there is. But unfortunately in many 
locations across the Nation and in Southeast Alaska there 
exists an imbalance between these elements.
    If you'd please refer to Figure 1 in your packet there's 
some larger figures in the very back.
    Figure 1 is--well, as you all know Alaska is a big place. 
The top of the diagram represents all of Southeast Alaska, 17 
million acres. The arrows departing to the left remove acreage 
for Congressional designated lands. The arrows departing to the 
right remove acreage for Administrative reasons.
    The take home message is bottom center where you see two 
small slices, black and green, where about 600,000 acres of 
land, which is all that is left and is available for active 
forest management.
    If you'd please refer to Figure 2. During a 16-year period 
this graph depicts trends for timber volumes sold on Federal 
and State lands in Southeast Alaska. Blue is State land. You 
can see it is steady with a slow increase.
    Green is Federal land. Drastic decline.
    In 1990 there were 4,600 jobs in the timber industry in 
Southeast Alaska. Today a few hundred at best.
    To address this situation Governor Parnell via 
Administrative Order 258 formed the Alaska Timber Jobs Task 
Force in 2011. Members come from a broad slice of Alaska and 
represent State agencies, community groups, timber industry and 
a Federal observer. Charged with State-wide duties and 8 
specific tasks including recommendations on how to improve 
Federal land management on the Tongass.
    The Task Force wanted to document the current situation in 
Southeast and decided that population and school enrollment 
trends would be good indicators of community health. Over the 
past decade regional population is down 5 percent. But even 
more startling since 1990 school enrollment is down 15 percent 
and 5 communities have lost their only school. A school is the 
lifeline of a community, literally its heart, its soul and its 
mind.
    The State has worked from within the system to try and 
change management direction including seeking cooperating 
agency status in the 2008 forest plan process and the ensuing 
forest plan implementation.
    We have also participated in a collaborative process known 
as the Tongass Futures Roundtable with a goal of producing a 
broadly supported alternative for an operable land base. After 
5 years with little result the Governor withdrew and formed the 
task force. The task force made 34 specific recommendations 
across 8 subject areas.
    A priority statewide recommendation was the creation of a 
consistent and stable timber supply. To achieve this goal in 
Southeast Alaska the State should pursue ownership of two 
million acres. It should work jointly with other organizations 
and groups to seek change to the management on Federal lands 
including the concept of trust or other land tenure changes 
such as State forests.
    The State of Alaska has a strong and well regulated forest 
resources practices act that requires mandatory steam buffers 
and has focused on the protection of fish habitat and water 
quality.
    State forests are actively managed and have a primary 
purpose, timber management, that allows other multiple uses 
including job creation from a range of resources on the forest, 
tourism, fishing, mining and yes, active forest management.
    In contrast this is not the Federal focus. It is on 
restoration, primarily of the environmental portion of the 
working forest concept and not enough attention is being given 
to the community or economic portions of a sustainability 
model.
    The Forest Service can't solve this problem unless Congress 
provides relief from burdensome regulations, confusing policy 
and litigation by third parties. All challenges to active 
forest management. I predict there will be no significant 
change in the scope, the scale or pace of management that we 
need on our Federal lands to help balance or re-balance the 
triple bottom line.
    I urge Congress to continue this important discussion, 
provide new approaches and tools to address this national 
issue.
    Mr. Chairman, there is a better alternative. You only need 
to look at how the states and tribes of this great country are 
actively managing their forest resources and the impressive 
accomplishments they have achieved.
    With that, I conclude my testimony and thank you.
    [The prepared statement of Mr. Maisch follows:]

    Prepared Statement of John ``Chris'' Maisch, State Forester and 
Division Director, Alaska Department of Natural Resources, Division of 
                                Forestry
    Good morning, Mr. Chairman, Ranking Member Murkowski, and Members 
of the Committee. My name is Chris Maisch and I am the Alaska State 
Forester and Division Director for the Alaska Department of Natural 
Resources, Division of Forestry. On behalf of the Governor of Alaska, 
thank you for the opportunity to submit written and public testimony to 
the Senate Committee on Energy and Natural Resources regarding 
challenges and opportunities for improving forest management on Federal 
lands. We appreciate your attention to the important economic and 
environmental issue of national forest management. Modern forestry is 
the greenest of green industries and yet communities located in and 
near national forests are desperate for the restoration of green jobs 
that could result from proper stewardship of our nation's unmatched 
forest endowment.
    I would like to begin my testimony by discussing a concept we 
believe is essential to considering a topic of this nature, before 
describing the current situation in Southeast Alaska, and potential 
scenarios for management, including State management.
    The State of Alaska embraces the concept of a Working Forest, which 
is further described as the utilization of forest resources to create 
jobs and healthy communities through active forest management. A 
healthy environment should support a strong social structure, which 
will in turn support a robust economy. The State of Alaska and others 
use the phrase ``Triple Bottom Line'' to refer to this relationship, 
which is also described as sustainability.\1\ When any one of these 
elements is emphasized disproportionately, the other elements suffer in 
measures of quantity and quality. Unfortunately, in Alaska and other 
parts of the Nation, an unbalanced relationship between the three 
``bottom lines'' is causing major challenges for state and local 
governments and communities. Federal policy on National Forest System 
lands has shifted away from the Working Forest concept to 
disproportionately embrace a protection-oriented approach.
---------------------------------------------------------------------------
    \1\ USDA, 2011. National Report on Sustainable Forests-2010, United 
States Department of Agriculture, Forest Service, FS-979.
---------------------------------------------------------------------------
    Alaska's forest endowment is massive. Alaska's two national 
forests, the Tongass and the Chugach, are the largest in the country. 
Together they are nearly equal in size to the 52 forests located in the 
Forest Service Eastern Regions' 8 and 9--over 22 million acres. 
Unfortunately, the economic ``bottom line'' of Alaska's federal forest 
endowment has been short-changed, to the detriment of Alaska's 
communities.
    This is illustrated by federal management of the Tongass National 
Forest in Southeast Alaska. The Tongass is the largest national forest 
and encompasses about 17 million acres of land. Not all of this land is 
suitable for timber management, but through a series of legislative 
withdrawals and policy changes, the suitable timber base available for 
management has declined to only 672 thousand acres--or 4% of the 
Tongass acreage (Figure 1).*
---------------------------------------------------------------------------
    * Figures 1-2 have been retained in committee files.
---------------------------------------------------------------------------
    Nearly six million acres are managed as wilderness in the Tongass. 
That is more wilderness acres than the Forest Service manages in 
Washington, South Dakota, West Virginia and Oregon combined (about 5.0 
million acres).
    Also at play are two unique conditions that pertain to the Tongass, 
the Alaska National Interests Land Conservation Act (ANILCA) of 1980 
and the administratively promulgated 2001 Roadless Rule. In recognition 
of the huge amounts of land set aside for conservation in ANICLA a 
section was included that is know as the ``no more clause''. This 
section of the law simple states: no additional wilderness or 
conservation withdraws can be made in Alaska without the explicit 
approval of Congress.\2\ The 2001 Roadless Rule was and administrative 
effort (emphasis added, administrative) and effectively created another 
2.2 million acres of wilderness on the Tongass NF. The State of Alaska 
sued in the United States District Court for the District of Alaska in 
2001 and won a settlement agreement with the FS that prohibited 
application of this Rule in the Tongass. A third party litigant 
recently won a reversal of this settlement and the State is once again 
asserting its legal rights and this case is pending decision in the 
Ninth Circuit. In addition, the State also has pending an action on the 
Roadless topic in the United States Court of Appeals for the District 
of Columbia. In the meantime, the removal of additional acres from the 
Timber Production Land Use Designations (LUDs) in the Forest Plan of 
2008 makes it impossible to fully implement the selected alternative.
---------------------------------------------------------------------------
    \2\ Executive branch actions can withdraw up to 5,000 acres without 
Congressional approval, 16 USC 3213.
---------------------------------------------------------------------------
    The limitations mentioned, in combination with an unwieldy U.S. 
Forest Service policy, have led to a precipitous decline in timber 
volume offered for sale (Figure 2). In contrast, the State has been 
able to increase volume offered over the same timeframe on only 50,000 
acres of state forest land in Southeast. At the same time logging and 
wood products employment remains a mere shadow of its past, falling 
from 4,600 jobs in 1990 to approximately 307 logging jobs and 150 wood 
products manufacturing jobs in 2011.\3\
---------------------------------------------------------------------------
    \3\ Alaska Department of Labor
---------------------------------------------------------------------------
    Conditions have continued to deteriorate since 2011 and the 
Southeast Alaska timber industry has nearly collapsed as a result of 
federal timber policy which does not emphasize active timber 
management. The few jobs left are attributable to forest management 
activities by landowners such as the Sealaska Corporation and the State 
of Alaska. Since 2007, what remains of the timber industry in Southeast 
Alaska has lived from timber sale to timber sale. Because of this 
policy, the harvest level on federal lands has decreased to a point 
where only one medium sized mill remains open. This facility is almost 
entirely dependent on federal timber and can only operate at one shift, 
even though with adequate timber supply, it could operate at least two 
shifts year round.
Alaska Timber Jobs Task Force
    In 2011, Governor Parnell issued Administrative Order 258 which 
established the Alaska Timber Jobs Task Force to recommend ways to 
revive Alaska's timber industry. The task force was a combined federal, 
state, private industry, and community group appointed by the Governor. 
The Administrative Order charged the task force with considering and 
attempting to address a number of specific tasks, several of which were 
directly related to timber management on federal lands and the need to 
utilize these renewable resources to benefit local, regional and 
national public interests. The final report from the task force was 
completed in June 2012.\4\ A copy of this report is attached to my 
testimony and I ask that it be made part of the Committee's hearing 
record.
---------------------------------------------------------------------------
    \4\ Available at http://forestry.alaska.gov/pdfs/
timber_jobs_task_force_report_final.pdf.
---------------------------------------------------------------------------
    The task force gathered information from numerous state and federal 
agencies to capture the social implications of developments in the 
Southeast timber industry. The task force found the decline in 
Southeast Alaska's timber industry impacted social measures, such as 
regional population and school enrollment. Statistics from the 2010 
U.S. Census show that total population has declined by 5% over the past 
decade. Furthermore, 24 out of 34 Southeast communities (71%) have lost 
population ranging from -2 percent (Hydaburg) to -57 percent (Point 
Baker).\5\ The Southeast region of Alaska, dominated by the Tongass 
forest, is the only region to lose population during the last two 
censuses.
---------------------------------------------------------------------------
    \5\ Alaska Timber Jobs Task Force 2012, Report to Governor Sean 
Parnell, Prepared By Alaska Timber Jobs Task Force, Administrative 
Order 258: Final Report, Appendix 8 p3.
---------------------------------------------------------------------------
    Schools are the leading indicator of community health. The Task 
Force found that while ``[n]early all (31 of 34) Southeast communities 
have had a public community school at one point in time . . . the 
majority of communities have experienced enrollment declines over two 
decades. In total, there has been a 15 percent decline in Southeast 
student enrollment since 1990. During the past 20 years, six 
communities (19%) have seen their school close (one school has since 
reopened in Kasaan). Of the 31 communities with schools, the majority 
(87%) have experienced a declining student enrollment sustained over 
nearly two decades; only (10%) have increasing school enrollments.''\6\
---------------------------------------------------------------------------
    \6\ Alaska Timber Jobs Task Force 2012. Appendix 8 p 3-5.
---------------------------------------------------------------------------
    The Southeast Island School District serves residents of the 
islands of Prince of Wales, Baranof and Kosciusko--all located in the 
heart of the Tongass National Forest. Those islands were the most 
intensively managed during the peak of timber harvest. In 1995, the 
district served 381 students in 12 schools. Today, nine schools serve 
160 students.
    Recent news from the USFS concerning Secure Rural Schools payments 
and sequestration could exacerbate an already troubling situation. The 
State and school districts have received an invoice for $826,331 as a 
result of the 5.1 percent cut in funding in our Title I-III 
allocations.\7\ This unwelcome development underscores the need for a 
better approach to funding school districts dependent on this income.
---------------------------------------------------------------------------
    \7\ USDA Forest Service Correspondence, March 19, 2013
---------------------------------------------------------------------------
    Despite these grim realities, the region is fighting to survive and 
reinvent itself. The Timber Task Force identified timber supply as one 
of the ``priority statewide issues that presented the greatest 
impediment to job creation and economic development for Alaska's timber 
industry.'' It also found that the challenges and opportunities vary by 
region, including Southcentral, Interior and Southeast Alaska. These 
former two regions are experiencing slow, but steady growth as wood 
biomass projects are developed to meet community needs for economic 
space heating and electrical generation. Projects at both small and 
large scales are made possible by state forest management policies that 
provide a sustainable, long-term supply of wood from state forests and 
other state land.
    In contrast, the Task Force found that the principal barrier to job 
creation in southeast Alaska is insufficient timber volume from the 
Tongass National Forest. Since the 2008 Forest Plan amendment, the 
Tongass NF has offered only 33% of the volume the agency deems 
necessary to comply with Section 101 of the Tongass Timber Reform Act 
(TTRA), which requires he United States Department of Agriculture 
(USDA) to ``. . .seek to provide a supply of timber from the Tongass 
National Forest which (1) meets the annual market demand for timber 
from the forest and (2) meets the annual market demand from such forest 
for each planning cycle.''\8\
---------------------------------------------------------------------------
    \8\ To the extent consisted with providing for the multiple use and 
sustained yield of all renewable forest resources.
---------------------------------------------------------------------------
    The state has worked from within the system to change management 
direction on the Tongass and was granted cooperating agency status in 
the 2008 Forest Plan amendment process and is a co-implementer of the 
current plan. The state invested fiscally in working with the FS to 
improve timber sale process and economics and has funded two full-time 
positions, one in the Department of Fish and Game, Habitat Division and 
the other in the Department of Natural Resources, Division of Forestry, 
to accomplish this objective. In addition to the dedicated employees, a 
state ``Tongass Team'' was created within state government that reached 
across department lines to coordinate timely input to ongoing projects. 
This effort has not been without its challenges, but both parties have 
worked well together within Region 10 in an attempt to meet the plans 
goals. Third party litigants, policy changes and capacity issues within 
the FS have prevented full and effective implementation of the plan. A 
five year review of the 2008 Forest Plan is currently underway.
    The state also participated in a collaborative process known at the 
Tongass Futures Roundtable. This effort was convened with the goal of 
informing the 2008 planning process with a broadly supported 
alternative for an operable land base where active management could 
occur. The group was unable to meet this initial objective and 
continued to meet in an attempt to resolve ongoing management issues. 
The Roundtable operated by consensus and had 35 primary members from 
all walks of life, all interested in management of the Tongass. After 
five years of participation and little real change on the ground, the 
Governor withdrew the state from the process in 2011 and created the 
Alaska Jobs and Timber Task Force. A much reduced Roundtable continued 
to meet, but at their 2013 spring meeting, the remaining members 
decided to disband.
    Uncertainties and exorbitant costs associated with the National 
Environmental Policy Act (NEPA) and invalidation of the Tongass 
Exemption to the 2001 Roadless Area Conservation Rule exacerbate the 
challenge of supplying sufficient timber volume from the Tongass NF to 
maintain an integrated timber industry capable of contributing 
meaningfully to the region's economy.
    The state's ongoing efforts with the FS and our experience in the 
collaborative process had a profound effect on how the Task Force 
approached its work and crafted their final recommendations for Tongass 
National Forest land ownership and management. It was clear that reform 
of the current management system would be difficult at best, and time 
was not on the side of the region's communities. The following three 
recommendations were made by the Task Force\9\:
---------------------------------------------------------------------------
    \9\ Alaska Timber Jobs Task Force 2012, Report to Governor Sean 
Parnell, Prepared By Alaska Timber Jobs Task Force, Administrative 
Order 258: Final Report, p8.

          1. Pursue state ownership and/or management authority of two 
        million acres of National Forest System lands in the Tongass NF 
        to support an integrated timber industry in Southeast.
          2. Work jointly with other states/entities seeking change in 
        the management of federal lands. Possible changes include the 
        concepts of ``trust'' or state management of federal lands, the 
        transfer of federal lands into state ownership, adjustments to 
        the Alaska Statehood Act by Congress and measures to force the 
        federal agencies, primarily the USFS, to increase timber 
        harvest.
          3. Support finalization of Sealaska's outstanding land 
        entitlements, Alaska Mental Health Trust's\10\ administrative 
        land exchange with the USFS, and settlement of the land 
        entitlements for the unrecognized Southeast Alaska Native 
        Communities.
---------------------------------------------------------------------------
    \10\ The Alaska Mental Health Trust Authority is charged with being 
a catalyst for change and improvement in the systems that serve Trust 
beneficiaries, who include people with mental illness, developmental 
disabilities, chronic alcoholism and other substance related disorders, 
Alzheimer's disease and related dementia, and traumatic brain injury 
that results in permanent brain injury.

    In April, I had the opportunity to address elements of 
recommendation #2 and #3 in the House Committee on Natural Resources, 
where several legislative proposals are attempting to accomplish 
similar objectives, and I'd like to offer the following observations 
concerning the benefits of state-managed forests in comparison to the 
current form of management.
    The Alaska Forest Resources and Practices Act (FRPA) governs forest 
practices on state, municipal, and private land, including the Alaska 
Mental Health Trust and University of Alaska Trust lands. The Act, in 
place since 1989, has been updated several times as new science becomes 
available. Scientific findings are reviewed in a two-step process via 
Alaska's Board of Forestry. The Act includes effectiveness and 
implementation components to ensure the best management practices 
(BMPs) remain current.
    Lands designated as State Forest are managed per state forest 
purposes, as defined in Alaska statute (AS 41.17.200). The statute 
states, ``[t]he primary purpose in the establishment of state forests 
is timber management that provides for the production, utilization, and 
replenishment of timber resources while allowing other beneficial uses 
of public land and resources.'' The focus is on providing a consistent 
well managed supply of wood to private sector businesses that 
subsequently produce a range of products and services that will benefit 
local communities. The State has emphasized job creation over 
maximization of revenue in its management of state forests, but the two 
State Trusts follow the maximum fiscal return approach to ensure 
beneficiaries are well served.
    In contrast, federal lands have numerous conditions and guidelines 
that prevent the USFS from generating significant revenue and job 
creation from forest management activities. The new 2012 National 
Planning Rule includes language that states: ``the plan must provide 
for ecosystem services and multiple uses. . .'' and contains additional 
language concerning integrated resource management planning that must 
address a long list of criteria, which in part include: aesthetic 
values, air quality, ecosystem services, habitat connectivity, scenery, 
view sheds, wilderness and other relevant resources and uses.\11\ The 
National Forest Management Act (NFMA) also includes a section to 
``insure that timber will be harvested from the National Forest System 
lands only where the harvesting system to be used is not selected 
primarily because it will give the greatest dollar return or the 
greatest unit output of timber.''\12\
---------------------------------------------------------------------------
    \11\ 36 CFR 219 Subpart A-National Forest System Land Management 
Planning (2012 National Planning Rule) Sec. 219.10 Multiple use (a) 
(1).
    \12\ U.S. Code 1604 (g)(3)(iv) (National Forest Management Act 
(NFMA)).
---------------------------------------------------------------------------
    These conditions and numerous others complicate the timber sale 
process for the USFS and often result in below cost sales that can't be 
offered or sales that are only marginally economic. Here, state 
management would offer clear advantages. The State public process is 
less cumbersome and allows prompt reaction to market changes. With the 
ability to offer long term timber sales up to 20 years or longer, the 
states encourages the investment of private capital in manufacturing 
facilities.
                               conclusion
    In closing, I would like to leave you with this thought: Alaska's 
federal and state forests have the potential to be a model of 
sustainability, including environmental, social, and economic 
objectives. The ``working forest'' concept embraces diverse and broad 
objectives related to utilizing natural resources, providing jobs, 
stimulating local economies and supporting communities. These broad 
objectives have the potential to unify diverse stakeholders and 
interest groups.
    The Forest Service is not able to solve this problem unless 
Congress provides relief from over burdensome regulations, confusing 
policy and litigation by third parties. These are all challenges to 
active management, and I foresee no significant change to the scope, 
scale and pace of management that needs to take place to rebalance the 
triple bottom line.
    Despite more than 50 years of timber harvest in the Tongass, a mere 
2.5 percent of the old growth forest has been harvested. The Tongass 
alone is bigger than West Virginia, yet today, there are 181 sawmills 
and 30,000 people employed in that state's timber industry. By allowing 
the State of Alaska the opportunity to manage a portion of these 
federal lands, hundreds of jobs--the equivalent of an auto factory--
would be created and sustained forever--the ultimate green industry.
    Thank you again for the opportunity to discuss federal forest 
management and scenarios for more active management. I urge Congress to 
continue this important conversation and provide new approaches and 
tools to address this national problem. Without action, communities 
near federal lands will continue to suffer, forest health issues from 
insects and disease will accelerate and the wildland fire challenges in 
the west will grow. Mr. Chairman, there is a better alternative and you 
only need to look at how the States and Tribes of this great country 
are actively managing their forest resources and the impressive 
accomplishments they have achieved. We stand ready to continue this 
discussion. This concludes my testimony and I would be happy to address 
any questions the Committee may have.

    The Chairman. Very good. Thank you.
    Mr. Imbergamo.

STATEMENT OF BILL IMBERGAMO, EXECUTIVE DIRECTOR, FEDERAL FOREST 
                       RESOURCE COALITION

    Mr. Imbergamo. Thank you, Mr. Chairman. Appreciate the 
opportunity, Ranking Member Murkowski. I will say hello to my 
old boss, Ms. Stabenow. Appreciate the opportunity to get out. 
The chairs behind the dais are more comfortable, I will note 
that.
    I do appreciate the opportunity to be here today on behalf 
of my 650-member companies in 28 States including every State 
on the panel. We have over 390,000 employees and over 19 
billion in payroll. Our members have survived the worst 
downturn in the forest products industry since the Great 
Depression.
    We look forward to continuing our long partnership with the 
Forest Service, but the challenges facing the agency make that 
future very much uncertain. I have a rather lengthy written 
statement, but I thought I would focus on one example and that 
example is right here in front of me. It exemplifies the 
challenges facing the Forest Service and the BLM in managing 
these Federal lands.
    These obstacles are practical, budgetary and legal. They 
require legislation to clarify both the management direction 
for the land and the compliance process with other 
environmental laws, particularly NEPA. The depth of the crisis 
is illustrated by this 1,400 pages of documentation which is 
relating to the Colt Summit Forest Restoration Project on the 
Lolo National Forest in Montana. It is because of this type of 
exhaustive analysis that the agency spends over 350 million 
annually on compliance with NEPA.
    This project proposed to thin some 2,000 acres on a forest 
that covers over two million acres. It was designed to reduce 
hazardous fuel loading and improve wildlife habitat while 
protecting homes and decommissioning 7 miles of permanent road 
for every one mile of temporary road created. It's part of the 
Southwest Crown of the Continent Collaborative Forest Landscape 
Restoration project. It was called for in the Community 
Wildfire Protection plan. It's being executed through a 
stewardship contract.
    In other words it's done in response to all the 
Congressional direction to carry out reductions in fuel loads, 
reduce fire threats and collaborate with the communities. Yet 
the Forest Service, in order to do it, had to create this mound 
of paper including an air quality report, a botany report, an 
aquatics report, a fisheries report, a hydrology report and 11 
others. So in spite of the collaboration, the Forest Service 
knew that they had to analyze the project to the Nth degree 
because they would likely face legal challenges from groups 
that neither participated in the collaborative process nor care 
that Congress has directed the agency to address these other 
significant threats.
    Unfortunately they were right. A small environment group 
filed suit bringing over a dozen allegations. It's clear that 
they are more concerned with procedural blunders in the 
preparation in the project than in the substance of it.
    In other words, they knew they had a legal hook to block 
the project and they used it.
    In the end the judge dismissed all but one of their claims. 
Yet he granted an injunction based on the speculative impacts 
of hypothetical future actions. As a result of this injunction 
7 million board feet of timber could have been on the market 
right now and would likely be being harvested this summer. 
Instead the agency continues to spar with Judge Malloy over a 
2,000-acre project.
    In the meantime one of two nearby mills almost folded. 
There's only two mills that are within any reasonable sourcing 
distance of this. They almost folded this winter due to a lack 
of logs.
    I know you know very well, Mr. Chairman, when you lose a 
mill, you lose the ability to defray any of your management 
costs. It's very difficult to get that back. The agency has 
seen that first hand this year.
    Using the courts to compel endless analysis is what drives 
the $350 million the agency spends on NEPA every year. The 
Forest Service spends its time bullet proofing its decisions 
rather than preparing land management projects.
    Unfortunately it's Congress that created this tangle of 
laws that have become the playthings of lawyers and judges. 
Judges have allowed disputes between resource managers to 
override other clearer mandates such as the mandate for 
multiple use and the National Forest Management Act and the 
myriad of laws the Congress has passed in the last decade 
directing the agency to reduce hazardous fuels.
    There are a few steps the agency can take to reduce their 
unit costs and treat more acres and increase harvest off the 
National Forest. I'd be happy to talk about those and some are 
mentioned in my testimony. These steps, however, will provide 
marginal help at best.
    What is needed is legislation to clarify that Congress 
expects the Forest Service to manage some portion of the 
National Forest for timber production. We already identified 
these lands and forest plans, but this designation does not 
translate into harvest levels. Instead after exhaustive 
planning we get further analysis and judicial fly specting of 
even modest forest management projects.
    The expiration of Secure Rural Schools provides an 
opportunity to reconnect land management with the welfare of 
our rural communities. We believe a trust approach on a portion 
of the national forest will provide some clarity that will 
allow the agency to address the problems the Congress has 
identified.
    About 23 percent of the national forest are identified in 
current national forest plans as being suited for timber 
production. If Congress would clarify the mandate on those 
lands it will free up resources to conduct non-commercial work 
in the wild land urban interface that everyone recognizes needs 
to be done. In providing clarity on the resource management 
objectives on this timber base also opens the possibility of 
moving forward with land conservation on other acres. But we 
cannot support land set aside that move independently from 
basic land management reform.
    The Forest Service's current situation is analogous to a 
mouse that's been dropped into a maze with a piece of cheese at 
the exit. Unfortunately the cheese has now been removed. The 
exit has been sealed. The maze has been set on fire.
    [Laughter.]
    Mr. Imbergamo. We can expect a high level of activity from 
the mouse, but we certainly can't expect a good outcome. Only 
Congress can fix the maze.
    We look forward to working with this committee and the 
Chief to fix that.
    [The prepared statement of Mr. Imbergamo follows:]

   Prepared Statement of Bill Imbergamo, Executive Director, Federal 
                       Forest Resource Coalition
    Mr. Chairman, Ranking Member Murkowski, my name is Bill Imbergamo, 
and I am the Executive Director of the Federal Forest Resource 
Coalition, a national non-profit trade association representing a 
diverse coalition of federal timber purchasers, conservation groups, 
and county governments. With over 650 member companies in 28 States, 
FFRC members employ over 390,000 people and contribute over $19 Billion 
in payroll.
    Our members purchase, harvest, transport, and process timber and 
biomass from the National Forest System and lands managed by the Bureau 
of Land Management. We live and work in communities near to or 
surrounded by Federal public lands. Our businesses rely upon healthy, 
productive forests and a sustainable and growing supply of raw 
materials from these lands.
    FFRC members are survivors. Our mills have survived the worst 
recession since the Great Depression, which caused about half the solid 
wood manufacturing capacity in the United States to close. Our members 
continued to make investments in our facilities and our communities 
because we believe we can be a part of a more prosperous future, both 
for our communities and for our National Forests.
                              introduction
    We were encouraged by your May 23rd announcement that you would 
seek to modernize and update the legal framework that is severely 
limiting the management of the Bureau of Land Management's O&C lands in 
Oregon. We agree that the laws need to be modernized to provide for the 
implementation of the O&C Act, and certainty to rural communities. 
These communities have suffered severe economic dislocation due to 
decades of litigation-driven set asides that have failed to recognize 
the need to provide sustained, reliable supplies of timber or maintain 
forest health.
    As we wrote you last month, many of the same economic conditions 
and forest health problems which plague the O&C lands exist throughout 
the National Forest System. As the Administration noted in February of 
last year, there are up to 82 million acres of the National Forest 
System which are experiencing severe forest health problems. Bark 
beetles in the Central and Northern Rockies are impacting some 48 
million acres. As overstocked stands experience drought conditions, the 
Forest Service is increasingly falling behind on management as they 
annually shift resources away from needed harvest to fire suppression. 
Less fire prone National Forests suffer as resources are redirected to 
fight fires and restore damaged lands.
    We are now entering our third decade of drastically reduced harvest 
from the National Forest System. Many who advocated for this approach 
to management (primarily through the courts) claimed that by harvesting 
fewer trees, harvesting them on fewer acres, and making it more 
difficult for land managers to select those acres, we would improve 
forest health, create more vibrant populations of wildlife, and improve 
rural economies. The results on each of these counts have proven 
otherwise and actually have proven to be more harmful. Judging from the 
inability of the Forest Service to address these problems, the legal 
and administrative tools available are inadequate to the task.
    As you evaluate the legal framework for managing the O&C lands, we 
urge you to consider and pass legislation which addresses the 
management challenges plaguing the National Forest System as well. 
Rural communities have suffered decades of reduced economic prospects, 
watersheds have deteriorated, and county governments have been strained 
to the breaking point. We stand ready to work with you to address these 
challenges.
              forest health has deteriorated significantly
    Over 82 million acres of Forest Service lands are at elevated risk 
of catastrophic wildfires, insect, or disease outbreaks. These problems 
are often the most severe in the States which have lost most of their 
wood using industries, such as Colorado and New Mexico. Large scale 
wildfires cost billions annually to suppress, and cities such as Denver 
have been forced to spend tens of millions of dollars restoring damaged 
watersheds.
    In other National Forests, such as those in the Lake States and New 
England, passive management has allowed forests to develop into closed 
canopy stands where little sunlight reaches the forest floor. These 
forests have limited value as wildlife habitat and are susceptible to 
fire and insects, while sensitive species which require early 
successional habitat, such as the ruffed grouse and Kirtland's Warbler, 
continue to disappear.
    The extent of the problem is not in doubt. The Government 
Accountability Office recognized the urgency of the need to reduce 
hazardous fuels in 1999\1\. The Forest Service acknowledges that over 
73 million acres of their lands are a high priority for management and 
that ``one time treatment of all high fire risk areas would not fully 
address the fuels problem, as landscapes continue to change over time 
and fuels would build up on many lands currently in historic condition, 
without periodic maintenance treatments.\2\'' The Western Governors 
Association has adopted numerous resolutions acknowledging the extent 
and severity of the forest health crisis\3\.
---------------------------------------------------------------------------
    \1\ Western National Forests: A Cohesive Strategy is Needed to 
Address Catastrophic Wildfire Threats; General Accounting Office, 
April, 1999.
    \2\ http://www.fs.fed.us/publications/policy-analysis/fire-and-
fuels-position-paper.pdf
    \3\ See, among others: Western Governors Association Policy 
Resolution 12-01: Wildland Fire Management and Resilient Landscapes
---------------------------------------------------------------------------
                    unhealthy forests demand action
    Last year, over 9 million acres of forests, farms, and rangeland 
burned across the U.S. This included over 2.5 million acres of National 
Forests. There are millions of acres of National Forests which are 
experiencing extreme forest health problems, including millions of 
acres of overstocked, fire prone forests in the Western United States. 
At present, various bark beetle outbreaks cover some 48 million acres, 
most of which is on National Forest lands.
    The Forest Service has made efforts to address these problems, but 
increasingly evidence is coming in from the field that these efforts 
are being stymied by groups philosophically opposed to active 
management, utilization of timber, or rural community stability. Groups 
that sit out collaboration have no investment in the outcome, and 
instead use appeals and litigation to kill collaborative efforts and 
badly needed forest management projects.
    While collaboration is not the answer on every forest in every 
locale, many FFRC members are actively engaged in collaboration across 
the country, and purchase timber through traditional timber sales, 
Stewardship contracts, and Stewardship agreements. While collaborative 
groups often come together with common aspirations of improving the 
health of their forests, watersheds, and local communities, they must 
then attempt to advance their projects through the gauntlet of appeals, 
litigation, and obstruction.
    In other cases, the Forest Service, even without substantial 
opposition, reacts slowly to changed forest condition because they must 
prepare to defend their actions against the maze of regulations and 
likely litigation. In the process, they forgo opportunities for 
management, and economic activity. In other instances, the 
collaboratives lack concrete goals in terms of outputs, whether those 
are timber outputs, intensity of thinning treatments, or acreage 
objectives. The result is projects which can be economically 
infeasible, unsustainable, and fail to meaningfully improve stand 
conditions. Examples of this abound:
                               in montana
    The Lolo National Forest has worked for years to develop local 
consensus on thinning projects that would help protect watersheds, 
communities, and habitat. One of these projects proposed conducting 
thinning on 2,300 acres. The Colt Summit Project had broad-based 
support from local industry, local and national environmental groups, 
and sportsman's organizations. This Collaborative Forest Landscape 
Restoration Act (CFLRA) project was being implemented through a 
Stewardship Contract, on a 3 million acre National Forest within a few 
hours drive of several large wilderness areas. A local extremist group, 
the Alliance for the Wild Rockies, filed a lawsuit alleging multiple 
violations of environmental and procedural laws, 14 counts in all. 
While 13 of them were dismissed, the Judge issued an injunction based 
on the 14th count.
    While the agency is working diligently to revise the project to 
meet the court's concerns, the volume offered by this project is still 
not on the market, and there are only 2 mills left within a reasonable 
sourcing distance of this forest. One of them very nearly failed this 
winter for lack of logs.
    This same environmental group has recently filed challenges against 
many forest management projects in Region 1. This time, they allege 
that the Forest Service failed to conduct consultation under the 
Endangered Species Act when the Fish and Wildlife Service designated 
critical habitat for the lynx. Since every forest in Region 1 and 
Region 2 conducted a forest plan amendment when the lynx was listed, 
it's hard to see what benefit conducting another round of consultation 
would do, except as a purely dilatory exercise.
    It is very clear in Region 1 that collaboration, though helpful, is 
not the end all answer for the environmental litigants who refuse to 
participate in these efforts.
                             in new mexico
    The Southwest Jemez Mountains CFLRA project proposed to improve 
forest health on 210,000 acres on the Santa Fe National Forest and the 
Valles Caldera Trust-Valles Caldera National Preserve. The project has 
support from more than a dozen government agencies, wildlife and 
sportsmen's groups, tribes, and conservation groups such as the Nature 
Conservancy. In the two years since the project was first funded, very 
little thinning has taken place on the ground. Unfortunately, two large 
fires, the Las Conchas fire in 2011 and the Thompson Ridge Fire this 
year, have burned over 55,000 acres in the project area. Restoration 
work becomes far more difficult when a forest suffers a catastrophic 
fire. Meanwhile, the public which has worked hard to support the 
project have been told that the NEPA documents will be completed this 
September, the Record of Decision will be signed in January, 2014, and 
work should start in March or April of 2014.
    Obviously the project was meant to bring together a variety of 
entities to make a measurable improvement to forest health in north 
central New Mexico, but given the length of time it has taken to 
complete the NEPA documents, coupled with the recent fires in that 
area, it seems that the Southwest Jemez CFLRP will need to divert money 
previously proposed for treatment to address long term erosion control. 
We hope the project can still be a success even though a third of the 
USFS/Valles Caldera lands have burnt prior to any major implementation.
                              in minnesota
    On July 2, 2012, a severe thunderstorm caused damage on a path 10 
miles wide and 40 miles long. About 110,000 acres of the Chippewa 
National Forest sustained damage. The storm damaged several stands with 
existing timber sales. The Forest Service spent over three months 
negotiating with the purchaser over a modification to the contract, 
even though it was apparent within days that the timber, sold to a 
telephone pole manufacturer, was no longer useful for that purpose.
    Beyond that, the agency spent the next 10 months doing NEPA 
analysis and has not been completed as of today. In all likelihood, 
projects will not be implemented until late this year or early next. By 
this time the timber would be in very poor condition and very likely 
will no longer have any economic value. Depending on the alternative 
decided upon, only 5,000 to 7,000 additional acres would be harvested. 
A substantial amount of acres would be burned without harvest. At most, 
the Forest Service may treat 17,000 acres by harvest. The remaining 
blowdown would be left as a ``representative sample'' of natural 
disturbance. As of today, the Forest Service has only conducted salvage 
on about 9,000 acres, or 8% of the total. By contrast, the State of 
Minnesota and county governments have conducted extensive salvage and 
restoration activities on the lands they manage that were impacted by 
the same storm.
                             in washington
    The Tapash Collaborative Forest Restoration Project on the 
Okanogan-Wenatchee National Forest in Washington State was chosen in 
the first round of CFLRP projects in 2010. The project covers 1.6 
million acres. Over the projected 10 year life of the project, the 
agency plans to harvest only 3% of the project area. The Tapash project 
called for zero acres of timber harvest in FY 2010; 5,614 acres in FY 
2011; and 3,150 for FY 2013.
    According to their 2011 CFLR annual report, nearly $1.2 million 
dollars has been spent on the project, without a single acre of timber 
harvest. The 2012 report notes an expenditure of $870,000 with no 
harvest acres claimed, although by including timber harvest planned 
before the selection of the CFLRP project, the agency is able to claim 
a modest amount of timber supply provided over the three years of the 
project. Environmentally and economically, this project is a failure; 
very few acres have been treated, there has been no increase in timber 
harvest from the Forest, despite the expenditure of over $3 million 
earmarked dollars. Meanwhile, about 61,000 acres of the project area 
have burned. No salvage has been done on the burned areas.
    Some forests in some regions have consistently proposed projects 
which pro-actively create healthier forests, and have been more 
responsive to changing conditions. On balance, however, it is apparent 
that the public and Congressional consensus that our forests must be 
more actively managed is difficult to translate into projects which 
directly improve stand conditions, reduce fire danger, and stimulate 
local employment in frequently economically depressed communities.
         seizing the opportunity to manage our federal forests
    The Forest Service and BLM have not traditionally been responsive 
to market demand. As lumber prices ran up to historic highs during the 
boom of the 2000's, Forest Service outputs remained static. As large 
fires dominated the news and Congressional thinking about the National 
Forests, lumber output remained stagnant.
    To their credit, the Obama administration, in its first term, has 
steadily increased timber outputs. It is worth noting, however, that 
the Forest Service consistently counts free or low cost firewood--
``sold'' by permit--as part of its timber sale accomplishments, and 
during this timeframe firewood accounted for between 11 and 14 percent 
of NFS timber ``sold.''
    Further, in February, 2012, the Administration released the report 
entitled ``Increasing the Pace and Scale of Restoration and Job 
Creation on Our National Forests.'' This report called for increased 
efforts to reduce hazardous fuels, restore forests, and supply up to 3 
Billion Board Feet of timber from the National Forest System.
    The signs of recovery are showing up across the country. New 
sawmills have been announced in Georgia, Louisiana, and Arizona. Mills 
teetering on the brink of bankruptcy have been saved, including the 
mill in Montrose, Colorado. A mill, shuttered for more than a decade in 
Wyoming, has reopened. As you can see by the following chart, this is 
an auspicious time to take advantage of the nation's wood using 
infrastructure and make serious headway in reducing these historic fuel 
loads.
    While we were glad to see timber outputs inch upwards to 2.62 
Billion Board Feet last year, we have now learned that because of the 
sequester, progress towards the Administration's goal of 3 Billion 
Board Feet in 2014 will now not be met. Further, the Administration's 
goal of 2.8 Billion Board Feet in 2013 will not be met, falling below 
last year's output by approximately 200 Million Board Feet. Not only 
will this cause needless delays in badly needed forest management 
projects, but significant job losses in communities which routinely 
experience higher rates of poverty, unemployment, and population loss 
than the surrounding non-NFS counties.
    Regardless of where blame for the sequester lies, we now have an 
Administration budget for Fiscal Year 2014 which proposes to lock in 
the sequester cuts to hazardous fuels, timber sales, and capital 
improvement and maintenance funding, even while substantially 
increasing spending on land acquisition.
    Further, the agency's budget presentation states that they have a 
$6 billion infrastructure maintenance backlog, up from $5.3 billion in 
2012. This backlog does not just affect the roads my members depend on 
to access timber, but the trails, campgrounds, and visitor centers 
millions of Americans use for recreation. To cut these programs further 
goes right to the heart of the visitor experience and raises serious 
questions about the governments continued commitment to manage these 
lands for the greatest good.
    While this is not a budget hearing, it must be pointed out that 
budget is policy and that the Administration's budget for 2014 does not 
prioritize active management, hazardous fuels reduction, or prudent 
management of the basic forest infrastructure. This is a wrong turn and 
we appreciate this committee's forceful oversight on this matter.
                         restoration in action
    Last summer, the House Natural Resources Committee held a hearing 
during the peak of the fire season. At that hearing, the Forest Service 
said they had ``restored'' 3.7 million acres in 2011. The Committee 
asked for a breakdown of those numbers, which we've provided in the 
following chart:


------------------------------------------------------------------------
                                                            Percent of
            Acres Restored by:                 Acres:         Total:
------------------------------------------------------------------------
          Prescribed Fire:                    1,081,318              29%
          Lake, water & soil, noxious         2,563,595              69%
       weed:
          Mechanically Treated:               1,136,405              30%
          Pre-Commercial Thin:                  145,928            3.90%
          Commercially Thinned:                 195,477            5.20%
                                           -----------------------------
          Total:                              3,700,000
------------------------------------------------------------------------

    Some acres received more than one treatment, so the numbers don't 
total up.
    Over 1 million acres were ``treated'' with prescribed fire; over 
400,000 of these acres were ``treated'' by wildfires burning within 
prescription. This is 10% of the total, and 37% of the prescribed burn 
acres.
    The Forest Service only harvested usable wood fiber from 195,000 
acres that were commercially thinned. This means that on 3.5 million of 
the acres restored, the Forest Service was generating no revenue 
whatsoever, and on 90% of the acres restored, there was no thinning of 
any kind.
    In other words, when Congress provides substantial funds to pay for 
restoration work and encourages the agency to provide jobs and usable 
wood fiber, it is important for Congress to know how little of the 
National Forest System gets treated every year. If we accept the 82 
million acre figure in the Administration's ``accelerated'' restoration 
strategy, they are on pace to complete a thinning of these acres in a 
mere 241 years, in the unlikely event that these forests do not succumb 
to insects, disease, and/or wildfire before then.
               the role of harvest in forest restoration
    After nearly three decades of drastically reduced harvest, the 
National Forest System is facing an ecological and managerial crisis. 
Overstocked stands, drought, climate change, insects, and fire threaten 
to reconfigure the landscape and damage watersheds throughout the west. 
The large fires that result from this overstocking threaten management 
on the rest of the National Forest System. Resources--money and 
people--are redirected away from forest management throughout the 
System; last year, over $400 million was redirected from forest 
management programs for this purpose. Non-fire prone forest, such as 
the Superior in Minnesota, the Ottawa in Michigan, and the Francis 
Marion in South Carolina, still lose the ability to manage when key 
staff are diverted to firefighting rather than managing.
    And yet a great deal of research, including research conducted by 
the Forest Service, indicates that active management which produces 
valuable timber can help meet a wide variety of restoration goals. 
Active forest management and timber harvest have been shown to have 
multiple long-term benefits, including reducing fuel loading, reducing 
potential for crown fires, increasing structural stage diversity, 
increasing age class diversity, reducing stand density and thus 
susceptibility to mountain pine beetles and other bark beetles, and 
improving wildlife habitat. Wildlife habitat can either be directly 
improved or indirectly improved by reducing the potential for 
catastrophic fires
    Forest Service Researchers Ken Skog and James Barbour, for 
instance, found that thinning which produces sawtimber can treat more 
than twice as many acres as treatments which rely solely on non-
commercial thinning. The thinning projects that produce timber, the 
researchers found, could treat 17.2 million acres, whereas non-
commercial thinning could only treat 6.7 million acres. This study 
eliminated roadless areas and stands on steep slopes from 
consideration, and evaluated treatments on whether they reduce stand 
susceptibility to insect attack, fire, and windthrow\4\.
---------------------------------------------------------------------------
    \4\ Evaluation of Silvicultural Treatments and Biomass Use for 
Reducing Fire Hazard in Western States, Kenneth E. Skog and R. James 
Barbour, et. al, Forest Service Research Paper FLP-RP-634, 2006
---------------------------------------------------------------------------
    One of the most productive National Forests in the country, the 
Ouachita National Forest in Arkansas, is actively restoring significant 
wildlife habitat through the use of commercial timber sales, 
Stewardship contracts, and active support from conservation groups such 
as the National Wild Turkey Federation (an FFRC affiliate member) and 
the Nature Conservancy. While producing commercially valuable shortleaf 
pine timber, this forest is also creating habitat for the Red Cockaded 
woodpecker, prairie warbler, yellow breasted chat, and common 
yellowthroat. The Forest noted that red cockaded woodpeckers had 
increased by almost 300% due to the improved habitat. Researcher Larry 
Hedrick noted that ``The ability to sell valuable wood products is at 
the very heart of restoration efforts . . . . All commercial thinning 
or regeneration cutting is accomplished through the use of timber sales 
that are advertised and sold to the highest bidder. Further. . 
.portions of the proceeds from these timber sales are retained to pay 
for most of the follow-up midstory reduction and prescribed burning 
needed to restore the stands.''\5\
---------------------------------------------------------------------------
    \5\ Shortleaf Pine-Bluestem Restoration in the Ouachita National 
Forest, Larry D. Hedrick et. al. Transaction of the Sixty-Second North 
American Wildlife and Natural Resources Conference, Washington, DC, 14-
18 March, pp. 509-515
---------------------------------------------------------------------------
    Recent research in Minnesota suggests that aging forests may be 
contributing to a decline in forage for moose populations, which have 
declined dramatically in recent years. Dr. David C. Wilson and Dr. Alan 
R. Ek found last month that significant decreases in forest 
disturbance--including reduced harvest on the Superior National 
Forest--explained 80% of the year to year variation in moose population 
in the State. Unfortunately, moose have declined from more than 8,000 
in 2005 to just 2,760 today.\6\
---------------------------------------------------------------------------
    \6\ Minnesota Moose Population: Using Forest Inventory Data to 
Assess Changes in Habitat, D. Wilson , A. Ek., Minnesota Forestry 
Research Notes, No. 296, May 2013.
---------------------------------------------------------------------------
    In the case of northern goshawks, present forest conditions in the 
southwestern United States may be adversely affecting goshawk 
populations. Management of goshawk habitat focuses on creating and 
sustaining a patchy forest of highly interspersed structural stages 
ranging from regeneration to old forest throughout a goshawk territory. 
Managing the forest, through timber harvest and other treatments, to 
thin the understory, create small openings, and provide different tree 
sizes across the landscape will help produce and maintain desired 
forest conditions for goshawks and their prey\7\.
---------------------------------------------------------------------------
    \7\ Implementing Northern Goshawk Management in Southwestern 
Forests: A Template for Restoring Fire-Adapted Forest Ecosystems, James 
A. Youtz, Russell T. Graham, Richard T. Reynolds, and Jerry Simon; 
Proceedings of the 2007 National Silviculture Workshop.
---------------------------------------------------------------------------
    The Committee recently heard from Diane Vosick, who noted that 
research indicates that hazardous fuels treatments are effective at 
reducing large fire costs, protecting property, and preserving 
watersheds. She also noted that there is a substantial opportunity cost 
to delaying thinning projects, meaning that delays don't just wind up 
deferring costs, they increase them\8\.
---------------------------------------------------------------------------
    \8\ The Efficacy of Hazardous Fuel Treatments: Ecological Research 
Institute, May 2013.
---------------------------------------------------------------------------
    Certainly not all acres of the National Forest System are suited to 
be managed for timber. FFRC members value wildland as much as the rest 
of the public, and frequently our members don't just earn their living 
in these remote places, but they depend on them for recreation, 
hunting, and family time as well. But ample research indicates that 
active management can produce a multitude of benefits, well beyond 
timber harvest.
    In the current budget environment, it makes sense to look at this 
research and see how the value of the trees and other forest products 
can help pay for the management that science says need to take place.
   restoring the connection between communities and forest management
    Counties with National Forest and other Federal lands within their 
borders cannot tax or develop these Federal public lands. Recognizing 
this, the Federal government has for decades provided payments, both in 
lieu of taxes and as a share of revenues from economic activities, to 
these counties. Congress enacted a law in 1908 which requires the 
Federal government to share 25% of the gross revenues derived from U.S. 
Forest Service activities (e.g.--timber sales, mineral leases, and 
grazing fees) with the counties. These revenues supported schools and 
the maintenance of infrastructure, and grew to become a significant 
source of revenue for National Forest counties.
    By 2000, as a result of litigation and changes in policy, the scope 
of land management on Federal forests, particularly National Forest 
timber sales, had fallen by more than 80%, and these revenues dwindled. 
At the time, these drastic reductions were justified as necessary 
measures to protect ``old growth'' dependent species, watersheds, and 
other ecological values.
    Many argued that recreational activities would supplant timber 
management as the driving economic force in National Forest counties.
    This approach to managing Federal forests has not produced the 
ecological, social, and economic outcomes its proponents have suggested 
would result. National Forest counties suffer disproportionately from 
high unemployment, poverty, and population loss. Forest health has 
declined drastically alongside the economic health of these 
communities. Economic dislocation from loss of year round manufacturing 
has threatened the viability of many rural counties, forcing many to 
near bankruptcy. Poor forest health and large fires limit recreational 
opportunities.
    In 2000, Congress passed the Secure Rural Schools and Community 
Self-Determination Act (SRSCA). This legislation provided guaranteed 
payments to these forested counties, based on some of the highest years 
of timber revenue in the history of the Forest Service. Congress 
provided extensions of these guaranteed payments in 2006 and again in 
2008.
    This legislation expired in October of 2011, although Congress 
extended a greatly reduced guaranteed payment program for one year as 
part of the 2012 Transportation bill. Just last week, this Committee 
approved a one-year extension of these payments, financed by the sale 
of non-renewable resource, helium. It makes no sense to use non-
renewable resources to pay for local governments in communities with 
abundant, renewable resources which should be both driving the local 
economy and supporting local government.
    It has become apparent that continuing to rely on guaranteed 
payments from the treasury is no longer a viable option for forested 
counties. Further, it has become apparent that the passive management 
of the National Forests has failed to produce promised benefits, and 
the current approaches to land management will meet neither the needs 
of the counties nor the needs of the forests. A fundamentally different 
approach, which focuses management on the 23% of Forest Service lands 
which are currently under a timber objective is needed.
    The guaranteed funding provided under SRS was never intended to 
permanently replace shared revenue from active management on Federal 
public lands. Congress should not provide further extension of 
mandatory funds without ensuring a transition that makes improvements 
in both the health of Federal forests and the economic condition of 
forest dependent counties through active forest management.
                          principles of reform
  <bullet> Payments to forest counties should be linked to fundamental 
        reforms which streamline the process of proposing, analyzing, 
        executing, and resolving conflicts over forest management 
        projects on Federal forest lands.
  <bullet> With due recognition of the need for a transition period, 
        payments to counties must be linked to revenues produced by 
        viable economic activity on Federal forests, including 
        substantial, sustainable increases in timber outputs.
  <bullet> All revenues generated on Federal forests, including a 
        portion of revenues from Stewardship contracts, should be used 
        to develop additional sustainable forest management projects as 
        well as to provide revenue sharing to counties.
  <bullet> A trust approach, focusing on the 23% of National Forest 
        acres already identified as suited for timber production, can 
        provide stable funding on a trust-trustee basis, while 
        restoring and strengthening the overall multiple use framework 
        on Federal forests.

    The concept of ``trust lands'' is familiar to most Westerners. Most 
trust lands in the West are under State management. The Lincoln 
Institute of Land Policy notes that ``Unlike other categories of public 
lands, the vast majority of state trust lands are held in a perpetual, 
intergenerational trust to support a variety of beneficiaries, 
including public schools. . ., universities, penitentiaries, and 
hospitals. To fulfill this mandate, these lands are actively managed 
for a diverse range of uses, including: timber, grazing, mining for oil 
and gas and other minerals, agriculture, commercial and residential 
development, conservation, and recreational uses such as hunting and 
fishing.\9\'' Several large State Trust lands forestry programs have 
been certified under one or more forest management certification 
program\10\.
---------------------------------------------------------------------------
    \9\ Trust Lands in the American West: A Legal Overview and Policy 
Assessment; Peter W. Culp, Diane B. Conradi, & Cynthia C. Tuell, 2005, 
Sonoran Institute.
    \10\ See, for instance, WA DNR: http://www.dnr.wa.gov/Publications/
frc_fsc-sfi_certification_factsheet.pdf, PA DCNR: http://
www.dcnr.state.pa.us/forestry/stateforestmanagement/Certification/
index.htm.
---------------------------------------------------------------------------
    Legislation is needed which streamlines compliance with several 
environmental statutes on the small portion of the National Forest 
System already identified as having a timber management objective, 
which can serve as the basis of a Federal forest trust. With the Forest 
Service currently spending $356 million annually on NEPA compliance, 
reform legislation must:

  <bullet> Streamline NEPA analysis, ESA consultation, and judicial 
        review for projects conducted on lands designated for timber 
        production.
  <bullet> Set clear volume and acreage treatment targets to ensure 
        accountability.
  <bullet> Clarify to the courts that timber production is the primary 
        objective on this relatively small portion of the National 
        Forest System, not one use among many.
  <bullet> Focuses on timber economics in the design, operation, and 
        management of projects on lands designated for production.
                  steps short of comprehensive reform
    As noted above, FFRC members are actively engaged in collaborative 
projects across the country. We share the optimism that these projects 
bring, with people recognizing that land management is necessary, and 
the greatest threats from our forests come from failure to manage them 
and prepare them for climate change and the large fires we know are 
becoming more prevalent.
    The Administration's position seems to be that if the Forest 
Service continues to implement the Collaborative Forest Landscape 
Restoration Act (CFLRAP), receives renewed Stewardship Contracting 
authority, and is allowed to implement their proposed Integrated 
Resource Restoration line item, they will have all the tools they need 
to cope with the forest health threats they are facing.
    FFRC believes the CFLRP program--and any other collaborative 
efforts--needs hard targets--for acres treated and for timber outputs--
to assure these projects are producing the promised benefits at a lower 
cost. Thus far, evidence on this front is inconclusive at best. We 
strongly oppose national implementation of the IRR budgeting approach 
because we feel it will diminish accountability with no obvious 
increase in project efficiency. And while we strongly support renewed 
Stewardship Contracting authority, we stress that Stewardship was not 
intended to replace or supplant the traditional timber sale program, 
which can still play a very positive role in accomplishing land 
management goals.
    And as noted above, evidence suggests that simply collaborating, or 
using Stewardship contracts, does very little to reduce either the 
likelihood of a dilatory lawsuit or to reduce the unsustainable costs 
associated with ``bullet proofing'' even modest management projects 
from administrative and legal review.
    Even if we agreed 100% with the Administration's approach, it is 
obvious to us that CFLRP, Stewardship Contracting, and IRR would be 
insufficient to reduce the level of conflict, obstruction, and delay 
created by a small minority of extremist groups. Leaving the status quo 
in place leaves a long and established roadmap to obstruction on the 
books without creating any benefit to the environment. We currently 
have a system which requires multiple layers of analysis, impenetrable 
public comment processes, forest plans which undergo revision so 
frequently (or not at all) as to make a joke of the idea of a ``plan,'' 
and which forces the Forest Service to spend over $350 million a year 
doing NEPA analysis.
    What should be at best disagreements over approaches to land 
management have instead been turned into points of law, as the Courts 
have been invited to second guess and overanalyze even the smallest and 
most benign forest management projects. The resultant delays, reduced 
harvest levels, and uneconomic land management projects have helped 
drive out forest management capacity in most States where the Forest 
Service controls a substantial portion of the available forest lands. 
Lack of management, fire suppression, overstocked stands, and climate 
change have created a perfect storm that we now see manifested on the 
landscape. The 48 million acres of bark beetle outbreaks and the 25% of 
Arizona's pine forests which have burned catastrophically in the last 
11 years are a monument to the status quo.
                                 alaska
    The Governor of Alaska, Sean Parnell, has worked with local 
communities in Southeast Alaska, including native corporations, local 
governments, and the timber industry, to develop a proposal for a State 
Forest to be designated out of the Tongass National Forest. Given the 
ongoing process of land allocation, and the apparent unwillingness of 
the National Forest System to market logs which meet the needs of the 
local industry, FFRC strongly supports this approach. The proposal by 
Gov. Parnell would keep harvests below levels proposed for the Tongass 
decades ago but never attained, while providing clarity to the local 
industry that the Forest Service is unwilling to provide. Experiments 
such as this are to be encouraged.
       locking in conservation and sustainable timber production
    A trust approach on lands which can support commercial timber 
production would focus on the small portion of the National Forest 
System which is supposed to be producing timber. Lands which have been 
set aside after countless hours of public involvement, Congressional 
review, and official designation as wilderness would remain off-limits 
to commercial harvest.
    Agency resources, currently wasted by over-analyzing even modest 
timber sales or hazardous fuels projects, would be freed up to offer 
economic timber sales, or to fund restoration work through Stewardship 
contracts.
    On acres designated for timber production, concrete management 
requirements would help spur investment in wood using industries and 
land management capacity. Existing mills would receive some assurance 
that the National Forests they depend on will produce reliable supplies 
of timber into the future. Economic development, currently stymied by a 
declining forest products sector and extreme wildfires, would be 
encouraged.
    The American public would no longer be forced to bankroll a 
litigation driven analysis machine, and instead could spend the few 
dollars available to actually improve the condition of the National 
Forest System.
    The situation currently facing the Forest Service is akin to a 
mouse, dropped into a maze with a piece of cheese at the exit. Only in 
this case, the exit has been sealed, the cheese removed, and the maze 
set on fire. While we can expect the mouse to work very hard, we can't 
expect a good outcome. Unfortunately, the maze here is the tangle of 
laws--and their interpretation in the courts--that Congress passed. 
Only Congress can provide an exit.
    The current system is unsustainable, socially, economically, and 
ecologically. Piecemeal reforms hold little promise. The opportunity to 
change the management paradigm is here.

    The Chairman. A good challenge. Fix the maze.
    I know you represent lots of people who do business with 
the Forest Service. We're going to want your input. Thank you, 
Mr. Imbergamo. We'll have some questions in a moment.
    We've got Mr. Miles, please.

         STATEMENT OF AARON MILES, MEMBER, CLEARWATER 
                      BASIN COLLABORATIVE

    Mr. Miles. Sorry about that. Thank you.
    Mr. Chairman and members of the committee, my name is Aaron 
Miles and I work as the Manager for the Department of Natural 
Resources for the Nez Perce Tribe. I am also a member of the 
Clearwater Basin Collaborative.
    I'd like to thank Senator Mike Crapo, Senator Jim Risch, 
for their support of our communities in the Clearwater Basin, 
located in North Central Idaho, as well as the invitation to 
participate in this hearing of the Senate's Committee on Energy 
and Natural Resources. Particular, Senator Crapo chartered the 
CBC in 2008 to address Federal land management issues in the 
Basin.
    The CBC was formed out of frustration with the gridlock and 
status quo. The inability of the Forest Service to effectively 
manage forest landscapes in today's litigious climate. Our 
vision is to enhance and protect ecological and economic health 
of our forests.
    As a member of the CBC I would like to list some of our 
commitments to one another in our agreement and work plan which 
is an honor based agreement work plan to resolve long standing 
issues in the Clearwater Basin.
    So the first one is active timber management which I'll 
touch on a little bit more.
    Rural economies honoring tribal, sacred and special places.
    Wilderness and other management designations.
    Outfitters and guides and wildlife management.
    I list all 6 of these focus areas because the CBC is 
committed to the interest of a diverse array of people and 
needs and our walk on all these interests together is a big 
part of success which includes timber harvest on the Nez Perce 
Clearwater National Forest. As part of my representation for 
the Nez Perce tribe, the tribe shares in all these diverse 
interests which in particular, Pilot Knob is a special place, a 
sacred place to the Nez Perce.
    In addition to all the work that we've done for road 
obliteration, culvert replacement to enhance tribal fisheries. 
That's a huge part of our efforts.
    Then last we have joined forces with Iowa Fish and Game, 
U.S. Forest Service on elk and ungulate species to enhance 
these species and tie elk body condition to forest habitat 
conditions on the forest.
    So, overall the health and welfare of the Nez Perce people 
is interdependent upon the forests. It still provides our 
spiritual sanctuary and sustenance for my people.
    In terms of for the purposes of this hearing I will focus 
on some of the challenges and obstacles associated with the 
increased timber management.
    The Forest Service has become an agency focused on the 
costs, resources and time invested in NEPA. Planning and often 
based on an anticipated challenges, appeals and litigation 
rather than the desired future outcomes. In the years since 
NEPA was passed into law there have been numerous lawsuits 
resulting in a mountain of case law that has transformed the 
way the agency approaches and conducts NEPA analysis.
    Current Forest Service regulations are filled with 
controversy, complexity and excessive scientific analysis 
requirements and legal barriers that delay or block needed 
management of much of the public land area. These regulations 
and analysis requirements are applied across landscapes whether 
needed for the resource or not and result in redundant and 
often unnecessary actions.
    To complicate matters the multitude of regulations is 
sometimes at crossed purposes with what is needed on the ground 
or in conflict with other regulations. Rather than sound 
professional practices applied on very different landscapes 
with distinctly different needs, the agency is often hamstrung 
to produce in their insurmountable focus on regulatory 
compliance. I believe there needs to be a hard look at the 
intent of the original law, NEPA, and how the analysis have 
been shaped by case law.
    Second, there is a discussion about making NEPA more 
efficient. From my perspective the agency is trying a couple of 
things.
    First as evidenced in the Clear Creek project on the Nez 
Perce Clearwater forest, are trying to propose and analyze more 
activities in a project that covers a larger area.
    Over my career I have seen the pendulum swing back and 
forth between large scale and small scale approaches. Large 
scale projects are en vogue until one or two were successfully 
litigated causing a forest to lose a major portion of its 
overall timber program. It took the forest years to rebuild its 
program. The forest then opted for small scale projects so the 
loss of one didn't have just a major adverse impact to the 
forest's overall vegetation program.
    It is now working its way back to larger, more complex 
projects. It is critical that these projects succeed. The 
stakes are high.
    So as a Nez Perce Indian my people have witnessed the 
conversions of these landscapes from grassland savanna to 
closed forest canopies and list our desirable conditions. The 
Nez Perce sustenance way of life was built around those types 
of ecosystems for our food source, to support diversity of 
wildlife and populations. As a member of the CBC I've 
personally witnessed the shift in dialog and change in attitude 
toward the Forest Service to a more working relationship.
    I wholeheartedly believe that our collaborative has created 
a different atmosphere in the Basin. We have made progress over 
time. We will need to continue working together with the Forest 
Service in order to meet the needs of the people and the 
resources that we all depend upon.
    Thank you.
    [The prepared statement of Mr. Miles follows:]

      Prepared Statement of Aaron Miles, Member, Clearwater Basin 
                             Collaborative
    Mr. Chairman and members of the committee, my name is Aaron Miles 
and I work as the manager for the Department of Natural Resources for 
the Nez Perce Tribe at Lapwai, ID. I am also a member of the Clearwater 
Basin Collaborative. I thank you for the opportunity to speak to you 
today.
    I would like to thank Senator Mike Crapo and Senator Jim Risch for 
their support of our communities in the Clearwater Basin located in 
North Central Idaho as well as the invitation to participate in this 
hearing of the Senate's Committee on Energy and Natural Resources. In 
particular Senator Crapo chartered the Clearwater Basin Collaborative 
(CBC) in 2008 to address federal land management issues in the basin 
where the majority of acreage is National Forest System lands. The CBC 
was formed out of frustration with the gridlock and status quo or 
inability of the Forest Service to effectively manage forest landscapes 
in today's litigious climate. Our vision is to enhance and protect the 
ecological and economic health of our forests, rivers and communities 
within the Clearwater Basin by working collaboratively across a 
diversity of interests.
    I would like to share my thoughts about some of the challenges we 
have seen in our efforts to promote:

          1. Active timber management to support ecological restoration
          2. Rural economies
          3. Honoring Tribal Sacred and Special places
          4. Wilderness, Wild & Scenic Rivers and Special Management 
        Designations
          5. Outfitters and Guides
          6. Wildlife Management

    I list all 6 of these focus areas because the Clearwater Basin 
Collaborative is committed to the interests of a diverse array of 
people and needs and our work on all of these interests together is a 
big part of our success which includes increased timber harvest on the 
NezPerce/Clearwater National Forest.
    The Nez Perce Tribe shares concerns in a number of these diverse 
interests. The Tribe still experiences high unemployment and many of 
our members work during the seasonal months for the Tribe's Department 
of Natural Resources and Department of Fisheries Resource Management. 
At one time the Tribe employed nearly 300 employees in forest products 
jobs when active management was the major part of our operations and 
took place on 50,000 acres of land with nearly 15 to 20 MMBF(million 
board feet).
    The tribe has also worked towards the restoration of Pilot Knob, a 
well-known sacred vision quest site on the Nez Perce/Clearwater 
National Forest. Pilot Knob has a number of radio telecommunications 
towers because of the locale and elevation needed for communications. 
The Tribe believes we are nearly at a time where technology will allow 
for changes that will support communication needs and the return of 
mountain to its original use and sanctity for the Tribe. The CBC is 
committed to resolving these issues.
    The Tribe is working towards restoration of many of the anadromous 
fish bearing streams on the Forest. Much of the work includes road 
obliteration and culvert replacement to reduce stream sedimentation and 
is in conjunction with the Tribe's anadromous fisheries outplanting 
efforts to restore fisheries in major tributaries on the Forest. 
Special designations such as Wild & Scenic and Wilderness protect some 
of the pristine places for these efforts and is a positive net gain in 
the amount of protection of these important resources.
    The Tribe has joined forces with the Idaho Department of Fish and 
Game, and the US Forest Service in the CBC's Wildlife Initiative. This 
effort ties elk body condition to forest habitat conditions on the 
Forest. Through the effort it is our hope to address wildlife concerns 
in the basin for elk and ungulate species as well as other wildlife. 
The Clearwater Basin once boasted one of the nation's largest elk herd 
and changes in forest conditions has negatively affected population 
viability. The Tribe's culture is also interwoven with these species.
    Overall the health and welfare of the Nez Perce People is 
interdependent upon the Forest. It still provides the spiritual 
sanctuary and sustenance to my people. It will always be a place called 
home for the Nez Perce just as it has since time immemorial.
    For purposes of this hearing today, I will focus on some of the 
challenges and obstacles associated to increased timber management.
 tools and obstacles--challeges and opportunities to getting more work 
                           done in the woods
    The FS has become an agency focused on the costs, resources and 
time invested in NEPA and Planning and often based on anticipated 
challenges (appeals and litigation), rather than on the desired future 
outcomes. In the years since the National Environmental Policy Act was 
passed into law, there have been numerous lawsuits resulting in a 
mountain of case law that has transformed the way the agency approaches 
and conducts NEPA analyses.
    Current FS regulations are filled with controversy, complexity and 
excessive scientific analysis requirements and legal barriers that 
delay or block needed management of much of the public land area. These 
regulations and analysis requirements are applied across landscapes 
whether needed for the resource or not and result in redundant and 
often unnecessary actions. To complicate matters, the multitude of 
regulations is sometimes at cross purposes with what is needed on the 
ground or in conflict with other regulations. Rather than sound 
professional practices applied on very different landscapes with 
distinctly different needs, the Agency is often hamstrung to produce in 
their insurmountable focus on regulatory compliance.
    I believe there needs to be a hard look at the intent of the 
original law (NEPA) and how the analyses have been shaped by case law. 
Secondly, there is discussion about making NEPA more efficient. From my 
perspective the agency is trying a couple of things. First, as 
evidenced in the Clear Creek project, the Nez Perce-Clearwater Forests 
are trying to propose and analyze more activities in a project that 
covers a larger area. Over my career, I have seen the pendulum swing 
back and forth between the large-scale and small-scale approaches. 
Large scale projects were in vogue until one or two were successfully 
litigated, causing a Forest to lose a major portion of its overall 
timber program. It took the Forest years to rebuild its program. The 
Forest then opted for small scale projects so the loss of one didn't 
have just a major adverse impact to the Forest's overall vegetation 
program. It is now working its way back to larger, more complex 
projects. It is critical that these projects succeed--the stakes are 
high.
    The second approach the Nez Perce-Clearwater Forest has tried is 
upfront collaboration designed to build understanding and support with 
stakeholders prior to starting NEPA analyses. The Clearwater Basin 
Collaborative believes this is the desired approach to project 
development and appreciates the Forests' efforts. The various 
perspectives brought in up front helps the Forests to design a better 
project. In the end, if there are challenges, collaborators are able to 
work behind the scenes to facilitate resolution. If there is no 
resolution, collaborators can stand with the Forests to defend 
proposals. The agency benefits when it has that kind of support in 
appeal negotiations or in a courtroom.
    A serious in-depth review of NEPA and its application over time 
along with a review of the regulations guiding the Forest Service could 
help Congress make informed decisions about whether or it is time to 
consider NEPA and regulatory reform. The value of true collaboration 
and its positive effects on the ground is happening all over the 
country and certainly in the Clearwater Basin of Idaho.
    In terms of agency spending and overhead, it always makes sense to 
look for efficiencies and eliminate unnecessary and/or redundant 
functions. Recently, the NezPerce and Clearwater National Forest were 
consolidated. This move has reduced the cost of two stand-alone 
administrations, is saving money and is resulting in management 
consistency across the landscape. We suggest similar options could be 
explored at other locations.
    Each level of the Forest Service serves a specific and useful 
function and our belief is that elimination of any of the levels would 
negatively impact good public service. The CBC has worked in 
partnership with the District, Supervisors, Regional and Washington 
Office level on issues and believes much of our success is due to those 
working relationships.
    It would be unfair to leave the issue of spending without saying 
something about the ever declining budgets of the Forest Service. While 
appropriated dollars decrease with time, more resources are needed to 
fight escalating fire activity. The buildup of fuels, increased urban 
interface challenges, escalating fire complexity and costs all 
contribute to the Agencies inability to actively manage their lands. If 
a third or more of the budget is being used for firefighting--it is no 
wonder the Forest Service is not providing the level of public service 
they once did. The many dedicated professionals I have known over the 
years are capable of good work but the number of employees funded and 
the active management programs continue to be sacrificed for 
firefighting efforts.
            approaches on how to tackle forestry challenges
    The Nez Perce-Clearwater National Forests and Clearwater Basin 
Collaborative have been working together for five years. Progress has 
definitely been made in terms of trends and today the Forests are more 
successful achieving targets and reducing unit costs than before 
collaboration with the CBC was a reality. This change is multi-faceted 
and time consuming because it is founded on mutual trust, open 
dialogue, diverse interests, and willingness to consider new and 
different approaches. We commend the Forest Service for their 
willingness to work with the CBC and are proud that CBC members are 
committed to science based and sound resource management and the 
interests of the public as well as their own.
    In addition to providing valuable support for NEPA analyses, 
collaborators can serve as advocates for the Agency and for specific 
projects with other members of the public. Collaborative groups can 
help the Forests secure funding and recruit partners and leverage 
matching funds for special initiatives. The collaborative groups 
represent the diverse array of interests and provide input to the 
Agency to consider in their land management activities. The structure 
of Collaborative groups is critical in ensuring results that are 
scientifically sound and should have diverse representation and members 
who will work together to ensure projects achieve scientifically sound 
outcomes.
                       additional considerations
    We think it might be timely to take a look at the agency's mission. 
The Forest Service has been tasked with being all things to all people. 
This is perhaps the most difficult mission in the federal government to 
fulfill. The agency is doing its best to redeem its mission, but it is 
increasingly difficult in this time of declining budgets and a society 
that is so divided and often lacks the skill/will to have a civil 
debate about land management issues. Fewer people are willing to have 
the difficult discussions that lead to win-win outcomes and decreasing 
personal contacts when project issues develop is counterproductive.
    As a Nez Perce Indian, my people have witnessed the conversion of 
these landscapes from grassland-savanna to closed forest canopies and 
less desirable conditions. The Nez Perce sustenance way of life was 
built around those types of ecosystems for our own food source and to 
support diversity of wildlife populations. As a member of the CBC, I 
have personally witnessed the shift in dialogue and change in attitude 
towards the Forest Service to more of a working partnership. I 
wholeheartedly believe that our collaboration has created a different 
atmosphere in the basin. We have made progress over time and we will 
need to continue working together to meet the needs of people and the 
resources we all depend on.
    Thank you for your time.

    The Chairman. Thank you very much, Mr. Miles.
    We've got 6 Senators here. So I think what we'll do is 
we'll have 5 minute rounds. Then get the possibility of a 
second round.
    Chief, I am trying to make sense out of the timber sale 
numbers specifically because at first glance the timber sale 
funding doesn't mirror the timber sale output. I want you to 
walk me through how this works.
    We looked at your testimony. You state that the agency 
increased its funding for the timber sale program over the last 
17 years from a low of 180 million in 1995 to 335 million in 
2012. Yet, when you look at the data on actual harvests and the 
number of mills over the same period of time you see a 
significant decline, the decline of more than a third.
    Now, in your testimony you state and it seems to me, 
appropriately so, that efficiencies are part of this. But at 
the same time you look at those facts and it seems that we're 
getting less efficiency rather than more. So, can you walk me 
through how those numbers, which to me suggests that timber 
sale funding doesn't mirror output?
    Give me your reaction to that kind of analysis just looking 
at the numbers?
    Mr. Tidwell. Senator, we need to also factor in that 
inflation over that period of time that has reduced the 
spending power of dollars. So that's one of the changes.
    You know, the other part of it is we track how much it 
costs to produce a thousand board feet from the start of when 
we initiate a project to when we actually sell that project and 
that also includes the contract administration.
    So over the years we've tracked those costs. Those costs 
have gone down by about 23 percent since 1998, so that's why we 
talk about we have gained some efficiencies. Even though our 
budgets have gone up a little bit, but just the cost of 
inflation, the cost of doing the work has also gone up during 
that same time.
    I'm pleased with the efficiencies that we've gained. But 
it's just a start of where we need to be. When I talk about 
these landscape level analyses and Aaron made a very good point 
that we've tried this in the past. Then we get challenged and 
we have to take a step back.
    But today there is the support for this type of analysis 
that we haven't had in the past. So I think that's another area 
we'll be able to continue to increase our efficiencies.
    The other thing that we're working on is with our sale prep 
efficiencies. We've been stuck doing it the way we've always 
done it in the past. We're finding that there are different 
ways to create some efficiencies more than just how we do sale 
preparation to be able to reduce the amount of time that we're 
spending there and the amount of personnel. These are the 
things we want to continue to work on to be able to increase 
those efficiencies.
    But there's no question that what's happened with the 
agency, and I use 1998 because that's when I saw the change in 
the fire seasons from my personal view. Our fire seasons have 
increased and we've had to shift more and more of our funding, 
from the national forest systems into suppression and 
preparedness. It's had an impact on these programs.
    Our budgets have been basically stable for the last decade 
plus. But we've had to shift a significant amount of money. So 
that has impacted our capacity to be able to do more work.
    I'll tell you I'm proud of our employees regarding what 
they've been able to do and working through our collaboratives, 
with our partners, we've been able to get more work done with, 
I think, probably with less capacity. But we've got to find a 
way to be able to increase those efficiencies. Then we also 
need to find a way to be able to stop the impact of the fire 
seasons on the rest of our programs.
    The Chairman. We're going to have more discussion about the 
fire season. I just want it understood that if the agency comes 
in and says we're getting more money and people see the harvest 
going down and the number of mills going down, people are going 
to say that sure doesn't seem to connect.
    So we've got more work to do, particularly on getting the 
harvest up. I think we can do it.
    Let me just ask a question with respect to collaboration 
because Mr. Imbergamo, you and the Chief seem to have striking 
differences on this point.
    We have seen collaboratives work. In Eastern Oregon, for 
example, we have a historic agreement, an agreement that's 
really a national model between the timber industry and the 
environmental community. Harvest up, litigation down. I mean 
down significantly, largely because of the trust.
    Mr. Imbergamo, what do you think the Chief ought to be 
doing on the collaboration issue, specifically? We're going to 
get into the question of streamlining NEPA here in a bit. But 
specifically, what do you think he needs to do on collaboration 
to make that Eastern Oregon model the standard.
    Because I think the Chief makes a good point that the 
projects he's taking on actually exceed their performance 
targets for this year.
    What should he do more of on collaboration? We'll make this 
the--because I'm 13 seconds over already.
    Mr. Imbergamo. Collaboration is fine. I have members who 
are involved, founding members of collaboratives including the 
Clearwater collaborative. One of my members in Idaho is a 
founding member of that and my Oregon companies are involved in 
the various collaboratives around the State.
    It's not so much a matter of whether they should do more or 
less collaboration. I guess for me, the question ultimately is 
if the collaborative project then must continue to run the 
gauntlet of endless NEPA analysis and the presumption that any 
basic forest management project should get judicial review. 
We're not going to see a reduction in the unit costs.
    Even if they don't get litigated they spend the same amount 
of money doing the NEPA to try to make sure that if they wind 
up in court, they can defend it. Again, it's a diversion of 
resources into bulletproofing the project rather than undoing 
what the same types of projects on more acres.
    That's the big problem. Then the diversion of resources to 
fire fighting which is really put the agency in a bind.
    The Chairman. Let me go on to my colleague.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Maisch, I'm going to ask you in a minute here to kind 
of describe what we have gone through in Alaska with our 
collaborative effort with the Tongass Futures Roundtable. The 
fact that it lasted 5 years is actually pretty good evidence 
that we really did give it a very good try.
    But as you noted in your testimony, the Governor pulled out 
and moved to the task force. But it is an example where, you 
have pointed out, Mr. Imbergamo, you can have all the 
collaborative process but if at the end of the day it still 
takes forever, the uncertainty, the litigation, the regulation. 
If you're no further ahead, collaborative processes are good. 
But we still haven't gotten to the point where we're seeing 
more timber actually being harvested.
    Chief, you have heard the comments from many on the panel 
here the clear frustration about policies that really have 
taken us to the point that we are now. We're, certainly in 
Alaska, when you look at the rate of decline of the harvest so 
much of it comes because of policies that have been put in 
place, the regulations that have been put in place. The 
uncertainty that we see. The litigation that follows.
    There have been several legislative proposals that would 
set treatment levels or timber supply mandates that basically 
put you, as an agency, in a place where you have to provide 
that certainty. We do it through legislation. As Mr. Maisch has 
indicated in Alaska the recommendation is let us, as a State, 
manage our own forests. Let us have a State forest here.
    What is the agency's position on legislative, legislated 
supply mandates? Is this how we're going to get to a better 
place if we can't do it at the Federal level do we have to 
legislate here? Do states, like Alaska, that are looking to 
different ideas? Is this the direction that we have to go?
    Mr. Tidwell. Senator, outputs are based on our planning 
process, the input we receive from our communities about how 
these lands should be managed. I think no one's been more clear 
about the need to do more work on our national forests than I 
have.
    So when we look at the proposals to legislate certain 
outputs, unless we go back and really address everything that 
builds up to the current program of work, it puts the agency in 
a very difficult spot to actually be able to carry out that 
direction. So when those are proposed it's very problematic 
because we still have our forest plan. We still have what the 
public wants us to be, the outputs, the overall outputs from 
these lands.
    So it puts us just in a very difficult situation to be able 
to move forward on just one piece of multiple use. You know, I 
think the set of laws that we have today, they're a good set of 
laws. They reflect how the public wants their national forest 
managed.
    Now there's no question that sometimes how the laws are 
interpreted are a little bit different. If there's one thing 
that I think that might be beneficial is to find ways to maybe, 
clarify, our current laws.
    For instance, you know, we find ourselves having to analyze 
numerous alternatives with a lot of our analyses. There's no 
requirement for that. NEPA doesn't require that you do 6 or 7 
or 8 alternatives.
    Senator Murkowski. Why don't you do that then?
    Mr. Tidwell. It's been pointed out that because of certain 
court rulings that we find that if we go ahead and just put in 
one alternative, then we often are faced in court. So it's 
just, part of it's easier to go ahead and do it so that we will 
not have to, you know, deal with litigation.
    So but at the same time through some of our collaboratives 
we get down to really having an agreement on one action 
alternative, with the No Action, which we're required to do.
    So we are able to move forward with those. But that, to me, 
is a better way to be able to find ways to clarify what our 
current laws are. Congress could send a message to clarify that 
this is what NEPA says. It need not say anything more than 
that.
    I think those are the things that would also be helpful.
    Senator Murkowski. Let me ask you, Mr. Maisch, in my 
remaining time. The task force has, again, come up with this 
recommendation as to State forest.
    Is this kind of a last ditch effort for the State to bring 
some certainty into the process so that we can have a 
sustainable level of harvest? Can you just speak to the 
proposal that came from the task force?
    Mr. Maisch. Yes, Senator Murkowski.
    I would say, yes. I don't know if it's a last ditch effort, 
but it's certainly a well reasoned, thought out effort. A lot 
of due diligence has been applied to the situation we have.
    Senator Murkowski. Right. I don't mean to suggest it was 
hurried. But we've tried everything else.
    Mr. Maisch. Yes. I think we have definitely made an example 
of trying everything else. We've been and continue to work with 
the Forest Service in Region 10 as a cooperating agency.
    We've tried the collaborative process. We just did not get 
results. As you noted, 5 years in collaboration and no action 
on the ground.
    So we feel that the diversification of ownership in 
Southeast Alaska is needed. It's, as you noted, primarily owned 
by the Federal Government and where there's a diversified land 
base there is more certainty and a more stable timber supply.
    Senator Murkowski. Thank you.
    The Chairman. Senator Heinrich.
    Senator Heinrich. Chief, I want to start with a couple of 
questions for you. I want to go back to what you were just 
talking about in terms of the laws, what works, what doesn't 
work and the goals here.
    Rather than mandating a timber harvest level wouldn't it 
make sense to sort of define what the healthy forest condition 
is that you want on a particular national forest depending on 
the balance between, you know, moist and dry forests, the 
specific condition of that forest. Then using your harvest 
levels to try to move the forests toward the condition that you 
actually want for a healthy forest.
    Mr. Tidwell. Senator, yes.
    That's our current approach through our planning process to 
be able to identify what type of treatments need to occur to be 
able to improve the overall forest health, the resiliency, and 
provide that full mix of benefits and then to develop the 
projects to actually implement that.
    Our challenge has just been that there's work that needs to 
be done. We have to find more ways to be more efficient to be 
able to basically overcome the loss of capacity to be able to 
get more of this work done.
    In your part of the country, losing the infrastructure, the 
mills, the loggers, that's really set us back. We're trying to 
do some things too, especially through stewardship contracting, 
where we can provide some certainty over a 10-year period of 
time that a certain amount of harvest is going to occur so that 
folks can justify investing in new equipment and new 
infrastructure. Those are the things that we want to continue 
to work on.
    Where we're seeing those in places where we have these 
strong collaboratives, we're making good progress.
    Senator Heinrich. OK.
    Let me follow up on that because you mentioned stewardship 
contracting. You've mentioned timber harvest and small woody 
biomass removal. Another important tool, obviously, in the 
Southwest is prescribed fire.
    Each of these tools has costs. They have benefits. 
Sometimes the right choice for one forest is absolutely wrong 
for another.
    In Southwestern Ponderosa Pine forests, which are 
definitely not moist forests, we've seen these restoration 
projects focus largely on removing the small diameter trees, 
low hanging branches, leaving the fire resilient trees which 
are the large trees, that have a market for them.
    How does the Forest Service decide what the best tool for 
managing that forest is? How do you make the restoration that 
needs to happen, happen when most of it, in our forests, are 
focused on these small diameter trees that really don't have a 
market.
    Mr. Tidwell. There is a challenge that we need to find some 
better economic markets for this smaller diameter material.
    But what drives the project proposal is really the science 
that we have that indicates what we need to do on that 
landscape. In many places in your country, your part of the 
country there, we do need to thin out our Ponderosa Pine 
stands.
    Senator Heinrich. Good.
    Mr. Tidwell. They definitely have too many stems per acre 
without any question. But at other times there's also a need to 
remove some of the larger diameter material to be able to deal 
with the overall forest health.
    We need to be able to apply the science we have today that 
will help us to understand what needs to be done on these 
landscapes.
    We need to be able to go in there, instead of doing 
multiple entries every few years, and take a step back to see 
what needs to be done every 20 or 30 years versus multiple 
entries. That means that we have to usually take out a little 
more material--it's more trees.
    But in the long term it makes that forest much more 
resilient.
    Senator Heinrich. Mr. Farquhar, I want to bring up one of 
the things that, I think, is working within the Forest Service 
side of the House is the collaborative forest landscape 
restoration program. We've seen that be very successful in New 
Mexico, as you know, in the Zuni Mountains.
    The Zuni Mountains project is expected to treat about 
56,000 acres, create 93 jobs and save 37 million in future 
wildfire suppression costs, all for a little over $7 million in 
Federal investment.
    Is that a model that you've looked at on the DOI side as 
well? If not, what are some of the collaborative model examples 
that you're excited about and that you've seen work within the 
BLM side of the House?
    Mr. Farquhar. Thank you, Senator.
    It's a great model. One of the strengths of the Bureau of 
Land Management's overall system is that it really grows from 
the field offices up. There's a lot of communication with 
people in the communities, with the industry, also with people 
who are concerned about fire, obviously.
    We've seen good examples in Socorro Field Office, I think, 
there's a project there that we're working on with local 
communities. We've got examples in other states as well. 
Colorado, where we're doing some good neighbor work. So we 
aren't actually able to work under the exact same statutory 
authority that the Forest Service has.
    But we do see the value of that kind of project. 
Particularly now when we're seeing a reduction in funding 
across the board we're going to rely more and more on the 
communities. We're also able at times to go to the Forest 
Service and apply for grants to help with some of these local 
projects.
    Unfortunately we don't have a huge, in the Bureau of Land 
Management, a huge forestry budget. So a lot of times we blend 
that kind of work with another funded program to try to achieve 
the same results. We're looking in the hazardous fuels program 
right now at addressing the highest priority threats some of 
which are in the wild land urban interfaces that we all are 
concerned about and seeing more and more damage occurring. But 
we're also looking at places where habitat might be a concern 
as well.
    So in sum, it's a very good model that we look at from the 
Forest Service.
    Thank you.
    The Chairman. I thank my colleague.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Tom, first of all let me say that I, after sitting through 
all these hearings and again today, a common thread that runs 
through this is people aren't very happy with the Forest 
Service. This isn't your fault. This is Congress's fault.
    As you point out, you didn't write the NEPA law. More 
importantly, you really didn't--weren't involved in the cases 
where the courts have tightened the NEPA law down even more 
that hamstrings your agency.
    Having said that, your suggestion and it was very modest, 
you said so very modestly, but it's important and that is 
Congress should have a look at this again.
    You know, you've heard me over and over again talk about 
how Idaho, on their school lands. We've got 2.4 million acres 
and we took 330 million board feet off last year. You've got 20 
million acres. You took off 79 million board feet.
    Now admittedly there are some reasons for that. But that 
gap is stunning, really.
    What I might suggest you do is your modest suggestion 
really didn't have any meat on the bones. The Forest Service 
really should step up. Say, OK look, if you want us to do what 
Americans want as far as managing their forests, this is what 
you ought to do, Congress, with NEPA.
    Now let me give you a suggestion. Those of us that have had 
formal training in forest management focus on something 
different than the politicians do and others do. That is the 
fact that every single acre is different.
    When I was Governor, as you know, I wrote a roadless rule 
which is the only roadless rule, State roadless rule in effect 
in America. When I looked at this and it was put on my desk and 
the States were invited to do this, it was obvious to me just 
what I said. That is every acre is different.
    For 40 years I've been trying to write a roadless rule that 
applied the same to every acre in America. So what I did is I 
divvied it up into a half a dozen different themes, if you 
would, with the help of the Nez Perce Tribe and with the help 
of lots of other people. We wrote a roadless rule that I then 
had to go out and sell the environmentalists. I had to sell to 
industry.
    More importantly I had to sell to the Administration. First 
the Bush Administration and then the Obama Administration, both 
of whom were equally enthusiastic about supporting us. You, 
yourself, I sincerely appreciate that help.
    But we ought to probably take a look at NEPA, No. 1. As you 
know that is not going to be an easy task. It's a heavy lift.
    But if we do it collaboratively and we do it with an idea 
that everyone is going to have some input into this. Maybe we 
can make some progress in this. We ought to do it the way 
trained forest managers do it. That is not try to write a law 
that applies to every acre.
    I mean, you guys administer some incredibly sensitive and 
incredibly beautiful and incredibly unique acres that should be 
left alone. On the other hand, you've got lots and lots of 
acres that are general forest that should be managed the way 
you and I learned about multiple use. That was a good concept 
then and it's a good concept now. It's not for every acre. But 
it's for a lot of acres.
    So I'd invite you to put some of your best minds to work on 
this and say, Congress, look, you want us to do this. You want 
us to quit spending all this money on NEPA. How about if we 
take NEPA and apply it differently to different categories of 
land? I think that maybe we could make some progress in that 
regard.
    So I hope you'll give that some thought. Again, I 
understand the tremendous challenges that you have. But you 
know, you've been to enough of these hearings that people are 
not happy with the Forest Service either with the fire 
management or the production management.
    Mr. Tidwell. Senator, I want to acknowledge all your 
support and leadership to help deal with our roadless issue in 
Idaho.
    I want to clarify that when I look at NEPA I think it's a 
good law. I see how it's been interpreted and sometimes applied 
beyond really what I believe was the original intent.
    CEQ has been working very closely with us to help us to 
actually focus our analysis because they too agree, that we're 
doing much more analysis than we need to. They've been very 
supportive like on this Black Hills project. One of the reasons 
we were able to do that analysis on a quarter of a million 
acres was because the CEQ was there to help us really focus the 
NEPA.
    So the law itself I think is a good law. It requires us to 
do a lot. We would be doing a lot of that analysis anyway to be 
able to have the information we'd need to be able to go out and 
do the right thing on the land.
    I do think that there is some opportunity to clarify the 
intent of these laws that we have on the books, that would be 
helpful.
    Senator Risch. Thank you. Tom, I appreciate that.
    Aaron, just in closing let me say thank you to you and to 
the Nez Perce Tribe for your work on the CBC, for the work on 
the roadless rule. The government would be, the Federal 
Government would be well served to look at what the Nez Perce 
Tribe is doing, in particularly in the Department that you 
head.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Risch.
    As always, Senator Risch, you make important points. You 
make important points that reflect that not only do you have a 
degree in forestry, you've been out there trying to bring 
people together. I think, particularly, this point that Senator 
Risch has made today, that not all acres are created equal, is 
a very compelling point.
    Dr. Johnson, you essentially made that point when you 
talked about the moist harvests in the O and C areas.
    Senator Risch, what Dr. Johnson was essentially talking 
about was how some of his ideas like reducing some of the red 
tape and bureaucracy in survey and management and stream 
buffers and the like would triple the land base for management. 
So you said we really need to take a look at NEPA as it relates 
to forestry in this committee. As far as I'm concerned, that 
look begins this morning.
    I'm going to spend the rest of my time specifically on 
questions about NEPA. I just want to thank you, Senator Risch, 
because you have, as always, brought your best game to this 
debate. I've highlighted just with your questions what our job 
is.
    Senator Risch. Thank you, Mr. Chairman.
    First of all, this stuff is not news to anybody who is 
sitting at the panel. I mean people who've had formal training 
and that know that trying to manage public lands from marbled 
halls in Washington, DC, is not the way to do this.
    The goals of NEPA are probably supported by 99 percent of 
the American people. As with all things that Congress does, we 
have these lofty goals. We try to put it into legislative 
language. Then when the thing gets on the ground it turns into 
a real wreck. That's what's happened with NEPA.
    The goals of NEPA are good. It was a like an experiment 
really in the world. No culture in the world has ever done what 
we did when we enacted NEPA. We had the goal of preserving and 
protecting our natural resources and at the same time being 
able to use them.
    The difficulty is we tried to lay one rule over every acre 
in America that is subject to the rule. It's not working in 
practicality.
    So it's time to take a look at this thing. This is not 
going to be an easy lift. It will be a difficult lift. I don't 
know if Congress is up to the task. Indeed historically when we 
question that. But nonetheless I think it's worth the effort.
    I think if you actually could do something like that you'd 
get rid of this tremendous amount of money that's spent, the 
tremendous amount of wasted effort that court cases take up in 
dealing with this. Instead we could all pull the wagon together 
and use this money to make public lands better.
    The Chairman. Well said.
    Let's start in with exactly the kind of task that Senator 
Risch has defined is looking at NEPA. Let me just frame this 
very specifically. Our objective is to get the harvest up 
without compromising these bedrock environmental values that we 
care about in Oregon. I think people care about all over the 
country.
    Let me start with the time and expense associated with 
this.
    The Forest Service noted, in response to a House hearing 
question, that on average 70 percent of the costs of preparing 
and administering a timber sale goes for environmental review. 
Of course in discussion with respect to how you might look at 
NEPA, streamlining in that context I've described.
    Harvest up. Not compromising environmental values. You 
always hear discussion about whether this should be done on the 
landscape scale, programmatic planning. These are the words 
that just get hurled about.
    Here's how I wanted to start this topic which Senator Risch 
has correctly raised. The agency has put a fair amount of 
effort into pilot projects in this area. I think, Chief, it 
would be very helpful if you could explain in something 
resembling English because this is pretty dense stuff.
    You can get off into NEPA language and it sort of sounds 
like prolonged root canal work. How is the agency able to save 
time and money, at least on the basis of these streamlining 
projects? How what you've learned in the pilots could be 
applicable generally? Because I think what we're talking about 
here there's very little difference.
    You aren't going to see Democrats and Republicans beating 
each other's brains out over the idea of getting the harvest up 
while keeping environmental values.
    So if you would tell us what you think are the lessons out 
of the pilot projects that we can begin to use as we go forward 
with what Senator Risch has correctly described as a big lift. 
I mean, anybody who's talking about NEPA, this is not an 
exercise for the faint-hearted. This is a big, big lift.
    So if you can tell us what you've actually found in your 
pilots that's worked for purposes of our going forward. Let's 
start with that.
    Mr. Tidwell. Simply put, we have to do the same level 
analysis, and documentation if we're looking at 5,000 acres or 
a quarter of a million acres. So instead of doing hundreds of 
projects at 5,000 acres a shot versus doing one at 250,000 
acres. That's one of the lessons that we've learned.
    The other thing is when we look at these larger----
    The Chairman. That is, again, so I can start talking to 
colleagues and people in language that people can convey, these 
big landscape projects. They're a better investment. Is that 
what you're saying?
    Mr. Tidwell. It's one environmental analysis for these 
large areas versus having hundreds of smaller analyses. It 
takes a little more time, but it's so much more efficient.
    The Chairman. But that would put points on the board. Let's 
just be very clear because all this is so hard to follow. That 
would put points on the board for the cause of streamlining 
NEPA in a way that would be good for getting harvests up 
without sacrificing the environmental values.
    Mr. Tidwell. Yes.
    The Chairman. Is that right?
    Mr. Tidwell. Yes.
    The Chairman. OK.
    Mr. Tidwell. The second approach we're using is what we 
call adaptive management, it looking at things which are going 
to occur over the next few years. So it gives our managers 
flexibility.
    For instance, when you get an insect and disease outbreak 
you don't have to go back and do additional analysis because it 
was covered under the first analysis. You can quickly go in 
there without any additional analysis, which is what we've been 
working on.
    Adaptive analysis looks at these large landscapes. That 
frees us from having to go back and do additional analysis when 
there's a change in condition out there because as much as we 
like to think that we know everything that's going to happen, 
say over the next 10 years, we'll get a wind storm that comes 
through or get an outbreak of bark beetle.
    This allows us to go ahead and do the work that needs to be 
done without additional analysis.
    The Chairman. Without going back, in effect, you would do 
it once.
    Mr. Tidwell. Yes.
    The Chairman. So we have big landscapes, do it once, and 
this concept, this adaptive analysis, in effect, factors in 
weather conditions and the like.
    Those are two things on the basis of your pilots that you 
think would help streamline NEPA, and again, strike the balance 
that I've been describing.
    Anything else?
    Mr. Tidwell. Just by looking at larger landscapes it gives 
us more flexibility to actually do enough treatment where it 
makes a changed condition. When we talk about restoring forest 
health, reducing hazardous fuel risk to communities, we have to 
do it on a large enough scale where it really makes a 
difference. So it's actually easier for us to be able to 
justify that this is the work that needs to be done when we 
look at these large landscapes versus these smaller projects 
that we used to focus on.
    The Chairman. My time is up. But other witnesses, you know, 
buckle up, because we're going to ask you all the same 
question.
    Senator Murkowski.
    Senator Murkowski. To just kind of follow on the Chairman 
here. We've been quizzing you, Chief, on the agency's approach.
    But Mr. Farquhar, from the BLM's perspective and ideas that 
could be put in play to achieve what we've been talking about 
here. Anything that you would add?
    If you would also comment on Dr. Johnson's proposal here 
for this ecological forestry and how we deal with wet forests, 
dry forests?
    Mr. Farquhar. Thank you, Senator.
    I agree with a lot of what the Chief just said. The Bureau 
of Land Management is also embarking on some landscape scale 
projects to try to look at larger areas so that the 
environmental--it's the same as what we're doing actually for 
renewable energy projects and a lot of other things on the 
public lands where we're trying to say let's do a large look. 
Then we've eased the way for the eventual, actual, project or 
proposal from a developer or for a timber sale or whatever it 
might be. Then what we're able to do is streamline the eventual 
sale process.
    Now just to take what the Chief was saying a little 
further. Chairman Wyden has proposed some principles for forest 
management, potentially in Western Oregon. Having public 
agreement on principles when you start that process, I think, 
is very important.
    We have just issued a purpose in need statement for the 
Western Oregon lands that are really the most intensive we 
manage for timber across the country. So I think there's the 
most analogous. I'll focus on that with the Forest Service.
    Once we get those principles out there and get the purpose 
in need out there, get the public to respond to those. Then 
we're much more able to say, let's grab techniques like what 
Dr. Johnson and Dr. Franklin have been bringing forward. How 
those techniques fit in a larger fabric for that landscape.
    There's no question that what Dr. Johnson and Dr. Franklin 
are doing in Western Oregon is introducing new concepts for how 
to go about removing larger volumes of timber in an 
ecologically safe way. In fact a way that enhances the ecology 
in many respects in the biodiversity actually.
    So you have to start from a larger perspective, a landscape 
perspective and work down. It takes more time. But you don't 
end up with as many protests and appeals that are able to stop 
the presses later on because you've got the logic and the 
public support built in at the beginning.
    We're seeing that in a lot of different areas that we work 
in not just in timber.
    Senator Murkowski. When I think, this goes to your point, 
Mr. Chairman, and that Senator Risch raised which is, you know, 
every acre of forest is not the same.
    When you and I went to West Virginia and flew over pretty 
much all private lands in West Virginia looking at that and 
understanding how that State has actually done pretty well with 
their timber. But I recognize that it has a certain amount of 
flexibility or freedom, if you will, under State management as 
to the Federal issues.
    The fact that unfortunately, too often, we have this one 
size fits all mentality here. Not only when it comes to forest 
management but in so many other policies that come out of 
Washington, DC. It's just one size fits all.
    What you have in the Tongass, a very moist forest, is far 
different than what you would have in my colleague's forest 
down in Arizona. So recognizing that we have to deal 
differently if we're going to get good results, good management 
on our forests is key.
    Chief, I wanted to ask you one last question. This relates 
to the Big Thorn sale based on Prince of Wales. It's my 
understanding that the record of decision for the EIS was going 
to be here any day. It was imminent. We would be able to get 
started by the end of the summer.
    In your written testimony you're now saying that the record 
of decision for Big Thorn is expected in late 2013. What is 
happening here? Why are we seeing this slippage in the time?
    Really for those that have been counting on Big Thorn. We 
all know that we've been counting on Big Thorn to come along. 
What am I going to tell them?
    Mr. Tidwell. We expect to have the record of decision out 
by the first of July.
    Senator Murkowski. OK.
    Mr. Tidwell. Then be able to award the contract in 
September at the latest. The Forest Service has had to do some 
additional cruise data, additional cruising to be able to have 
the right information that they need.
    But I'll tell you they're working very hard to be able to 
get that forward. It is a key project for all of us, which 
we're committed to get done.
    Senator Murkowski. OK, so July 1 we should see the record 
of decision.
    Mr. Tidwell. Yes.
    Senator Murkowski. September we're going.
    Mr. Tidwell. Yes.
    Senator Murkowski. OK.
    Thank you, Mr. Chairman.
    The Chairman. Senators are coming in and out. Just in order 
of appearance. Our next two questioners will be Senator Flake 
and then Senator Barrasso, if that's alright with my 
colleagues.
    Senator Flake. Thank you. Thank you and wish I could have 
heard more of the testimony, had to go kind of back and forth. 
But mostly to Chief Tidwell and if we can go with this, 
stewardship contracting, we've got to reauthorize by September 
30. Tried to do that as part of the Farm bill, the fate of the 
Farm bill, obviously, is uncertain.
    But as we consider reauthorizing the stewardship program 
how can we improve it to enable the Forest Service to enter 
into more contracts than we've been able to do already to treat 
even larger swaths of land?
    For example, I offered an amendment to the Farm bill that 
would have required parity among the fire and liability 
provisions in the stewardship contracts and timber contracts as 
well as a means of incentivizing stewardship work on the land. 
Likewise, GAO issued a report in 2008 that recommended revising 
the cancelation of ceiling provisions that are applicable on 
the stewardship contracts.
    How are those kind of preventing the Forest Service from 
moving ahead and treating larger swaths of land?
    Mr. Tidwell. Senator, first of all I want to thank you and 
all the members of the Senate for the support of the Farm bill. 
I believe it is one of the best forestry titles we've ever had. 
I would hope that there's a way that it can move forward. Once 
again, without the Farm bill we need to find some way to get 
stewardship contracting reauthorized. I'd appreciate your 
support on that.
    The language that was in the Senate Farm bill does address 
some of the problems that would help us be a little more 
efficient with stewardship contracting and eliminate one of the 
questions that we've had in the past. That language will be 
very helpful if we can get that to move forward. You know, the 
liability we need to look at between the stewardship contract 
and a timber sale are very similar. So that liability needs to 
be consistent between the two.
    So there is an additional burden put on a contractor that's 
willing to take on a stewardship contract versus a timber sale 
contract. That's not what this is about. It's to be able to 
just get more work done.
    We've been able to work with a lot of our purchasers and 
contractors to a point now that there's more comfort and the 
improvement that was offered in the Senate version of the Farm 
bill, would be very helpful.
    Senator Flake. Thank you.
    There's some question that about the Forest Service 
commitment to move ahead with timber sales and not just 
stewardship contracts. Is the Forest Service committed to both?
    Mr. Tidwell. Yes, without any question. We will always use 
the timber sale contract when that's the right tool, a 
stewardship contract when that is the right tool. We have to 
remember that the integrated timber sale contract is within the 
stewardship contracting, actually, it's a combination of both, 
which just gives us some additional flexibilities.
    Senator Flake. Appreciate that and appreciated working with 
your office on a number of issues that we have, a number of 
them, in Arizona and others who have worked on this. We've just 
got to ensure that we can treat even larger swaths of forest 
here.
    Because we've had two, once in a lifetime, fires in just 10 
or 12 years. So appreciate your work on this. So we want to 
work with you in the future. If there are issues and there are 
tools that you need as we go through this reauthorization 
process, please let us know and let us help you as you have in 
the past.
    Thank you.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman. Just to follow 
up with what Senator Flake has said to Chief Tidwell, you know, 
as a doctor I think about doctor/patient relationship is about 
patients.
    If the forest were a patient, you know, the time you put on 
life support, find a new doctor, the forests are weak or 
unhealthy. They're suffering from neglect, infected with 
diseases, beetles, burdened with excessive fuel load weight, 
running a very high wildfire fever. The time has really come, I 
think, to actively treat the patient before it's too late.
    So, you know, following up on Senator Flake's comments. 
Does active forest management in timer sales have a role in 
restoring forest health?
    Mr. Tidwell. Yes. More so I think in the future than we 
have recognized in the past.
    Senator Barrasso. Thank you. Thank you, Chief.
    Mr. Imbergamo, if I could?
    In your testimony you describe declining health conditions 
on federally managed forests. I'm going to ask NEPA, the 
Endangered Species act, are they contributing to poor forest 
health by blocking needed management activities?
    Mr. Imbergamo. I think there are not only blocking it, 
they're driving up the cost. That's what is the problem is the 
agency clearly we're in a declining budget environment and 
we're not going to get unending amounts of money to make the 
investments we need to. So we need to lower the costs.
    Senator Barrasso. As you know and members on both sides of 
this committee agree that timber harvest needs to be increased. 
Is there an opportunity for the Forest Service to substantially 
increase timber outputs on acres treated without entering 
sensitive areas? Do those opportunities exist?
    Mr. Imbergamo. In many cases, yes. Alaska is a somewhat 
different situation. In most places they can enter a lot of the 
landscape that is already roaded and do a significant amount of 
work.
    The roadless rule does have some exceptions in it. Those 
are important in places like Idaho and Wyoming. So if we need 
to look at those and really actually utilize those exceptions 
for forest health.
    Senator Barrasso. Thank you.
    Mr. Maisch, from the standpoint being a State forester, if 
I could ask you about your perspective there. Do you see a 
positive correlation between active management and forest 
health?
    Mr. Maisch. Yes, definitely. Those two go hand in hand, in 
my opinion.
    Senator Barrasso. In your testimony you said that the over 
burdensome regulations and litigation are challenges to add to 
the active management that you noted, and as you said go hand 
in hand. Is the NEPA and the Endangered Species act attributing 
to some of the deteriorating forest health by blocking needed 
management activities?
    Mr. Maisch. Yes, in my opinion, yes. Those two laws do 
definitely cause a lot of challenges even with the process 
works perfectly there's a record decision to implement. It only 
takes a third party to file a litigation action and then the 
process stops. That's a real serious issue.
    Senator Barrasso. Mr. Miles, I see you're nodding your head 
up and down.
    In your testimony you also said that burdensome regulations 
and litigations are challenging to active management. My 
question is the same to you. Could you talk about NEPA and the 
Endangered Species act contributing to deteriorating forest 
health by blocking needed management activities?
    Mr. Miles. I guess the frustration is that, you know, once 
the Forest Service, they follow all the laws, they do the 
regulations, following guidelines for pack fish in fish. All 
the things that are necessary to set the stage in order to get 
a project done. Then as Mr. Maisch had alluded to then a third 
party comes in to delay that process. That is frustrating 
because everybody holding hands on the project thought that it 
would be something that would be a slam dunk at that point when 
you're following the letter of the law.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank you, Senator Barrasso.
    I think before you came, we and Senator Risch, asked some 
very good questions. Senator Murkowski and others started 
talking about how we are going to make a major effort on this 
NEPA issue to show that it's going to be possible to get the 
harvest up and keep these bedrock environmental values. That's 
going to require some thoughtful effort to streamline NEPA.
    We're looking forward to working with you. OK.
    Let's continue with other witnesses who would like to get 
into this question that I started to ask Chief Tidwell and 
Senator Murkowski asked you all at the BLM.
    Why don't we even go right down for you other four, so each 
of you have a chance to say it?
    Give us a couple of ideas from your perspective that meet 
our test, streamlining NEPA, getting the harvest up, keeping 
environmental values. To the extent you can, I mean, models 
like landscape-size projects just strikes somebody from your 
seat of your pants as sensible. Why not do the analysis once 
for a big project then eight, ten, fifteen times for these 
smaller projects.
    So let's start with you, Dr. Johnson. Each of you have a 
chance here to tell the U.S. Senate your ideas with respect to 
streamlining NEPA and the balance that we're talking about.
    Dr. Johnson.
    Dr. Johnson. Thank you, Senator Wyden. I want to use for my 
analogy the Eugene District of the BLM.
    Fifteen years ago harvest in the Eugene District of the BLM 
under the Northwest Forest plan about came to a halt. It had 
been sharply declining and the district realized they needed a 
new approach. They started shifting to plantation thinning. By 
the way much of that thinning is in reserves.
    They started. They had a lot of fits and starts. They had a 
lot of challenges. In the last decade they haven't had hardly 
any protests or appeal including thinning and reserves that 
produce saw timber.
    Now why is that?
    The Chairman. I was going to ask that question.
    [Laughter.]
    Mr. Johnson. They've made their case. They have made their 
case that in fact that these actions have ecological benefits 
and they have economic benefits. In addition they have left a 
forest that the public can support, just in terms of its 
appearance.
    So streamlining NEPA. Procedurally it's very important. But 
the notion that if we're going to get over these hurdles we 
have to effectively make our case is at the heart of this.
    We now are working with Eugene BLM to startup this 
variablely retention harvest which does create openings. The 
Eugene BLM has totally stopped that even though it had 
historically done it because they couldn't make their case.
    We now are working with them on major projects to do this. 
At least in the short run we're probably going to solve the 
problem they haven't gotten any appeals or protests for the 
last decade because they'll be starting this up again. Starting 
to make the case.
    So I, Jerry and I, Franklin have concluded that at the 
heart of this that on these Federal forests you have to 
convince people this is both good for forests and good for 
people and good for all the creatures within them. That is the 
approach we're taking to do this.
    The Chairman. Alright.
    Mr. Maisch.
    Mr. Maisch. Yes, thank you, Mr. Chair.
    I'd go back to my original testimony to that triple bottom 
line. You know, it has all 3 elements that have to be 
considered if you're going to sustainably manage forests. But 
more specifically I think Chief Tidwell is on the right track.
    I think especially with his two suggestions about larger 
project areas and perhaps describing a condition a forest 
should be in from a healthy standpoint. Of course, as was 
already pointed out by Senator Risch, different forests have 
different needs. So I think there needs to be flexibility in 
how NEPA is applied across the landscape. It's not one size fit 
all.
    Also within the agency itself, I think it's a very 
cumbersome process and economics need to be considered right up 
front. They have a series of gates that they go through when 
they design a timber sale. Gate one is the first gate. You need 
to look at economics of what you're proposing to do at that 
step as opposed to the end of the process when it's very 
difficult to change what the alternatives might look like.
    Also within the Forest Service the IDTs that they use to 
prepare these NEPA documents. I think there's some real room 
for really targeting a smaller group of people that are the 
experts that do these documents, time and time again. So it's 
spreading it out over a larger part of the agency.
    The Chairman. Let's see if we can get our other two 
witnesses in. Then recognize Senator Murkowski.
    Mr. Imbergamo.
    Mr. Imbergamo. Very quickly, sir.
    One of the biggest things we could do is one of the things 
you were involved in with the Healthy Forest Restoration Act 
which is in areas where there was fire prone lands and wild 
land urban interface. They're only compelled to analyze one 
alternative and perhaps one alternative that's suggested by a 
local collaborative group. The Chief alluded to that.
    Reducing the number of alternative study, you know, 
certainly could make these piles of paper smaller.
    The Chairman. You can save some time for the next round of 
questioning because what you're in effect saying is that you 
ought to give some extra advantage in the regulatory process 
when there is a collaborative, where there are industry and 
environmental folks working together and coming up with a 
suggestion, for example, as we were seeking to do with the 
Healthy Forest Restoration Act. You would give that an 
advantage in the queue for consideration?
    Mr. Imbergamo. I certainly think that's one thing you could 
look at. Of course, I think collaboration, in our view, 
includes collaboration at the bid table. Some of the most 
successful timber sale programs across the country.
    The Chairman. Understand.
    Mr. Imbergamo. Have just been commercial timber sales and 
they've used KV to do all the ecological work. They had the 
support of a youth swath of the environmental community.
    I particularly point out the Ouachita National Forest in 
Arkansas has paid for all the habitat work with traditional 
timber sales. As overhead has killed KV, they've switched to 
stewardship contracting. That's kind of the Forest Service 
discovering capitalism when they only get 35 cents on the 
dollar out of KV they have to go to something else to get the 
work done.
    So I think that collaboration can include collaborating at 
the bid table with the industry.
    The Chairman. Fair enough.
    Mr. Miles.
    Mr. Miles. Yes, Mr. Chairman.
    So my perspective is that why I'm here today as part of the 
Clearwater Basin Collaborative. You know, we have been 
fortunate that collaboration has worked in our area. We've come 
a long ways, but we still have a ways to go with some of our 
projects.
    It would be much harder for us to do this if we all on 
individual terms. So, you know, moving from something like from 
a watching these forest systems condition change all the way to 
being an active in supporting the Forest Service. That's huge, 
you know, for these areas in rural America.
    That's where we need to be at being able to help the Forest 
Service. Giving them the social license to be able to feel 
stronger in the recommendations and moving forward. The line 
officers actually doing their jobs.
    So that's ultimately our message.
    The Chairman. Very good.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    You know we talk a lot about balance in this committee. 
Balancing our desire to advance energy solutions against the 
environment, the economy. But Mr. Maisch, you made a comment in 
your response to the Chairman here that we need to look at the 
economic benefit, the economic factors right up front rather 
than on the back end.
    I think in your initial comments you mentioned that it's 
your sense that within the Forest Service currently there is 
perhaps too much focus on restoration rather than on the 
economy itself. You cite to the situation at home in the 
Tongass where the regional population is down 5 percent, school 
population is down 15 percent. Five communities or excuse me, 5 
schools within these communities have closed.
    Those are economic indicators of a dying economy. So as we 
look to the solutions out there, as we look to how we find this 
balance between our environmental laws which we all recognize 
are there for good reason. We have to make sure that they do 
not bury our communities.
    Really deny them of an existence. So how we are able to 
access our resource, do so in an environmentally responsible 
way and in a timely way is going to be key to the 
sustainability.
    I know that I'm not just talking about Alaska. The Chairman 
has had communities in Oregon that they are literally drying up 
and blowing away when the mills closed down. So how we can be 
working together, Mr. Chairman, as a committee to try to 
advance some of the suggestions that we have heard today, I 
think is going to be key.
    They're going to be key to so many of the small communities 
in my State and in rural Oregon and other parts of the country 
as we try to reckon with a policy that has taken us away from 
this concept of multiple use to a point where we're just not 
seeing reliable, certain supplies coming out of our forests 
that will help, not only with healthy forests, but healthy 
communities economically.
    So we've got a lot of work to do, Mr. Chairman. But I 
really applaud you for moving us forward on this discussion and 
look forward to advancing some solutions.
    The Chairman. Thank you, Senator Murkowski.
    As we've talked about so often there are really, in our 
part of the world, some models that work. We're starting to see 
them in the questions. I've got just a few more questions for 
all of you that all go to Senator Murkowski's point.
    We have talked about this often in the past. But the two of 
us are committed on a bipartisan basis now to stay at this 
until some of these issues like streamlining NEPA, 
collaboration, to really use this as a time for major forestry 
reform. Let me just go through a few other areas that I want to 
touch on and let Senator Murkowski wrap up.
    First, for the record, I'd specifically like to hold the 
opportunity out for each of you to give your suggestions for 
how we might advantage the collaborative groups. Are there ways 
that we can reduce their paperwork, where we can reduce the 
amount of time and review processes? Ways in which we can 
insulate that work from a needless, really gratuitous stalling.
    I mean, Mr. Imbergamo mentions the Healthy Forest 
Restoration Act. One of the key factors in that is we did not 
lock the door to the courthouse. But we also said there's no 
constitutional right to a 5-year delay and just have delay 
after delay after delay.
    There's got to be something practical to do here. I 
particularly like to say when the environmental community and 
the timber industry come together as they did in Eastern 
Oregon, we ought to find some ways, as part of the regulatory 
system, to ensure that's rewarded.
    So we'll hold the record open on that point.
    Now the next area I would like to get a sense of with 
respect to you, Chief and Mr. Farquhar, is something that all 
of us from resource-dependent areas hear constantly. That is 
the frustration in rural communities as to when a forest or a 
district's timber target is not hit.
    The people often come up to us. I'm sure Senator Murkowski 
has exactly the same experience. Say at a town hall meeting, 
they put in the newspaper that they were going to hit this 
target. They didn't even come close. Even despite this one 
thing that went wrong over here, they didn't even come close.
    So my question for both the Forest Service and Mr. Farquhar 
is what's going to be done about this? The additional point 
that's often made in rural communities is hitting the target 
doesn't seem, for harvesting timber, doesn't seem to be as 
important as hitting other targets.
    So how would you two respond to that? How can we begin to 
lock in to some of these reforms that we're talking about? 
Something that ensures that a timber target is something 
meaningful and not something that's honored more in the breech 
than in the observance?
    Chief, why don't you start and then Mr. Farquhar, get you 
into that too.
    Mr. Tidwell. Senator, I'll start with the change that we 
made a few years ago that we used to have a target of how much 
timber you offered. What we found is that you'd make an offer 
and of course we'd get an appeal or a lawsuit. Nothing would go 
forward.
    So we changed that to hold our line officers more 
accountable, it's timber that's actually sold so they have to 
be able to get it all the way through the process before they 
actually accomplish their target.
    That's what we focus on. We track this in our regions. When 
we have a region that's not meeting their target, they need to 
be able to justify it. I'll use our region one, Montana, 
because the court cases have gone against us last year we do 
factor that in, but they will also ask, what are you doing now 
to be able to address timber targets so that next year that's 
not the case?
    So we do track that very closely and hold people 
accountable.
    We also look at where we can make a better investment, as 
we don't have a lot of flexibility in our budgets. They're 
very, very tight.
    But within the regions they look at where, if they have an 
opportunity, they might be able to get a little more work done 
in one area verses another depending on it might have been a 
bad fire season or whatever is factored into that. We also 
shift funds around to get more work done every year.
    So I really track the targets based on the regions. 
Regional foresters, they track it based, you know, going down 
to the forests.
    The Chairman. The only thing I'd say, Chief. I know you're 
trying to be constructive in this area. We're already hearing 
some of this in the discussion of the O and C areas and where, 
because, you know, we're talking about a partition with some 
lands segregated for harvest protection.
    People come and say, well, Ron, all the harvest is going to 
be outside the small rural areas and they're still going to get 
flattened.
    So I understand what you're trying to do. But the targets 
have got to be representative of the area, and if people feel 
that the small rural areas are going to be left behind, then 
we're still going to have a problem with that.
    Mr. Farquhar, on the target question.
    Mr. Farquhar. Thank you, Mr. Chairman.
    I think historically there was more of a problem with that 
than maybe there is right now.
    The Chairman. You've got to come to one of my town hall 
meetings because the problem is now. People come and they will 
literally bring newspaper articles where they say so and so 
from the local BLM or the Forest Service office said we're 
going to harvest this amount. Then they produce the article 
that comes a year later or 8 months later where it just 
harvests a fraction of amount.
    So if you think this problem is gone, come by one of my 
town hall meetings in rural Oregon sometime because people 
bring those newspaper clippings and they're doing their 
homework in good faith. These are people who have actually kept 
tabs on it. They're not acting like this problem is gone.
    Mr. Farquhar. I hear you, Senator.
    I think it was especially big in the 90s is what I'm 
referring to because the, you know, there was a sudden----
    The Chairman. I've been to almost all my counties this 
year. This is not something from the 90s. I don't want to 
belabor. This is something I hear all the time.
    Mr. Farquhar. Let me give you some of the numbers. We have 
actually met the targets the last 3 years of 200 million board 
feet.
    We also have a pretty good record because these are the 
thinning type projects. They aren't as controversial. As Dr. 
Johnson said, you know, we only have a certain time horizon 
that we can be doing this with these thinning projects. They 
don't produce, as Dr. Johnson said, as much revenue as some of 
the larger sales.
    But we offered 609 million board feet over the last 3 
fiscal years and 124 or about a quarter of those, a little less 
than a quarter, were protested or appealed or litigated. We 
were able to resolve 92 million board feet out of those 124 and 
that leaves an unresolved 32 million board feet out of those 3 
years which is about 5 percent of the total that we offered.
    So I think it was--what I meant to say earlier--the problem 
of off--which I think the Chief talked about too, of offering 
and then getting into appeals and it doesn't really count if 
half the stuff you offer goes into appeals and you never get it 
back out. I think we were doing better on that than we had 
been, partly because of what we're trying to harvest.
    I think we do have a challenge moving forward, a 
significant challenge, coming up with a good volume based on 
what the forest can produce and what the public will accept 
with these new techniques that we've introduced today and 
talked about a little bit today and are presented more 
thoroughly in Dr. Johnson's testimony.
    I think there's a prospect that we will be able to increase 
the harvest.
    We will have the public buy in.
    We will show the ecological and economic benefits of these 
types of sales.
    We will be able to say that we've reduced the protests or 
appeals as well.
    So the prospects are, I hope, getting better.
    As we do these 6 land use plans we're hoping we'll also 
accomplish something of what you're talking about of trying to 
map out the future a little bit and streamline the future NEPA 
process for the individual sales.
    The Chairman. That certainly sounds constructive. What I'm 
concerned about, in addition to this question of not meeting 
the targets, is the sense that if you don't hit other resource 
management targets what happens is you get more staff and more 
funding in the next year. But that hasn't been the case with 
respect to the timber harvest.
    So I think we're going to want to follow up with both of 
you on that.
    Let me go to you, Dr. Johnson, if I might because it seems 
to me that we all take away from what you and Dr. Franklin have 
been doing is you're essentially making a case for saying you 
can get the harvest up without clear cutting and some of the 
old approaches, the old intensive forestry approaches.
    Can you describe for the public, sort of in shorthand, how 
that is and some of what's already gone on in the O and C 
debate? What Senator Murkowski and I were already talking 
about.
    I asked Senator Murkowski about her moist forests. She 
tried not to laugh too much in the public square here. Because 
we're up in front of everybody in the rostrum as they have 
really moist forests, like very soggy forests.
    So your ideas could be very helpful, particularly if they 
move us to getting the harvest up without some of the old clear 
cutting and intensive forestry strategies.
    So summarize for us how that is. How you make that 
possible?
    Mr. Johnson. Yes, Senator.
    Senator Murkowski, yes, I've been to your forests. You 
definitely are on the wet side.
    Just a very short story. When we were first starting these 
ideas, the ecological forestry ideas, and I try them out in my 
classes first, to give my classes the assignment, to see if 
they can do them. I'll never forget a student came in and said 
to me, well I talked to my mom last night and I tried to tell 
her what the project was. We're doing this variable retention 
of harvest. It's a regeneration harvest.
    It took 45 minutes for me to convince her it wasn't clear 
cutting. A student actually said that to me. How's it 
different? How's it different because that's the reaction you 
get from people.
    It's different fundamentally. It's different in almost 
every way in terms of the philosophical underpinnings. They're 
not agriculturally economic. They're natural disturbance and 
natural development.
    It's different in terms of instead of trying to achieve 
simplicity. You're trying to achieve complexity.
    Most fundamentally how is it different on the ground? There 
are some examples in my testimony. Some pictures with classic 
clear cutting you come in and basically remove all or almost 
all of the stems. Start over.
    With this approach you don't really start over, you're 
trying to have some continuity. You try to reflect the kind of 
legacy forest you might have after a major disturbance with 
some patches of trees, some individual trees. Keeping the old 
trees, those sentinels that almost always are best at 
withstanding disturbance, keeping them there.
    But as much and the part that was really the change in 
Oregon, and we're still working out, was what happens after 
that?
    So now you do have some openings. They're intermixed with 
patches of leave trees and individuals. But what you do then is 
fundamentally different.
    What we do then is try to emulate how the forest would 
reappear if in fact there was a disturbance. Generally, at 
least in the Northwest and in the moist forests there, you go 
through a stage where trees are not dominant. Where it's the 
shrubs, that forge, the flowers, the fruits and they are, that 
stage is, the most biologically diverse in terms of 
butterflies, such as the golden hair streak.
    Debbie, my wife is right here. She's my butterfly expert.
    The Chairman. Definitely pro butterfly.
    [Laughter.]
    Mr. Johnson. Golden hair streak which if you have 
Chinquapin, which is a pioneer plant. It can grow in older 
forests too, but it really thrives out in the open. It starts 
to flower again. That's where butterfly will appear.
    That's amazing.
    In terms of here's the famous, my favorite from my friend, 
Dr. Franklin, the beetle complement. I'm sorry, but the beetle 
complement in the early stage forest is entirely different. 
Deer and elk thrive on these.
    How is it different than a classic clear cut?
    Because after the classic clear cut and now you see it out 
in industrial land, it's very good growing wood. You suppress 
that vegetation. That's not what you want generally with 
herbicides.
    What you want is to clear the land to grow commercial 
trees. Thus it's a very sterile environment. Whereas what we're 
talking about is letting the little trees come back through. 
There is a modest amount of planting. I mean these are lands to 
produce timber, but there's a modest amount of planting.
    But it's a whole different progression. It's a progression 
that you would generally see in the natural process. That is 
fundamentally different from the way we've thought about 
forestry in my college and out in the profession. It's really 
to create this stage after harvest, before the next forest 
comes, that what we call this diverse early successional stage.
    It's really important. We're lacking it. We're lacking it 
significantly.
    The openings we create in forests generally are on 
industrial land. We don't have this anymore. There is a series 
of species from bluebirds to some butterflies and months that 
we're worried about because of the lack of this vegetation, let 
alone our deer and elk populations and where they head when 
they don't have this.
    We feel this is important enough that I make this statement 
to my students. Some of them came to me and said, can we write 
a children's book on the importance of this as our last 
assignment? I said yes.
    They've written a first draft which is in fact with 
drawings. One of them is such a great artist. I'm going to try 
to move forward with it. It really is the search of a little 
girl for the bluebird and the kind of forest she goes through.
    She goes and sees a Northern Spotted Owl, says you won't 
find them here. She goes on and on and finally gets out in the 
open in this wonderful, botanical, amazing botanical 
environment in the post harvest environment if you let this go. 
It is fundamentally different.
    The Chairman. Well said. I don't know if we've ever 
introduced material from a children's book, Senator Murkowski, 
into the record. But you just heard from my colleague she'd 
like to read it too.
    I just have one last question and I want to let Senator 
Murkowski finish up. That is for the BLM folks on the spotted 
owl critical habitat question. Because I think this is 
interesting.
    Obviously it's of great importance to all of us that we 
wrestle with the O and C issue. But it has real implications 
nationally in terms of what people are looking at. The Chief 
and I have talked a little bit about this as well.
    The Fish and Wildlife Service has recently issued critical 
habitat for the Northern Spotted Owl and has provided guidance 
that some harvest in the habitat can occur and actually, as the 
Chief and I have discussed, help retain the habitat for owls in 
the long run. In other words, this is a way to try to figure 
out how you can get the harvest up and be sensitive to habitat 
and environmental values that, in effect, fish and wildlife is 
saying that habitat and habitat conservation and the harvests 
can go hand in hand.
    My question to you all at the BLM is how do you intend to 
work with the Fish and Wildlife service to ensure that projects 
are implemented in critical habitat and are consistent with 
their recommendations?
    Mr. Farquhar. Thank you, Mr. Chairman.
    That is a new opportunity both to improve the ecology and 
the ecological balance but also to make sure we're protecting 
the owl. A lot of it has to do with the kind of things that Dr. 
Johnson has been talking about. It's important for us to make 
sure the public understands that as well.
    I think one of the points Dr. Johnson made earlier is that 
sometimes, and I'm going to paraphrase. I'll probably do him 
harm in the process. But the public might not understand that 
yet. They might think that critical habitat needs to remain 
undisturbed.
    That's why the principles that you have introduced, Mr. 
Chairman, for this management approach, this vision, if you 
will, for what we're trying to achieve needs to come first and 
people need to buy into that. Then we start talking about the 
techniques of achieving it.
    We've seen in these pilot sales that Dr. Johnson has helped 
the Bureau of Land Management with that, you know, we aren't 
getting a whole lot of appeals. We are getting some, but we're 
also able to do things that are pioneering and that they start 
with this idea of pilot, you know, that's a very important 
word. We're a little beyond the pilot's phase right now in some 
respects.
    But we're engaging the public. We're trying to help them 
understand yes, it's going gradually. Yes, it's largely 
emphasizing projects that are pretty small. But it's a very 
good start for trying to create that public understanding, that 
public support.
    Dr. Johnson, I think you'd probably be able to add to that 
or improve on that a little bit, if you could.
    Mr. Johnson. Very briefly.
    One of the real delightful things with pilots and now the 
ecological forest is how U.S. Fish and Wildlife stepped up and 
said we'll work with you from the beginning to make these 
projects happen. You're still the land management agency. 
You've got to make your decisions. We'll work with you and boy, 
have they.
    This new critical habitat rule in which Paul Henson and 
also the recovery plan says we're really going to focus on the 
ecosystem on which the species depends like it says in the 
Endangered Species Act and all aspects of it and both 
maintaining and enhancing all aspects and understanding the 
role of timber harvest to do that. They've been doing that. 
It's the reason why we've gotten this far with the pilots. It's 
that simple because of their tremendous cooperation and the 
BLM's willingness to do it.
    It may be my last chance to say something. I just want to 
say the reason that Jerry Franklin and I are optimistic. We 
have some pretty lively meetings, as you can imagine, Mr. 
Chairman, with the public, is because of the young people in 
the BLM and their desire to think creatively. It's great.
    The Chairman. Well said, Dr. Johnson and very appropriate 
because there are a lot of good people in these agencies.
    In the Forest Service, the Chief and I have talked about 
that. Mr. Farquhar, a lot of good people. We're going to need 
them all because as I tried to touch on a little over 2 hours 
ago, the status quo is just unacceptable.
    If we're going to leave on one note, that is the note to 
leave on. Clearly you can talk about efficiencies, litigation, 
and all the rest. The amount of timber produced off Federal 
forest lands has declined dramatically. It's declined 
dramatically. We've got to figure out a way to get the harvest 
up and do it consistent with our environmental values.
    I think we received a lot of good suggestions here today.
    Chief, you explained the question of landscape size 
projects for purposes of addressing NEPA issues. Get the 
harvest up and protect environmental values in plain simple 
language that I'm going to use in a town hall meeting. I'm 
going to describe how we started talking about the ways in 
which instead of having 20 of these time-consuming analyses, we 
could have one for a major project.
    So that's what we're going to need to do in the days ahead 
is we're going to look at the host of issues that we talked 
about here today that could go into forestry reform. We are not 
going to duck the big ones.
    Senator Risch correctly said you've got to talk about NEPA. 
NEPA is now something we are going to work through here. For 
anybody who is sort of on the extremes and hears those words 
they ought to know that I do not believe increasing the harvest 
and protecting our environmental values are mutually exclusive. 
I do not buy that false choice.
    I believe that it's going to be possible working with 
people of good will and good faith, like yourselves, to do 
both. That's what this committee is going to take as its load 
star.
    I thank you all for your patience. It's been a long hearing 
this morning but a very valuable one.
    With that the Energy and Natural Resources Committee is 
adjourned.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of Thomas Tidwell to Questions From Senator Wyden
    Question 1. In the Chiefs written testimony he cited the funding 
increased from a low of $180 million in 1995 to $335 million in 2012. 
Please explain the discrepancy between the increased funding for the 
timber sale program over the last 17 years and the sharp decline of 
timber harvests on federal lands--by more than a third--over that same 
time period.
    Answer. The funding mix has changed substantially between 1995 and 
2012 as displayed in the following table. As you can see, the 
appropriations for timber sales have increased but the use of Salvage 
Sale Funds has dropped significantly. When adjusted for inflation (CPI) 
the value ofthe funding in 1995 is greater than 2012.


----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
Funding Source                                                                   1995                      2012
----------------------------------------------------------------------------------------------------------------
Appropriations                                                              $180 mill                 $335 mill
----------------------------------------------------------------------------------------------------------------
Salvage Sale Funds                                                          $155 mill                  $23 mill
----------------------------------------------------------------------------------------------------------------
Knudsen-Vanderburg Funds                                                      $0 mill                  $10 mill
----------------------------------------------------------------------------------------------------------------
Nominal Total                                                               $335 mill                 $368 mill
----------------------------------------------------------------------------------------------------------------
Inflated Total                                                              $505 mill                 $368 mill
----------------------------------------------------------------------------------------------------------------

    Fire transfer and sequestration have also created instability.
    The volume sold in 1995 was 2.89 billion board feet (bbf). In 2012, 
the Forest Service sold 2.64 bbf, or 91 percent of the 1995 volume. In 
summary there has been a 27 percent reduction in funding ``purchasing 
power'' but only a 9 percent reduction in output.
    Question 2. Chief Tidwell, Bill Imbergamo raised in his testimony 
the litigation surrounding the Colt Summit Project on the Lolo National 
Forest being conducted as a part of the Collaborative Landscape 
Restoration Program (CFLRP). CFLRP is a very successful program, 
particularly in my home state of Oregon where excellent collaborative 
restoration work is being conducted under the program. Can you confirm 
that Colt Summit is the only CFLRP project that has been litigated to 
date?
    Answer. Yes, we confirm that Colt Summit is the only CFLR project 
that has been litigated to date.
    Question 3. Chief Tidwell, can you provide a short analysis of the 
number of projects, funded through the Collaborative Forest Landscape 
Restoration Program, (CFLRP) that were appealed and that were 
litigated, and how these percentages compare to the percentages 
nationally for appeals and litigation?
    Answer. The CFLR program was authorized in 2010 with only 10 
projects. Subsequently, Congress authorized additional projects in FY 
2012 and FY 2013. However, the number of project decisions is still 
relatively small, and so it is difficult to discern the true patterns 
of appeals and litigation. In some cases, discussion has successfully 
forestalled litigation. As of February 2013, of the 44 decisions that 
have been made that included commercial harvest of forest products, 20 
percent (9) had been appealed and 2.3 percent (1) had been litigated. 
Those nine appeals were on five projects with four of those appeals on 
only one project.
    Between 2008 and 2012, of 1539 Forest Service decisions that 
included commercial harvest of forest products, 22 percent (339) were 
appealed and 2.5 percent (39) were litigated.
    Question 4. I believe we should highlight the successes of 
collaboration and incentivize collaborative efforts to get restoration 
work accomplished. Assuming some minimum standards for defining a 
collaborative group were established, would it make sense to afford 
restoration projects endorsed by a collaborative group a lighter 
paperwork burden, less administrative review, and/or more protection 
from stalling litigation?
    Answer. We have not considered this. However, we have been 
exploring opportunities for efficiencies with the Council of 
Environmental Quality (CEQ). To accomplish more effective vegetation 
management, the Forest Service is fostering a more efficient National 
Environmental Planning Act (NEPA) process by focusing on improving 
agency policy, learning, and technology. These NEPA process 
improvements will increase decision-making efficiencies and public 
engagement, resulting in on-the-ground restoration work getting done 
more quickly and across a larger landscape. In addition to the Forest 
Planning rule the agency has initiated a NEPA learning networks project 
to learn from and share the lessons of successful implementation of 
efficient NEPA analyses. The goal of this effort is to maintain 
decision making transparency for the public and ensure that the 
Agency's NEPA compliance is as efficient, cost-effective, and up-to-
date as possible. Specifically we are looking at expanding the use of 
focused Environmental Assessments (EAs), iterative Environmental Impact 
Statement documentation (EISs), and applying an adaptive management 
framework to NEPA.
    Our landscape-scale NEPA projects will also increase efficiencies.
    Question 5. What minimum criteria for the local collaborative 
should the Forest Service or BLM use to trigger a lighter 
administrative burden for NEPA?
    Answer. We have not considered this.
    Question 6. How specifically should the implementation ofNEPA be 
different for projects endorsed by a collaborative group?
    Answer. This has not been determined.
     Responses of Thomas Tidwell to Questions From Senator Baldwin
    Question 1. Members of Wisconsin's timber industry have expressed 
to me their strong concerns with the level and timing of timber 
harvests allowed on federal forest land. One of the things I hear most 
frequently is the need for certainty -that includes long-term certainty 
in the time of year contracts are made available, and the time a 
contract takes to be finalized. In what ways is the Forest Service 
addressing these challenges of certainty and timing within the current 
contracting framework?
    Answer. I agree with you that providing an amount of timber for 
sale that is consistent and predictable is an appropriate goal. We have 
worked hard to become more efficient in preparing timber for sale. 
Between 1995 and 2012, accounting for inflation, the value of our funds 
for preparing timber have declined 27 percent but our timber sold has 
only decreased 9 percent. The amount of money appropriated has a 
significant effect on the level of timber that is offered. It takes 2-3 
years to plan and prepare a project for sale. Therefore, an abrupt 
change in funding year to year is problematic.
    Question 2. Members of the timber and forest products industries in 
Wisconsin have been carefully watching the progress of stewardship 
contracting projections. First, please address the way that you measure 
the effectiveness of these projects. Second, please describe some of 
the challenges stakeholders face when entering into these stewardship 
contracts?
    Answer. The Forest Service collects a variety of data to measure 
the accomplishments of stewardship contracts and agreements, including 
the amount of timber sold, wildlife habitat improved, fuels treated, 
invasive species treated, trees planted, and road improvements. 
Stewardship contracting has proved to be a valuable tool in many 
locations to implement restoration activities and meet multiple land 
management objectives including hazardous fuels reduction, wildlife 
habitat improvement, forest health improvement, and other projects that 
produce timber. These contracts result in 25 percent of the timber 
volume produced by the agency with the remaining 75 percent coming from 
traditional timber sale contracts.
    The Forest Service has contracted with the Pinchot Institute for 
Conservation for programmatic multiparty monitoring of stewardship 
contracts and agreements as another way of measuring their 
effectiveness. The results of the FY 2012 programmatic monitoring 
efforts by the Pinchot Institute are available online at: http://
www.fs.fed. us/:forestmanagement/stewardshiplreports/i ndex.shtml .
    The following answer addresses some challenges that contractors 
have had as a result of bidding on and implementing stewardship 
contracts:

  <bullet> Stewardship contracts usually include work items not 
        traditionally included in timber sale contracts, such as 
        precommercial thinning, reforestation, hazardous fuels 
        treatment, fisheries or wildlife habitat improvement, trail 
        maintenance, etc. Traditional timber sale contractors often 
        need to find the expertise and subcontract the work if they do 
        not have the expertise to complete the contract.
  <bullet> Since stewardship contracts are based on best value to the 
        government, rather than only on price, contractors have 
        additional information they must provide, depending upon the 
        criteria included in the bid request. This can be a challenge 
        when a contractor first starts competing for contracts.

    Question 3. As climate change has been predicted to cause greater 
pressures on forest health from both pests and fires, is the agency 
considering timber harvesting to Annual Sale Quantity levels as a 
method to reduce the effects of climate change on national forests?
    Answer. The Forest Service's approach to climate change has and 
will continue to be directed at building resilience to climate-driven 
and other stressors as you described. We implement timber harvests and 
other management actions aimed at restoring the resilience of 
ecosystems, thus making them more adaptive to a changing climate. 
Thinning forests improves stand vigor, reduces hazardous fuels, and 
reduces vulnerability to wildfire, disease, and insect attack while 
also providing forest products, other ecosystem services such as clean 
water, wildlife habitat and rural jobs. The Agency continues to explore 
new ways to become more efficient, as outlined in the February 2012 
strategy for increasing restoration activities across large landscapes, 
including more timber harvesting. Through these efforts, in spite of 
flat or declining budgets, fire transfer, and sequestration, in the 
past few years the Forest Service increased the volume sold, from 
2.38bbfin 2005 to the 2.64 bbfin 2012, though budget cuts resulted in a 
slight decline in 2013. The use of harvesting timber as a tool to 
address climate change is affected by the level of appropriations, 
litigation, and other competing values from the forests. The Annual 
Sale Quantity is an upper limit of timber volume that can be sold from 
a forest. Appropriations have not been sufficient to meet this upper 
limit. In addition, in the new Planning rule there is no ASQ, as 
activities are based on restoration needs.
    Question 4. How does the Forest Service intend to utilize funding 
available from stewardship contracting retained receipts? Will they be 
used to maximize forest health treatment across all of the National 
forests?
    Answer. Stewardship contracting retained receipts become available 
when the sale of forest products exceeds the cost of the service work 
obtained under an integrated resource contract. The retained receipts 
are used to complete resource work, including:

  <bullet> Improving, maintaining, and restoring forest and rangeland 
        health
  <bullet> Restoring and maintaining water quality
  <bullet> Improving fish and wildlife habitat; reestablishing native 
        plant species
  <bullet> Reducing hazardous fuels that pose risks to communities and 
        ecosystem values
  <bullet> Decommissioning roads

    Stewardship Contracting retained receipts remain on the unit where 
the receipts were collected for use on other authorized stewardship 
projects. Funds can be used on other units after approval by the 
regional forester in the region where the receipts were collected.
    Responses of Thomas Tidwell to Questions From Senator Murkowski
    Question 1. Generating a more certain and predictable flow of 
timber from our national forest to support rural economies is a 
challenge the agency and Congress are grappling with. One approach to 
create that certainty is to legislate treatment levels or timber supply 
mandates for a particular forest or forests that the agency would be 
required to meet. What is the Forest Service's view of legislated 
treatment levels and supply mandates? Does the Forest Service support 
this approach to create more certainty with respect to timber supply?
    Answer. Legislating treatment levels will not assure that a 
particular forest or the agency as a whole will be able to meet those 
levels. It may impact the discretion that the Forest Service has to 
provide for the needs across a region or the nation. In addition, 
legislating treatment levels does not ensure that the Forest Service 
will have the funds to do the work. It also does not take into account 
appeals or lawsuits that may prevent the Forest Service from achieving 
the targets. Legislative mandates also remove the opportunity and 
flexibility to address important needs resulting from catastrophic 
natural or economic events, or for changes across the system over time 
that may arise during the budget cycle.
    Question 2. In your written testimony, you state that timber sales 
remain the mainstay of the agency's restoration efforts, yet all the 
highlighted examples of restoration work being undertaken across the 
country appear to be using stewardship contracting. What percentage of 
your restoration work is actually accomplished through traditional 
timber sales (not Integrated Timber Resource Contracts under 
Stewardship authority)?
    Answer. 75 percent of the timber volume sold by the Forest Service 
in FY12 was sold through traditional timber sale contracts. Both our 
timber and stewardship contracts support restoration goals.
                                 ______
                                 
Responses of John ``Chris'' Maisch to Questions From Senators Murkowski 
                               and Wyden
    Thank you for your interest in my presentation to your committee 
and your follow-up questions. I apologize for not being able to respond 
more promptly, but a long and difficult fire season in Alaska precluded 
me from devoting time to this response until recently. As you may know, 
over 1.3 million acres burned in Alaska this fire season and two Type I 
incidents were close to communities, with the Stuart Creek fire near 
Fairbanks causing evacuations of over 800 individual homes and 
businesses. As our wildland fire season finally slowed in late August, 
we shifted our attention and full support of fires in the Lower-48. 
Both your questions are good ones and not easy to answer. The topic of 
collaboration and how to apply this technique for decision making, 
usually among very diverse parties, has been around for a long time. 
The U.S. Forest Service and other land management agencies have turned 
to this concept in an effort to have a more transparent decision making 
process and to involve the various stakeholders in discussing, 
crafting, and ultimately supporting a specific direction or action for 
management activities.
    I've personally participated in this type of process on several 
occasions, both at the state level and more recently with the Tongass 
Futures Roundtable as convened by The Nature Conservancy (TNC) and 
other organizations. When a collaborative process is successful, it can 
create an enduring environment for agreement and productive activity in 
our forests, but when it fails, the old battle lines are quickly re-
established or a long, drawn out collaborative process leads to no 
action or decision. Is it worth the effort? I've thought a lot about 
that aspect of the process, and overall I would answer ``yes'', but 
with some qualifiers. With this as my preamble, I'll do my best to 
answer your specific questions and share my experience.
                    Question From Senator Murkowski
    Question 1. There has been a lot of positive talk about 
collaboration as a process or means for building trust and 
accomplishing mutual goals, such as, increasing forest restoration and 
timber harvest on federal lands. I understand you have some experience 
with collaboration in Alaska on the Tongass. Can you describe that 
experience?
    Answer. In 2006 the State of Alaska was invited to participate in 
the Tongass Futures Roundtable (TFR) process along with a variety of 
local government officials, NGOs, a number of environmental 
organizations from both the national and local level, industry 
representatives from the major business sectors in Southeast Alaska, 
Native organizations, both tribal and corporate, foundations, and the 
U.S. Forest Service. This very diverse and large group consisting of 35 
primary members was charged with crafting an alternative to be 
considered in the Forest Management Plan amendment process that was 
underway for the Tongass National Forest. The effort began with a joint 
meeting of the invited parties in Bothell, WA in May of 2006 with a 
subsequent agreement to launch a ``collaborative'' process.
    Oversight, staffing, and organization of the TFR were primarily by 
The Nature Conservancy with funding from a number of foundations and 
organizations. A meeting facilitator was utilized for all the full TFR 
meetings. As the group began organizing internally, various working 
committees were established to address specific issues identified by 
the group. In an effort to be even more inclusive, the working 
committees were open to participation by individuals or organizations 
with an interest in the topic, especially if they were not a primary 
member.
    One of the work products desired by all early on in the process, 
was a land use allocation map that would identify the areas where 
active timber harvest could occur on the forest\1\. A tremendous amount 
of time, effort, and resources were devoted to this goal, but it was 
never achieved. I think the best agreement the sub-group tasked with 
this effort were able to reach, was about 2/3rds of the acreage needed 
to sustain a forest products industry.
---------------------------------------------------------------------------
    \1\ In Forest Service planning language a Forest Development Land 
Use Designation (LUD).
---------------------------------------------------------------------------
    Over the course of the next six years, the Roundtable would meet as 
a full body 20 times. The various working committees would meet more 
frequently and the Framework Committee which I chaired met 21 times in 
a three year period (2007-09). Progress was slow and much of the first 
year was spent building some relationships between parties that could 
barley sit in a room together. The Tongass has been a difficult issue 
for a long time, a battle ground for environmental, fishing, and timber 
interests all bent on their version of what the Tongass should be, how 
it should be managed. Often the communities, businesses, and residents 
of SE are the ones caught in the crossfire while allegiances and allies 
at both the local and national levels shift issue by issue.
    While there were some small successes, they were limited in scope 
and scale and the full body was never able to achieve the type of 
breakout from the past that the process envisioned. A lot of people 
worked very hard and took personal risks to try and move forward, to 
find a route that could lead toward a common vision, something better, 
but we couldn't get there. I still find that part of the experience 
very frustrating, in part, because I don't like to fail, but also 
because of the eventually unrealized hopes people had at the beginning 
of the process. A few members who were unwilling to compromise, to 
truly collaborate, won the day, and that leads me to a key observation 
of the process. All the primary members must have something at risk, 
something they will lose if the group can't reach a decision, something 
that puts them at greater risk to stand alone. Without this motivation, 
they have little to lose and can actually use a process like this to 
buy time, knowing in the end that they have veto power by not agreeing.
                      Question From Senator Wyden
    Question 1. I believe we should highlight the successes of 
collaboration and incentivize collaborative efforts to get restoration 
work accomplished. Assuming some minimum standards for defining a 
collaborative group were established, would it make sense to afford 
restoration projects endorsed by a collaborative group a lighter 
paperwork burden, less administrative review, and/or more protection 
from stalling litigation?
    What minimum criteria for the local collaborative should the Forest 
Service or BLM use to trigger a lighter administrative burden for NEPA?
    How specifically should the implementation of NEPA be different for 
projects endorsed by a collaborative group?
    Answer. I would agree with your opening statement and endorse the 
concept of providing stronger support and protection or limits to 
litigation for projects derived from a collaborative process. This 
would help address the issue of litigation by ``outlier'' organizations 
or individuals that did not participate in a collaborative process, but 
are able to derail a project agreed to by this process.
    I'm not an expert in this area, but would suggest that reform to 
the NEPA process as currently practiced might provide fewer 
opportunities for the appeal and legal process to play out. For 
example, a Forest Plan\2\ goes through an extensive NEPA process and 
then almost every action to implement the Forest Plan also goes through 
another exhaustive process. Individual projects, such as timber sales, 
can take 18-30 months to complete the process.
---------------------------------------------------------------------------
    \2\ A Forest Plan has a shelf life of 15 years and is reviewed 
internally about every five years to ensure it is relevant to the 
criteria used in creating the plan. If there are significant 
departures, then a plan amendment is typically recommended.
---------------------------------------------------------------------------
    What if there was only one NEPA process at the Forest Plan level 
that would allow projects that are implementing the Forest Plan to move 
forward without a separate NEPA review. This type of programmatic 
review would save considerable time and funding and allow active forest 
management to proceed in support of economic, restoration, and forest 
health goals across the country. Efforts to stall or challenge work 
would be kept at the Forest Plan level and limit the constant 
challenges that have slowed the process of implementing Forest Plans.
    To more specifically address your question concerning ``What 
minimum criteria for the local collaborative should the Forest Service 
or BLM use to trigger a lighter administrative burden for NEPA?'' I 
would suggest that a lighter administrative process shouldn't be tied 
to collaboration. While this technique works well in some situations, 
it can be very time consuming and take many years to achieve even 
modest results. I would contend that we need less NEPA process across 
the board to implement Forest Plans that have already been through an 
extensive public process. If you want to demonstrate how this concept 
will work in a few areas of the country, consider choosing locations 
with a functioning collaborative and others with none. It could provide 
a real time test of how this concept would work in practice and lead to 
useful insights on how to modify and expand the concept beyond initial 
pilots.
    Another area for improvement would be the Forest Planning process. 
For example in the Tongass, a new Plan Amendment was completed in 2008 
after 18 months of work. In 2013, as required in the Tongass plan, a 
five year review was undertaken and determined there had been 
significant changes in the operating environment of the Forest, 
including demands from the pubic\3\. This triggered a Forest Plan 
amendment process, which at its best will take two years to complete. I 
believe this is an extreme example, but we have a burdensome amount of 
planning taking place that again ties up funding and staff time which 
should be directed toward Forest Plan implementation. The new Planning 
Rule doesn't improve this situation and should be carefully evaluated 
with a goal of streamlining the planning process.
---------------------------------------------------------------------------
    \3\ USFS press release 10-31-13, Tongass National Forest.
---------------------------------------------------------------------------
                                 ______
                                 
       Responses of Ned Farquhar to Questions From Senator Wyden
    Question 1. I understand Oregon BLM is revising its resource plans 
for Western Oregon at this time. Part of that effort will require 
greater coordination and consultation with the agencies that manage 
endangered species--both the US Fish and Wildlife Service and National 
Oceanic and Atmospheric Administration (NOAA). It will be important to 
consider a planning process that builds on the successful coordination 
in recent projects by closely integrating these agencies in the 
planning. What plans do you have to integrate these agencies in the 
resource planning process?
    Answer. The BLM in western Oregon is coordinating consultation on 
threatened and endangered species issues with both the US Fish and 
Wildlife Service (FWS) and National Oceanic and Atmospheric 
Administration (NOAA). First, the BLM has employed the DOI's 
Collaborative Action and Dispute Resolution (CADR) process and an 
independent facilitator to finalize an agreement between the BLM, FWS, 
and NOAA on how consultation will be addressed in the new plans. 
Second, in April of 2013, Forest Service Chief Tom Tidwell, FWS 
Director Dan Ashe, and BLM Principal Deputy Director Neil Kornze 
conducted a series of meetings in the Pacific Northwest to discuss 
implementation of the 2012 Critical Habitat Rule for the Northern 
Spotted Owl, including the application of active forest management. 
Finally, at the local district level, the FWS and NOAA have consulted 
with the BLM on the Secretarial pilot timber sales, including 
developing signed biological opinions on each of the pilots. This 
ongoing coordination and collaboration, with not only with the 
consulting agencies but other public stakeholders and cooperating 
agencies, is setting the framework for how the BLM plans to integrate 
input into the planning process, analysis, and final decisions.
    Question 2a. I believe we should highlight the successes of 
collaboration and incentivize collaborative efforts to get restoration 
work accomplished. Assuming some minimum standards for defining a 
collaborative group were established, would it make sense to afford 
restoration projects endorsed by a collaborative group a lighter 
paperwork burden, less administrative review, and/or more protection 
from stalling litigation?
    Answer. The BLM shares the belief that successful collaboration and 
incentivizing collaborative efforts are important to advancing 
restoration work. The BLM has embraced collaboration when conducting 
National Environmental Policy Act (NEPA) analyses to inform land use 
planning or project decisions, including for restoration projects.
    While the BLM is open to more efficient ways to accomplish 
restoration work, the BLM believes that current NEPA regulations and 
guidance provide a sound framework for review of federal actions. 
Current NEPA regulations and guidance encourage Federal agencies to 
reduce paperwork and conduct more efficient administrative review by 
meeting with partners and stakeholders early in project planning, using 
``scoping'' to narrow the issues warranting detailed NEPA analysis, and 
preparing concise NEPA documents of a length that reflects the scale of 
potential environmental impacts and mitigation. The BLM encourages its 
field offices to pursue these and other efficiencies through 
collaboration and to implement the guidance in the Council on 
Environmental Quality's Collaboration in NEPA Handbook. The BLM updated 
A Desk Guide to Cooperating Agency Relationships and Coordination with 
Intergovernmental Partners in 2012 to assist the BLM and other agencies 
in collaborative efforts. In addition, the BLM maintains a 
Collaboration and Dispute Resolution Program and a Partnerships Program 
to provide support and guidance to the field in engaging stakeholders 
and partners.
    The current NEPA framework is designed to provide for public review 
and engagement, and our hope is that a process that provides for 
opportunities for input reduces the likelihood of litigation as well, 
particularly where a restoration project is endorsed by a collaborative 
group. Where the endorsing group has addressed issues, bridged 
differences, and built support for a project throughout project 
planning and design, group members have less incentive to pursue 
litigation challenging the project.
    Question 2b. What minimum criteria for the local collaborative 
[effort] should the Forest Service or BLM use to trigger a lighter 
administrative burden for NEPA?
    Answer. A collaborative process facilitates efficiencies throughout 
the NEPA process, including those that improve the effectiveness and 
efficiency of NEPA analysis and document preparation. The BLM finds 
that highlighting the benefits of a collaborative process and applying 
general principles for preparing NEPA documents (e.g., concise 
documents that discuss issues in proportion to their significance) are 
generally useful for addressing the administrative demands under NEPA.
    Question 2c. How specifically should the implementation of NEPA be 
different for projects endorsed by a collaborative group?
    Answer. For the reasons noted above, the BLM believes that the 
current framework for implementing NEPA provides effective 
opportunities to seek the endorsement of a collaborative group brought 
together for a specific project. The current framework also allows a 
lead agency that obtains the endorsement of a collaborative group 
(e.g., for a preferred alternative or particular mitigation measures) 
to document that endorsement, use it to inform their decisions, and to 
defend any subsequent legal challenges.
                                 ______
                                 
       Response of Bill Imbergamo to Question From Senator Wyden
    Question 1. I believe we should highlight the successes of 
collaboration and incentivize collaborative efforts to get restoration 
work accomplished. Assuming some minimum standards for defining a 
collaborative group were established, would it make sense to afford 
restoration projects endorsed by a collaborative group a lighter 
paperwork burden, less administrative review, and/or more protection 
from stalling litigation?
    What minimum criteria for the local collaborative should the Forest 
Service or BLM use to trigger a lighter administrative burden for NEPA?
    How specifically should the implementation of NEPA be different for 
projects endorsed by a collaborative group?
    Answer. As noted at the hearing, while FFRC members are--in many 
regions--actively involved in collaborative processes, we cannot 
support a policy solution that basically institutes an additional layer 
of mandatory local involvement in order to be eligible for NEPA 
compliance procedures that are widely acknowledged to be necessary 
across the National Forest System.
    The hearing record clearly indicated that NEPA--and the court's 
interpretation of it--have led the agency to overanalyze even the most 
modest forest management projects. This level of analysis is what 
drives annual expenditures of more than $350 Million. These funds 
should be available to design an implement projects, not develop mounds 
of paperwork that serves only as fodder for litigators.
    Collaborative projects such as the CFLRP projects cover only a 
small percentage of the National Forest system, and primarily only in 
fire prone regions of the country. Giving these projects a lighter 
paperwork burden only intentionally leaves in place what is widely 
regarded as a wasteful, inefficient, and unwieldy process for the 
majority of the National Forest System. Even if collaborative projects 
were to receive this preferential treatment, all you would have 
succeeded in doing, in effect, is creating a second, even more 
elaborate public involvement process, layered on top of the existing 
exhaustive analysis required by forest plan development, amendment, 
revision, and project development and proposal.
    At what point would we simply be making collaboratives a substitute 
for forest planning? If that is the goal, then eliminate forest 
planning, or take other steps so that Congress is not simply accreting 
another layer of public involvement and analysis on top of the existing 
layer cake.
    Moreover, simply giving collaborative projects a ``leg up'' in the 
various administrative and legal hurdles only leaves in place the 
existing underlying problem: a complete lack of clarity on the agency's 
mission and no direction from Congress to manage a portion of the 
landscape for timber production. If the agency is forced to cope with 
its untenable NEPA burden with no direction from Congress, 
collaboratives, the normal timber sale program, and other hazardous 
fuels reduction efforts are destined to founder because of continued 
litigation, analysis, and lack of funds.
    Ultimately, we believe a legislated trust mandate and legislative 
reforms to NEPA on lands identified as suited for and/or available for 
timber production in current forest plans is the best way to provide 
this clarity. We have outlined the basics of a trust approach in our 
testimony.
    Whether projects are developed through a collaborative or as part 
of needed forest management treatments, the Forest Service should be 
given streamlined NEPA authorities for other lands identified as being 
at risk of catastrophic insect outbreaks or fire. The Committee should 
adopt legislation directing the Forest Service to implement streamlined 
NEPA on lands identified as being at risk of catastrophic insect 
outbreaks or fire.

          1. Declare an emergency on all Federal lands designated as 
        condition class 2 or 3 on wildfire risk maps, as well as and 
        lands identified as priorities for treatment in a Community 
        Wildfire Protection Plan.
          2. Adopt alternative arrangements for all such lands for 
        compliance with NEPA, including:

          a) Allow any hazardous fuel reduction project, including 
        creation of fuel breaks, thinning, creation of defensible space 
        around developed property, campgrounds, or other facilities, to 
        be carried out concurrent with development of NEPA 
        documentation.
          b) Require the Forest Service to analyze at most the proposed 
        action and the no action alternative on any project conducted 
        on condition class 2 or 3 lands, and explicitly limit required 
        cumulative effects analysis to the current conditions the 
        project area rather than exhaustive attempts to chronicle the 
        effects of previous management.
          c) Grant a categorical exclusion to any hazardous fuels 
        reduction project on condition class 2 or 3 lands recommended 
        by a collaborative group.
          d) Put a firm page limit on EA's for projects on CC 2 or 3 
        lands in order to expedite action.

    Further, the Forest Service should be required to adopt the 
following policies:

          Direct each forest with a known bark beetle infestation to 
        develop large scale control projects along the lines of the 
        Black Hills Mountain Pine Beetle Response Project within the 
        next 6 months. Directing these units to use HFRA will allow 
        rapid analysis and allow expedited judicial review.
          Develop a model forest plan amendment to allow each National 
        Forest to plan, in advance of any catastrophic event, an active 
        salvage and recovery program that allows the Forest Service to 
        capture carbon from damaged trees and re-establishes green, 
        growing, and carbon-sequestering forests as rapidly as 
        possible. In general, on lands designated as suitable for 
        timber production or otherwise designated as general forest, 
        the Forest Service should adopt a requirement to salvage at 
        least 75% of damaged acres.
      Response of Bill Imbergamo to Question From Senator Baldwin
    Question 1. Members of the timber and forest products industries in 
Wisconsin have been carefully watching the progress of stewardship 
contracting projects. Please describe some of the challenges 
stakeholders face when entering into these stewardship contracts.
    Answer. Stewardship contracting is an important tool for the 
management of the National Forest, and FFRC supports reauthorization of 
this program. We must stress, however, that Stewardship contracts were 
not intended to--and should not be allowed to--supplant or replace 
normal timber sales as a means of accomplishing forest management on 
the National Forests. FFRC also has concerns about the growing impact 
Stewardship contracts are having on potential timber receipt revenue 
sharing with local governments.
    As far as challenges facing stakeholders and timber purchasers, we 
view the lack of liability limitations in Stewardship Service Contracts 
as a potentially major obstacle. Already, this has figured into the 
thinking of major conservation groups who opted to stop pursuing 
Stewardship Service Contracts. Under current timber sale contracts, 
there is a distinction made between ``operations fire'' and ``negligent 
fires.'' The amount of a purchasers liability is limited for operations 
fires to the amount specified in a bond that must be posted before 
beginning work. There is no distinction between operations and 
negligent fires in Stewardship Service Contracts. This exposes 
purchasers to potentially ruinous liability.
    Sen. Flake introduced a bi-partisan amendment during the recent 
Farm Bill debate that was ruled to be budget neutral by the CBO that 
would direct the Forest Service to correct this problem. In any 
reauthorization of Stewardship Contracting, we urge you to support this 
important reform.
    An additional challenge for our companies is finding the time to 
analyze what the Forest Service is actually looking for in a 
Stewardship contract. Frequently, selection criteria are unclear and 
almost entirely subjective, and seem to be based on who spends the most 
time attending meetings. While we don't doubt the value of 
collaboration, we question the fairness of a bidding process that seems 
to expect very lean businesses to operate more like non-profit social 
services agencies. The Forest Service should develop more explicit, 
easy to understand selection criteria, and should follow through on 
Congressional direction to conduct adequate debriefing with 
unsuccessful bidders. Further, for the Forest Service, we are concerned 
that management staff are being pressured to take successful timber 
sales and repackage them as Stewardship contracts. While the needed 
management gets done and the wood winds up at a mill either way, there 
are pitfalls to this approach. By driving agency staff to develop new 
partnerships, we're concerned that they can sometimes become estranged 
from their industry partners. We've seen successful timber forests 
offer up sales that go no-bid for the first time in decades after 
normal timber sales were converted to Stewardship sales.
    Again, we hope Congress directs the agency to maintain a vital 
timber sale program, which can be very effective at managing a variety 
of forest types, including those found on the Chequamegon-Nicolet, for 
a variety of benefits.
    Responses of Bill Imbergamo to Questions From Senator Murkowski
    Question 1. There has been a lot of positive talk about 
collaboration as a process or means for building trust and 
accomplishing mutual goals, such as, increasing forest restoration and 
timber harvest on federal lands. What has been your membership's 
experience with collaboration?
    Answer. Our members have had a variety of experiences with 
collaboration, ranging from the extremely positive to extremely 
negative. Our members in Alaska, for instance, engaged in good faith 
collaborative negotiations for over 5 years, attempting to find a 
solution that produced the type of timber the local industry needs 
while meeting the objectives of local and national environmental 
groups. At the end of the day, both participating and side-line sitting 
environmental groups conducted end runs around the process that have 
destroyed the good faith needed to make the collaborative successful.
    In other cases, FFRC members are involved in collaborative efforts 
that are far ahead of the National Forest System. The Northeast 
Washington Forestry Coalition in Washington State, for instance, has 
the support of a wide variety of environmental and industry 
stakeholders and publicly supports harvesting 80 Million Board Feet of 
timber annually. Thus far, the Forest Service has failed to propose 
harvesting even half this amount. Long-running collaboratives in 
Arizona have experienced similar failures.
    As noted in our response to Senator Wyden, however, we note that 
whether collaboratives are successful or not, they should not become a 
default additional mandatory process in the already cumbersome forest 
management system that governs our National Forest System. Congress 
should not continue to sit on the sideline while the agency engages in 
endless gymnastics in the hopes that it will satisfy the courts. 
Clarity in direction--and bold experimentation, including designation 
of State forests--is needed.
    Question 2. Dr. Johnson testified regarding an approach he calls 
``ecological forestry'' to increase timber harvest levels on O&C lands 
to get to a ``sustained yield'' of timber harvest that enables a 
permanent source of timber supply and contributes to the economic 
stability of local communities. My understanding is that there have 
been some pilot projects on O&C lands testing these ideas. What was 
your Oregon membership's experience with these pilot projects?
    Answer. FFRC's Oregon membership has closely followed the Johnson/
Franklin ``pilot projects'' as well as the broader implications of 
applying their management approach to the BLM O&C lands in western 
Oregon. In the drier forests of southwest Oregon, these small scale 
pilot projects have removed less timber volume per acre and resulted in 
reduced levels of receipts for local governments when compared with 
management as intended under the Northwest Forest Plan. The Johnson/
Franklin pilot projects in wetter forests are promoting variable 
retention regeneration harvests, but they have been no less 
controversial--as witnessed by the administrative appeals and protests 
by environmental groups. In fact, the White Castle timber sale on the 
BLM's Roseburg District is currently occupied by numerous tree sitters. 
The Johnson/Franklin management approach, including changes to 
reforestation practices following harvests in wetter forests, raises 
many policy and legal concerns--particularly as it relates to 
compliance with the O&C Act.
    Applying the Johnson/Franklin approaches more broadly to the BLM 
O&C lands would result in serious economic, fiscal, and environmental 
impacts. A Task Force convened by Oregon Governor John Kitzhaber 
modeled a number of alternatives for managing the O&C lands, including 
an ecological forestry approach similar to that proposed by Johnson/
Franklin. The modeling showed that it would only generate a 200 million 
board feet (mmbf) timber harvest and $27M in receipts for the O&C 
counties. These lands grow over 1,200 mmbf of timber each year. The 
Task Force modeling also showed that the Medford and Roseburg districts 
in southwest Oregon would be hit particularly hard under ``ecological 
forestry'' as harvest volumes would fall to anemic levels in these more 
fire prone forests--the exact opposite of what we should be doing to 
reduce the risk of catastrophic fires and insect infestations. It is 
clear that the Johnson/Franklin ecological forestry practices are 
unlikely to produce adequate, geographically distributed timber 
harvests across western Oregon or adequate revenues to meet the needs 
of local counties.
    While FFRC does not question Dr. Johnson's qualifications as a 
silviculturist and researcher, we do question what lessons Congress can 
learn from his testimony. While he no doubt has a fine grasp of the 
ecology of Douglas Fir forests in the Pacific Northwest, we note that 
the entire National Forest System spans the subtropics of Florida to 
the Temperate Rainforests of Alaska. Ecological conditions vary 
greatly, even within each National Forest. What passes for ecological 
forestry in Oregon may make no sense--in fact quite likely makes no 
sense--in the mixed oak-pine forests of Arkansas or the Birch-Beech-
Maple forests of New Hampshire.
    Congress should no more attempt to adopt the management 
recommendations of Dr. Johnson than they should adopt the latest 
research of management of the Allegheny Plateau. We have over 24,000 
Forest Service employees and researchers who develop detailed 
management plans for each National Forest. Rather than identifying one 
approach that may be appealing in one region (and only to certain 
groups), we should enable the Forest Service to carry out the 
management plans they spend so much time and money developing.
                                 ______
                                 
         Response of Aaron Miles to Question From Senator Wyden
    Question 1. I believe we should highlight the successes of 
collaboration and incentivize collaborative efforts to get restoration 
work accomplished. Assuming some minimum standards for defining a 
collaborative group were established, would it make sense to afford 
restoration projects endorsed by a collaborative group a lighter 
paperwork burden, less administrative review, and/or more protection 
from stalling litigation?
    What minimum criteria for the local collaborative should the Forest 
Service or BLM use to trigger a lighter administrative burden for NEPA?
    How specifically should the implementation of NEPA be different for 
projects endorsed by a collaborative group?
    Answer. Collaboration has become an essential modelto resolving 
long standing issues among diverse interests of rural Americans 
dependent upon the federal land base for their livelihoods. The 
Clearwater Basin Collaborative (CBC), led by US Senator Mike Crapo and 
supported by Senator Jim Risch and Congressman Raul Labrador,is an 
excellent example of collaboration that showcases major accomplishments 
when like-minded individuals from diverse interests are willing to work 
towards a common goal. The personal commitment by each stakeholder at 
our monthly meetings and subcommittee meetings,have resulted in our 
Agreement &Work Plan, intended to capture our commitment in resolving 
differences in land ethic and use of the Nez Perce-Clearwater National 
Forest.
    First and foremost, I would like to state that anadromous.and 
resident fisheries recovery is paramount to our success in the basin. 
The US Forest Service (USFS), Bonneville Power Administration,and Nez 
Perce Tribe (Tribe) have spent millions of dollars on culvert 
replacement,and road decommissioning to improve water quality for 
fisheries under the PACFISH/INFISH Biological Opinion Effectiveness 
Monitoring Program (PIBO). As a collaborative we believe our efforts 
must be built around and supportive of the Tribe and USFS on the ground 
efforts to restore the fisheries acceptable to harvestable levels. The 
fish restoration goals are the first overlay on our political map as we 
plan for the future.
    In accordance with water quality standards and guidelines provided 
through PIBO,and applicable federal laws that protect water quality,the 
CBC is working towards restoration efforts for forest communities which 
represent a desired future condition conducive to a healthier,more 
resilient, longstanding,native forest community that has the propensity 
to change severe fire regimes into a moderate to low complexity one to 
withstand wildland fire as well as insects and disease.
                           forest restoration
    One of our recommendations to the Nez Perce/Clearwater National 
Forest (Forest) is to restore Whitepine back into the ecosystem through 
a project called the Selway-Middle Fork Collaborative Forest Landscape 
Restoration Project (CFLRP). The CBC was awarded $10M for the project 
under the Collaborative Forest Landscape Restoration Act. As a pre-
cursor to the planning for this project, we recommended that roads not 
in use, adjacent to streams be decommissioned and old culverts be 
replaced with adequate ones to provide fish passage prior to any timber 
removal. The Tribe's Department of Fisheries Resource Management 
assisted the Forest in performing these contractual obligations.
    In order for this project to be successful, Grand-fir is proposed 
to be removed to allow for the restoration of Whitepine. This is a 
major undertaking by the Forest because it is a large scale approach to 
forest restoration using different forest practices to remove hazardous 
fuels such as commercial and pre-commercial thinning,and other 
vegetative treatments. It is our hope to encourage these types of 
larger, more complex projects in the future. Currently, the project is 
undergoing the National Environmental Policy Act (NEPA) review.
                careful consideration of the basin needs
    As a collaborative group, the CBC has carefully determined where 
forest restoration is feasible. The CBC has held many discussions about 
the arrangement of federal land use designations on the Forest and we 
have broad understanding where active timber management can occur. 
There are areas we want protected under the Wilderness Act, areas for 
Tribal cultural practice sites,and tributaries that need protection 
under Wild & Scenic. After identifying the geographic areas where 
special land designations should occur, we have deduced the remaining 
areas for active timber management called the ``Roaded Front'' which is 
envisioned for the restoration and sustainability and long-term 
viability of early seral forest timber types.
    As a secondary benefit from forest restoration activities,these 
active timber management areas provide the timber industry and rural 
communities some certainty that woody biomass can be harvested 
therefore generating commodities and alternative energy while 
sustaining forest industry jobs. It is also important to underscore the 
importance of all natural resources to the timber industry and rural 
communities. Rural communities are also interdependent upon anadromous 
fisheries, elk and other ungulate species,berries and other resources 
for their subsistence as well as the Nez Perce people. Members of the 
CBC do not wish for any resource to become limited or extirpated, and 
take great pride in the sustainability of these forest resources by 
harvesting what they need for consumption.
    At this juncture in our collaboration, I believe it is imperative 
that the Forest Service be allowed to move more quickly on our CFLRP 
Project for forest restoration without any impediment. Much 
consideration through the design of the project has been given to 
listed species (aquatic & terrestrial) under the Endangered Species 
Act. The projects have been reviewed by their respective biologists 
from a scientific point of view to protect resources and to sustain 
them. The CBC has also done a much more in-depth preliminary review for 
the agency to ensure that overall risk and cumulative impacts are 
greatly minimized. Our collaboration serves as a model for screening 
environmental concerns before the Selway-Middle Fork CFLRP project 
became reality. There are several environmental groups on the CBC, and 
if they are not satisfied with the intended outcome of a project. The 
nature of our consensus based collaboration essentially kills a project 
with a ``thumbs down'' or one member's disapproval of a project. It 
takes a tremendous amount of time and energy to reach consensus and 
recommend a project to the USFS. Let me state, that there are no 
projects without risk, but local knowledge from experienced and 
knowledgeable individuals on the CBC understand these landscapes well. 
This assures that these projects will not put listed species at greater 
risk.
    It is our intent that these forest projects take on a 
``restoration'' theme. With this stated,I believe an abbreviated NEPA 
review such as an Environmental Assessment rather than full-blown 
Environmental Impact Statement be afforded to streamline our CFLRP 
project. We would also request that any other forest land management 
tools intended to restore healthy forests be given the same 
consideration. These would include other collaboration sponsored 
projects intended to restore healthy residual forests while reducing 
the threat of fire and insects and disease. A collaborative process 
should afford the USFS less paperwork and smoother administrative 
process similar to the other restoration efforts for road obliteration 
and culvert replacement where NEPA is streamlined.
    Lastly,our collaboration was intentionally designed to bring all 
the necessary stakeholders to the table as well as the polarizing 
differences among us. Without the heartfelt discussions among the 
cultural iconic interests that comprise our collaborative, I believe it 
would be extremely difficult for a federal agency to respond and 
implement a large scale project that we proposed to the USFS. A lesser 
collaboration that only brought a select few of aligned interests does 
not suffice for broad representative support. Collaboration has to go 
through a crucible that reflects these divergent interests yet 
``socially acceptable land management practices'' to move forward. It 
takes a lot of time and effort to develop the working relationships in 
order to be successful.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

           Questions for Norman K. Johnson From Senator Wyden
    Question 1. I appreciate the thought and work that you have put 
into determining how the BLM's O&C lands should be managed and how more 
harvest can be achieved consistent with environmental values. Assuming 
portions of the O&C lands were set aside for conservation purposes and 
the other portions were to be managed using your prescriptions for 
ecological forestry, how much acreage do you think the BLM should treat 
within a 10-year period? Do you think legislation should mandate such 
treatment levels to ensure the portion of O&C lands set aside for 
production under your prescriptions eventually gets treated?
    Question 2. I believe we should highlight the successes of 
collaboration and incentivize collaborative efforts to get restoration 
work accomplished. Assuming some minimum standards for defining a 
collaborative group were established, would it make sense to afford 
restoration projects endorsed by a collaborative group a lighter 
paperwork burden, less administrative review, and/or more protection 
from stalling litigation?
    What minimum criteria for the local collaborative should the Forest 
Service or BLM use to trigger a lighter administrative burden for NEPA?
    How specifically should the implementation of NEPA be different for 
projects endorsed by a collaborative group?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

   Correction ``For the Record'' of the Prepared Statement of Thomas 
       Tidwell, Chief, Forest Service, Department of Agriculture
    In the Testimony submitted by the U.S. Forest Service, page 6, 3rd 
paragraph, second sentence was misunderstood and badly placed. The 
sentence read, ``We have increased our funding of the timber sale 
program over the last 17 years from a low of $180 million in 1995 to 
$335 million in 2012.''
    Instead, preceding that paragraph, the following paragraph would 
clarify:

          We have maintained our funding of the timber sale program 
        over the last 17 years from $335 million in 1995 to $368 
        million in 2012. Although this represents a slight increase in 
        funding, when adjusted for inflation it is actually a decrease 
        of $137 million. There have been dramatic shifts in the funding 
        sources: appropriations increased from $180 million to $335 
        million, salvage sale funds decreased from $155 million to $23 
        million, and regional K-V for forest products was authorized in 
        the interim and was $10 million in 2012.
                                 ______
                                 
                                               Oregon Wild,
                                                      Portland, OR.
Hon. Ron Wyden,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Wyden,

    On behalf of Oregon Wild and our organization's thousands of 
supporters, please include the following testimony in the public record 
pertaining to the Committee's June 25, 2013 hearing on ``Challenges and 
opportunities for improving forest management on federal lands.''
    While the Committee hearing was not focused specifically on western 
Oregon BLM lands, we believe that many of the themes relate directly to 
your recently released ``O&C Legislative Framework.'' The following 
comments should also be considered feedback to this framework and 
considered as you work to craft legislation for O&C lands.
            the importance of public lands for public values
    It is important to begin with a clear understanding of the 
differing roles of public and private lands. Private forest lands are 
great for producing logs and economic returns to landowners, but 
private landowners do not get paid, and therefore have little 
incentive, to produce clean air and water, wildlife habitat, 
recreation, scenic views, and carbon storage. Private lands likely 
produce an oversupply of wood because their prices do not reflect the 
full cost of production. The timber industry does not pay for the 
privilege of polluting our air and water, destroying habitat, or 
diminishing scenic views. Public ownership thus helps correct these 
market imperfections by ensuring that public lands provide critical 
ecosystem services that the public needs and that private lands do not 
adequately provide.
    In recognition of the importance of public lands for public values, 
the first and most important recommendation of the 1970 Public Land Law 
Commission was ``Federal lands should remain under federal control and 
be managed for the best use with respect to public needs and 
desires.''\1\ And the primary goal for federal land planning is ``Use 
of all public lands in a manner that will result in the maximum net 
public benefit.''\2\ This is essentially a restatement of Gifford 
Pinchot's maxim to manage public forests to provide ``the greatest good 
to the greatest number for the longest time.''
---------------------------------------------------------------------------
    \1\ OSU Cooperative Extension. 1971. The Public Land Law Commission 
Report and Its Importance to Oregon. Special Report 328. http://
ir.library.oregonstate.edu/xmlui/bitstream/handle/1957/4390/
SR%20no.%20328_ocr.pdf
    \2\ OSU Cooperative Extension. 1972. Planning Future Land Use--It's 
Importance to Oregon. Special Report 349. http://
ir.library.oregonstate.edu/xmlui/bitstream/handle/1957/4444/
SR%20no.%20349_ocr.pdf
---------------------------------------------------------------------------
    Legislative proposals to fund county budgets through quasi-
privatization of America's public lands have been offered in the U.S. 
House of Representatives. These measures would weaken or eliminate 
safeguards for clean water and wildlife and drastically increase 
destructive logging, grazing, mining, and drilling. Sacrificing one of 
the most valuable and enduring assets of the United States--our public 
lands--is the wrong approach to solving county budget shortfalls, as 
you recognized when you authored the Secure Rural Schools and Self 
Determination Act in 2000.
    Disposal of public land either to private ownership or to a trust 
with a goal that maximizes revenue, should not be favored. The Public 
Land Law Commission also said ``Public lands should be classified for 
transfer from federal ownership when maximum net public benefits would 
be assured by disposal. . . . Those charged with classifying public 
domain land for either retention or disposal should undertake 
considerable study before committance of this land. A systematic 
analysis and public hearings should be included as a part of this 
determination.''\3\
---------------------------------------------------------------------------
    \3\ Id.
---------------------------------------------------------------------------
                 western oregon blm public lands values
    The 2.6 million acres of Western Oregon forest lands managed by the 
BLM\4\ include rivers and streams that provide clean drinking water\5\ 
to over 1.8 million Oregonians\6\, habitat for fish & wildlife that 
people fish and hunt, habitat necessary to recover imperiled fish and 
wildlife, recreation opportunities, scenic values, and quality of life 
that help drive Oregon's economy.
---------------------------------------------------------------------------
    \4\ Of the 2.6 million acres of Western Oregon BLM lands, 2.1 
million are Oregon and California (O&C) lands, 0.1 million are Coos 
Bay Wagon Road (CBWR), and 0.4 million on public domain (PD) lands. 
There is also 0.5 million acres of ``controverted'' O&C lands that lie 
within the National Forest System on six Oregon national forests. We 
are equally concerned about the disposition of all of these kinds of 
federal public forestlands.
    \5\ Seventy-three percent of the BLM lands in Western Oregon are 
located in areas identified by the Oregon Department of Environmental 
Quality as drinking water protection areas. The Nature Conservancy and 
Wild Salmon Center. 2012. An Atlas of Conservation Values on Bureau of 
Land Management Holdings in Western Oregon, Oregon Explorer http://
oe.oregonexplorer.info/ExternalContent/TNC/.
    \6\ Oregon DEQ Land Ownership Summary by PWS. Table available upon 
request.
---------------------------------------------------------------------------
    These lands are also a key element of the quality of life that 
Oregonians enjoy--from providing clean drinking water for more than 1.8 
million people, to providing recreation and jobs in growing fields. For 
example, the most recent 2012 report from the Outdoor Industry 
Association confirms that the outdoor recreation industry directly 
supports 6.1 million jobs and contributes over $646 billion annually to 
the U.S. economy. In Oregon alone, outdoor recreation generates $12.8 
billion in consumer spending, $4.0 billion in wages and salaries, $955 
million in state and local tax revenue, and 141,000 direct Oregon 
jobs.\7\ According to the Bureau of Land Management, in 2010 there were 
a total of 6,811 jobs on Oregon BLM lands associated with recreation, 
accounting for a total of $662 million in output. Also, the most recent 
data from 2011 shows about 5.5 million visits were recorded on Western 
Oregon BLM associated with recreation.
---------------------------------------------------------------------------
    \7\ http://www.outdoorindustry.org/images/ore_reports/OR-oregon-
outdoorrecreationeconomy-oia.pdf
---------------------------------------------------------------------------
    In addition to the natural amenities that citizens enjoy, these 
lands are a critical component of the Northwest Forest Plan (NWFP), 
developed by former President Bill Clinton and adopted in 1994. After 
decades of overcutting and mounting social controversy, this landmark 
document finally brought science-based management to the publicly-owned 
forests of the Pacific Northwest. The NWFP is a 100 year plan designed 
to protect and restore old-growth forests, wildlife habitat, clean 
water, and salmon, while allowing compatible timber production. It has 
been well-documented that Western Oregon BLM lands are integral to the 
Northwest Forest Plan's success, as well as to the recovery of 
threatened species\8\.
---------------------------------------------------------------------------
    \8\ USFWS 1992. Final rule designating critical habitat for the 
northern spotted owl. Fed. Reg. Jan 15, 1992.
---------------------------------------------------------------------------
    Because these forests belong to all Americans and are a part of our 
nation's rich heritage of public lands, legislation that would alter 
their management would have enormous implications for public 
forestlands, wildlife areas, deserts and grasslands, and waters 
everywhere across the United States.
                         timber harvest levels
    We appreciate your dedication to, as you stated in the hearing, not 
``compromising bedrock environmental values'' in your endeavor to 
increase timber harvest on federal lands. But we'd like to challenge 
the premise that timber harvest on federal lands has declined 
dramatically, and therefore we must get it back up.
    While it's true that federal harvest levels today are significantly 
lower than they were prior to 1991, this is for good reason. Prior to 
1990, public forestlands were subject to unsustainable logging for 
decades. Watersheds were being decimated as roads and clear-cuts were 
built at alarming rates. As a result, salmon, northern spotted owl, and 
marbled murrelet populations faced precipitous declines. They were 
listed under the ESA because their habitat was fragmented and 
destroyed. To recover threatened species and to quell public opposition 
to old growth clearcutting, timber harvest had to decline. The harvest 
levels that followed the NWFP were the maximum allowable given legal 
requirements and the degraded state of the landscape. Since then, when 
the agencies have followed the Forest Plan's requirements, harvest 
levels have actually remained quite steady and have been meeting 
Congressionally-set targets for years.
    This is nicely illustrated in the O&C Lands Report prepared for 
Oregon Governor John Kitzhaber\9\, which notes that since 1995 the BLM 
has:
---------------------------------------------------------------------------
    \9\ ``O&C Lands Report: Prepared for Governor John Kitzhaber'' Feb. 
6, 2013, page 29

  <bullet> Offered 84% of ASQ Volume
  <bullet> Offered 96% of the Congressionally-funded `target'
  <bullet> Sold 96% of the volume Offered
  <bullet> Sold 80% relative to ASQ and 92% relative to the 
        Congressionally-funded target

    This harvest has been done within the science-based framework of 
the Northwest Forest Plan. While there may be additional volume that 
could be generated from these lands through scientifically sound 
conservation-based thinning projects, any possible increase must be 
carefully balanced against potential harm to clean water, endangered 
species, and the ability of these public forestlands to help mitigate 
the pollution that causes climate change.
    In addition, it is important to consider that the vast majority of 
Oregon timber mills have adopted new technology for high efficiency and 
the ability to process small logs available in abundance from both 
public and private lands. The few remaining mills that have refused to 
adapt their business model to use smaller logs do not deserve continued 
public subsidies in the form of large logs from our public forests. 
While logging and wood products will always be a part of Oregon's 
economy, this sector is not a growth industry. Manufacturing's share of 
total employment has steadily declined for more than 2 decades (as of 
2007)\10\, and a very small fraction of Oregon's employment depends on 
logging federal lands\11\.
---------------------------------------------------------------------------
    \10\ http://www.oregon4biz.com/assets/docs/PrivEmp.pdf
    \11\ http://www.qualityinfo.org/olmisj/
CES?areacode=41010000001&action=summary&submit=C ontinue
---------------------------------------------------------------------------
                   ``modernization'' of federal laws
    In your legislative framework you stated that ``The legislation 
will modernize existing federal laws as they apply to O&C lands so that 
harvest can continue at a steady, sustainable, and uninterrupted rate 
once an initial review of all lands set aside for management is 
completed and as long as subsequent timber sales comply with the 
legislation.'' While it remains unclear what this might entail, 
additional comments in the recent hearing by both you and Ranking 
member Murkowski suggested streamlining bedrock federal laws that 
embody public participation, such as the National Environmental Policy 
Act (NEPA).
    ``Modernizing federal laws'' could put our nation's clean water, 
wildlife habitat, and local communities at risk. The public relies on 
the Clean Water Act, the Endangered Species Act, and NEPA to safeguard 
our natural heritage for ourselves and our children. The idea that we 
may ``modernize'' federal laws suggests sufficiency language, which 
would deny the public the right to review forest management. The only 
law that arguably needs modernizing is the O&C Act of 1937 which over-
emphasizes timber production and unavoidably diminishes too many other 
important public benefits flowing from these lands.
NEPA
    Much of the hearing focused on the National Environmental Policy 
Act (NEPA)--which has been described as America's ``look before you 
leap'' environmental safeguard.
    Simply put, NEPA requires federal decision-making to be rational, 
informed, participatory, and accountable. Any effort to amend NEPA will 
short-change one or more of these core values. NEPA guarantees that 
federal agencies will carefully consider the environmental consequences 
of a major government action, and that Americans who are affected by 
such an action will get accurate information about its impacts, a 
choice among sound stewardship alternatives, and the right to have 
their voice heard before the government makes a final decision. NEPA 
ensures balance, common sense and openness in federal decision-making, 
and it is an effective means of ensuring accountability by federal 
managers.
    At the heart of NEPA is its requirement that alternatives must be 
considered--including alternatives that will minimize possible damage 
to our health, environment, quality of life, or to protect human life. 
Comparing the relative merits of several alternatives is a core 
requirement of rational decision-making. Absent this requirement, the 
decision-maker might propose a ``good'' alternative, but might miss the 
opportunity to consider a ``great'' alternative suggested by the 
public, a cooperating agency, or a scientific reviewer.
    By making sure that the public is informed and that alternatives 
are considered, NEPA has helped the agencies reject harmful 
alternatives and made countless projects better. Cutting corners on 
NEPA review can have serious adverse consequences, especially when it 
comes to spending taxpayer money on projects that might harm citizens 
or the environment that sustains us. The value of our common air and 
water cannot be under-estimated. The value of ``ecosystem services'' is 
in the trillions of dollars. We must not diminish these services 
without fully and consciously considering the consequences through NEPA 
review.
    Done well, NEPA can save time and money in the long run by reducing 
controversy, building consensus, and ensuring that a project is done 
right the first time. Limiting public involvement and weakening 
environmental review won't avoid controversy or improve projects. In 
fact, it will breed public distrust and discontent and slow the process 
of finding common ground.
    NEPA requires federal agencies to use the accurate scientific 
analysis and respond to opposing viewpoints. This ensures that federal 
managers use modern standards and ensures that they don't put blinders 
on and ignore relevant information that has a bearing on the decision. 
NEPA requires consideration of cumulative effects, which simply means 
that federal managers should make decisions within the context of what 
happened before and what might happen later, and that the left hand 
should know what the right hand is doing.
    An example of how well NEPA can work might help. Several years ago, 
the Umpqua National Forest's Diamond Lake Ranger District proposed to 
log thousands of acres of mature and old-growth forest (some even in 
inventoried roadless areas) around Lemolo Reservoir in the High 
Cascades. In the course of all stages of NEPA participation (scoping, 
public meetings and site tours, Draft EIS, Supplemental Draft EIS, 
Final EIS, ROD) the public was able to convince the Forest Service to 
modify the project so that it could eventually move forward with a 
modified design. The project was administratively appealed, but 
appellants agreed to withdraw the appeal in exchange for some changes 
to the design of temporary roads to be constructed and assurances about 
protecting some large trees. If not for NEPA, this project would 
certainly have ended up in a contentious lawsuit, but NEPA provided a 
framework for data collection, disclosure, and common understanding 
essential to a peaceful resolution.
    Another example relates to the government's keen interest in 
wildland/urban fuel reduction. NEPA ensures that the trade-offs between 
fuel reduction and wildlife habitat and water quality are fully 
disclosed and carefully considered. NEPA also helps ensure that fuel 
reduction efforts are effective in terms of reducing fire hazards. It 
is well known that thinning forests can reduce fire hazard by reducing 
surface fuels and ladder fuels, but it is much less well known that 
thinning can also make fire hazard worse by moving fuels form the 
canopy to the ground where they are relatively more available for 
combustion during a fire, and by increasing sunlight at ground level 
which reduces fuel moisture and stimulates the growth of future ladder 
fuels. When properly used, NEPA helps the decision-maker design fuel 
reduction efforts to optimize the competing values (e.g. reducing fire 
hazard vs. increasing fire hazard, degrading water quality, degrading 
wildlife habitat, compacting soil, etc.)
    In short, NEPA is an important law that should not be undermined. 
However, there may be some ways that it can be functionally improved to 
address alleged NEPA ``gridlock''. Alleged NEPA ``gridlock'' is 
primarily the result of two things: (1) well-founded public opposition 
to controversial projects in sensitive areas such as old growth, 
roadless areas, drinking watersheds, and important habitat areas, and 
(2) the agencies' own bureaucratic inefficiency.
    The most effective way address the first cause is to encourage the 
agencies to focus on restoration projects that have broad public 
support, not to expand controversial logging of mature forests or 
clearcutting. Sound decisions that restore forests and watersheds and 
comply with federal laws and policies will be approved quickly without 
controversy, while poor decisions that degrade wildlife habitat, log 
mature and old-growth forests, or damage watersheds, have legitimate 
reasons to be stopped and the agency responsible for the decision held 
accountable to environmental laws and the best available science.
    To address the second cause, a number of steps can be, and are 
being taken. The Forest Service and BLM representatives at the hearing 
mentioned a few: Planning larger scale projects under one NEPA 
analysis, and transitioning to the new objection process for example. 
In an issue paper signed by forty coalition partners, the Rural Voices 
for Conservation Coalition\12\ identified the need for maintaining 
federal environmental laws like NEPA, but recommended some 
efficiencies:
---------------------------------------------------------------------------
    \12\ Rural Voices for Conservation Coaltion (RVCC) Issue Paper, May 
2013. ``A Community-based Approach to Federal Forest Management: RVCC's 
Vision and Essential Goals.'' http://www.susnw.org/uploads/resources/
2013_Community_Forest_Mgmt_Issue_Paper_final.pdf

          To encourage the restoration of forest health and ecological 
        resiliency, an increase in NEPA efficiencies should be 
        considered. Several factors play into the perceived 
        inefficiency in following the requirements of this law. RVCC 
        participants have identified some of these and recommended some 
        changes in the context of the Blue Mountains Forest Partners 
        collaborative group that could be applied elsewhere. Common 
        barriers to an efficient NEPA process include: high agency 
        turnover; lack of coordinated agency response to new 
        information; lack of boilerplate information; inefficiencies in 
        the ESA consultation process; lack of funding and staff; and 
        poor communication and coordination between Forest Service 
        interdisciplinary teams.
          We recommend that any new federal forest management 
        legislation include solutions to these barriers. Such solutions 
        include: entrance and exit memos for agency staff; timely 
        replacement of agency staff that are transferred, retired, 
        etc.; prompt legal and policy evaluations for circulation to 
        agency staff; creation of a boilerplate library; programmatic 
        NEPA analysis; and the utilization of a trained local workforce 
        to assist the agencies in gathering the information and data 
        necessary for these analyses.
                   conservation areas and protections
    Senator Wyden's legislative framework suggests the creation of 
``wilderness and other permanent land use designations whose primary 
management focus will be to maintain and enhance conservation 
attributes'' in rough equivalent to the lands designated for logging.
    As recent analysis by The Nature Conservancy and others have shown, 
in order to adequately safeguard clean water, old-growth forests 
(current and future), and treasured recreation areas, far more than 
half of the O&C landscape needs to be protected or restored.\13\
---------------------------------------------------------------------------
    \13\ See The Nature Conservancy and Wild Salmon Center. 2012. An 
Atlas of Conservation Values on Bureau of Land Management Holdings in 
Western Oregon, Oregon Explorer http://oe.oregonexplorer.info/
ExternalContent/TNC/.
---------------------------------------------------------------------------
    We'd like to reiterate our whole-hearted support for protecting 
more Wilderness in Oregon. As such, we encourage you to continue to 
move forward with the Wilderness proposals already moving through 
Congress, like Devil's Staircase and the Wild Rogue, without tying them 
to forest management legislation. These proposals enjoy strong support 
and should move forward on their own merits.
    We are concerned about the framework document's reliance on 
designations other than Wilderness for safeguarding special places. For 
pristine public lands, Wilderness is the strongest and most effective 
tool for safeguarding conservation values. It has been our experience 
that alternative designations, such as National Recreation Areas, fall 
short. For instance, forests within the Oregon Cascades Recreation 
Area, adjacent to Crater Lake National Park, is currently targeted for 
logging by the Umpqua National Forest in the D-bug Timber Sale.
    We do recognize that Wilderness is not the appropriate tool to 
protect all important conservation values. It is important to note that 
Wilderness cannot be a replacement for the restoration goals of the 
NWFP, as there are simply too few pristine areas left on our public 
lands to ensure functional terrestrial and aquatic ecosystems.
    For achieving broad conservation and economic objectives in a 
scientifically-sound fashion, it is very hard to improve upon the 
Northwest Forest Plan. Senator Wyden's framework aspires to generate 
legislation to ``safeguard clean water and treasured resources and 
focus on long term conservation of habitat, but will also include areas 
emphasizing recreation and areas that would allow for restoration based 
thinning in previously managed stands.,'' This nearly perfectly 
describes the existing land allocation framework of the NWFP.
                      forest management principles
    Your framework suggests that ``a substantial portion of O&C lands 
will be set aside for sustainable economic activity with ultimate 
harvest levels governed by rules established in legislation.'' Your 
framework goes on to say that ``Sustainable harvest will be consistent 
with the most advanced forest management practices advocated by 
Northwest experts and demonstrated in pilot projects and collaborative 
efforts across the state, including the pioneering and successful 
efforts in the Siuslaw Forest and Medford BLM district.''
    Several of these points deserve specific discussion:
            Fragmenting our natural heritage
    Western Oregon forests have already been divided again and again. 
More than half of the productive capacity of Oregon's forests is 
controlled by private interests. More than half of the O&C forests have 
been previously exploited for timber production. Further fragmentation 
of the O&C lands to emphasize timber harvest could worsen existing 
environmental problems in Western Oregon, especially if it will require 
logging ecologically critical areas such as unlogged mature native 
forests (80-120 years old), critical habitat for threatened species, 
and areas currently designated as Riparian and Late Successional 
Reserves. These lands are an essential part of the Northwest Forest 
Plan, and any changes to the distribution of the reserve system in the 
Plan must go through extensive analysis to ensure survival and recovery 
of threatened species, while also providing other social, economic, and 
ecological values.
    BLM lands play an important role in the Northwest Forest Plan 
system of reserves combining the LSR network, the riparian reserves 
network, and critical habitat units. Together these serve as a ``land 
bridge'' linking wildlife populations that live in the Cascades, Coast 
Range and Klamath Mountains. Any effort to adjust land use on BLM lands 
must conserve the functional role of BLM lands as habitat connectivity. 
Given the degraded condition of the landscape throughout the private/
BLM checkerboard, it may not be possible to maintain this important 
function of BLM lands on just one-quarter of the landscape (e.g., a 
``roughly equivalent'' half of the BLM half of the checkerboard). In 
addition, new information regarding the need to protect and restore 
mature and old-growth habitat for threatened species should be 
considered in addition to the Plan's reserve system. And newly 
recognized needs for storing carbon and moderating stream flows to 
mitigate global warming must be considered.
    Oregon Wild's critique of the ``O&C Trust, Conservation, and Jobs 
Act'' outlined by Reps. DeFazio, Schrader, and Walden lays out some of 
the key reasons that further division of these lands fails to meet 
these goals.\14\ Rather than focus on a further ``splitting of the 
baby'' on the O&C lands, we would encourage you to look to an expansion 
of the successful restoration-based thinning programs taking place on a 
number of BLM Districts in Western Oregon, and on the Siuslaw National 
Forest. Such an approach offers a way to improve environmental health 
while increasing timber volume, without the need to change the 
Northwest Forest Plan or environmental laws. And it is the only 
approach that has demonstrated success in terms of both broad 
scientific and public support.
---------------------------------------------------------------------------
    \14\ Oregon Wild 2012. Problems and Pitfalls Associated with the 
Proposed ``O&C Trust, Conservation, and Jobs Act'' https://
dl.dropboxusercontent.com/u/47741/O%26C_Trust_Act_White_Paper_FINAL_6-
5-2012_w_DeFazio_response.pdf
---------------------------------------------------------------------------
            A critique of ``ecological forestry'' and ``variable 
                    retention harvest'' clearcutting
    We firmly believe that the best available science must be used to 
develop and implement plans for forest management. But we disagree that 
the pilot projects developed by Norm Johnson and Jerry Franklin 
demonstrate the ``most advanced forest management practices.'' Projects 
like the Buck Rising and White Castle timber sales on the Roseburg 
District BLM have not demonstrated much more than the fact that 
clearcutting on public lands--even with some retention trees--is highly 
controversial for the public and within the scientific community.
    Dr. Norm Johnson's testimony at the June 25 hearing explained his 
and Dr. Jerry Franklin's recommendations for increasing logging on O&C 
lands. Their logging principles are currently being demonstrated in a 
series of ``pilot'' projects initiated by the Secretary of the Interior 
on BLM lands. The goals of these pilot projects include 1) providing 
timber, 2) increasing early seral habitat, 3) and testing new logging 
principles. The projects in moist forest types utilize a harvest 
prescription called ``variable retention harvest'' (VRH). Johnson and 
Franklin spend a good deal of time trying to distinguish VRH from plain 
clearcutting.
    The Society of American Foresters defines ``clearcut'' as ``1. a 
stand in which essentially all trees have been removed in one 
operation--note depending on management objectives, a clearcut may or 
may not have reserve trees left to attain goals other than 
regeneration. . .''\15\ While the underlying goals of VRH may not be as 
purely economic as most clearcutting, and while VRH may leave more 
structure in the stand than a traditional clearcut, the results on the 
ground are more accurately described as ``clearcut with reserves,''\16\ 
with similar ecological and hydrological impacts to clearcutting.
---------------------------------------------------------------------------
    \15\ http://dictionaryofforestry.org/dict/term/clearcut.
    \16\ See http://dictionaryofforestry.org/dict/term/
regeneration_method and http://dictionaryofforestry.org/dict/term/
variable_retention_harvest_system
---------------------------------------------------------------------------
    Clearcutting has many negative ecological impacts, not to mention 
its controversial social nature. This practice has significant negative 
impacts on wildlife and natural forest components like snags and down 
wood, and increases invasive weeds, blowdown, fuel loads, 
fragmentation, and forest edge habitat. It harms soil through 
compaction, nutrient loss, erosion, and landslides. It depletes forest 
carbon stores and adds to global warming pollution. And it degrades 
water quality, scenic views, recreation, and quality of life.
    Furthermore, there are significant questions about the claim that 
VRH is needed to improve or increase early seral habitat. The alleged 
improvement of VRH over traditional clearcutting is only relative to 
industrial forestry (which is not allowed on public lands). Variable 
retention clearcutting is not an ecological improvement relative to 
natural processes. The scientific basis for ecological forestry can be 
improved with answers to some basic questions, including:

  <bullet> Is there really an ecologically significant shortage of 
        early seral habitat?
  <bullet> Which species are at risk? Do early seral species tend to be 
        mobile, generalist, and opportunist? Are there exceptions?
  <bullet> Does the sheer abundance of low-quality early seral habitat 
        on non-federal lands partially compensate for the shortage of 
        high-quality early seral?
  <bullet> Are natural processes like fire, wind, and insects creating 
        enough high-quality early seral on public lands? Will global 
        warming help those trends?
  <bullet> Are there ways of enhancing early seral habitat that do not 
        require clearcutting mature forests, such as improving 
        practices on non-federal lands, modifying salvage logging 
        practices, extending early seral conditions in existing young 
        stands, and embedding structure-rich ``gaps'' when thinning 
        dense young stands?

    Without addressing these many concerns, we believe the expansion of 
VRH across the BLM landscape, as recommended by Johnson and Franklin, 
would have many negative impacts. It would be a significant departure 
from the Northwest Forest Plan's emphasis on the need to protect and 
restore old forests and the recent success enjoyed by the agencies from 
focusing on thinning dense young stands that were previously clearcut. 
And most importantly, there are better ways to manage our public 
forests. There is no compelling reason to shift from successful and 
much needed thinning to destructive and controversial clearcutting--
with or without reserve trees.
            Collaboration and restoration
    We do not believe that the clearcutting principles and techniques 
being advanced by Drs. Johnson and Franklin should be given the same 
weight in any O&C legislation as the successful collaborative and 
restoration-based thinning work being done without controversy on the 
Siuslaw National Forest. The Siuslaw National Forest has been 
successfully producing timber as a by-product of restoration for more 
than a decade. They are not practicing clearcutting as envisioned by 
Johnson and Franklin, but continue to innovate in the way they thin 
young forests for diversity and wildlife habitat. The Siuslaw routinely 
exceeds the timber volume targets set for it through Congressional 
funding, and has largely avoided the conflict and controversy that has 
plagued other federal public lands logging, such as the Medford and 
Roseburg BLM distrcts.
    We agree with many of the comments made at the hearing regarding 
the benefits of collaboration around forest management. In our 
experience, collaborations between forest management agencies and 
diverse interest groups and individuals can lead to agreement and 
common ground unheard of a decade ago. When common ground around 
ecological restoration is used as a starting point, forest management 
activities can proceed with little to no controversy as trust is built 
among parties--setting the stage for future on-the-ground work. This 
vision was advanced in your ``Oregon Eastside Forest Restoration, Old-
growth Protection, and Jobs Act,'' and we've seen progress throughout 
Oregon in this vein. In fact, in a draft report by Oregon Solutions for 
the State of Oregon's Federal Forestlands Advisory Committee, they 
found a strong suggestion in both data and in anecdotal comments that 
the increase in collaborative groups have significantly reduced 
challenges to land management actions.\17\
---------------------------------------------------------------------------
    \17\ Oregon Solutions. ``Oregon Forest Collaboratives: Statewide 
Inventory,'' Working Draft, February 2013. http://orsolutions.org/beta/
wp-content/uploads/2011/08/OFCSI_Draft_February_20131.pdf
---------------------------------------------------------------------------
    We support the use of collaboration to find common ground around 
forest management activities, not as a substitute for NEPA, but as a 
complimentary process that can help make permanent shifts in agency 
focus toward ecological restoration. Unfortunately, we do not believe 
this common ground can be achieved when not restoration, but rather 
increased harvest for the sake of county funding, is the goal of forest 
management.
                          additional resources
    Finally, we direct you to four important white papers developed by 
our staff that are pertinent to this discussion.

  <bullet> Problems and Pitfalls Associated with the Proposed ``O&C 
        Trust, Conservation, and Jobs Act.'' Oregon Wild. 2012. https:/
        /dl.dropboxusercontent.com/u/47741/O%26C--Trust--Act--White--
        Paper--FINAL--6-5-2012--w--DeFazio--response.pdf
  <bullet> ``The Case for Protecting both Old Growth and Mature 
        Forests.'' Doug Heiken. 2009. https://
        dl.dropboxusercontent.com/u/47741/
        Mature%20Forests%2C%20Heiken%2C%20 v%201.8.pdf
  <bullet> ``Log it to save it? The search for an ecological rationale 
        for fuel reduction logging in Spotted Owl habitat.'' Doug 
        Heiken. 2010. https://dl.dropboxusercontent.com/u/47741/
        Heiken--Log--it--to--Save--it--v.1.0.pdf
  <bullet> ``Riparian Reserves Provide Both Aquatic & Terrestrial 
        Benefits: A Critical Review of Reeves, Pickard, and Johnson 
        (2013).'' Doug Heiken. 2013. https://dl.dropboxusercontent.com/
        u/47741/Heiken%202013.%20Review%20of%20Reev 
        es%20et%20al%20Riparian%20Proposal.pdf

    In the months ahead, we look forward to working with your staff to 
discuss the development of legislation for western Oregon. As you move 
forward, we urge you to consider solutions that do not sacrifice clean 
drinking water, critical wildlife habitat, or bedrock environmental 
laws and values.
            Respectfully submitted,
                                              Sean Stevens,
                                                Executive Director.

                                    

      

</pre></body></html>
